<html>
<title> - SYRIA SPILLOVER: THE GROWING THREAT OF TERRORISM AND SECTARIANISM IN THE MIDDLE EAST AND UKRAINE UPDATE</title>
<body><pre>[Senate Hearing 113-603]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-603
 
 SYRIA SPILLOVER: THE GROWING THREAT OF TERRORISM AND SECTARIANISM IN 
                   THE MIDDLE EAST AND UKRAINE UPDATE

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
       
       
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      
 
                           U.S. GOVERNMENT PUBLISHING OFFICE
 93-842 PDF                        WASHINGTON : 2015             

______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001



     
      
      
      
      
     

                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii) 
                              
                              

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Burns, Hon. William J., Deputy Secretary of State, U.S. 
  Department of State, Washington, DC............................     4
    Prepared statement...........................................     8
    Responses of Deputy Secretary William Burns to Questions 
      Submitted by Senator Bob Corker............................    67
Chollet, Hon. Derek, Assistant Secretary of Defense for 
  International Security Affairs, U.S. Department of Defense, 
  Washington, DC.................................................    13
    Prepared statement...........................................    14
    Response of Assistant Secretary Derek Chollet to Question 
      Submitted by Senator Bob Corker............................    69
Corker, Hon. Bob, U.S. Senator from Tennessee....................     3
Gartenstein-Ross, Daveed, senior fellow, Foundation For Defense 
  Of Democracies, Washington, DC.................................    44
    Prepared statement...........................................    45
Levitt, Ph.D., Matthew, director for Stein Program on 
  Counterterrorism and Intelligence, The Washington Institute for 
  Near East Policy, Washington, DC...............................    55
    Prepared statement...........................................    57
Menendez, Hon. Robert, U.S. Senator from New Jersey..............     1
Olsen, Hon. Matthew G., director, National Counterterrorism 
  Center, Washington, DC.........................................    16
    Prepared statement...........................................    18

                                 (iii)
                                 
                                 

  


 SYRIA SPILLOVER: THE GROWING THREAT OF TERRORISM AND SECTARIANISM IN 
                   THE MIDDLE EAST AND UKRAINE UPDATE

                              ----------                              


                        THURSDAY, MARCH 6, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:07 a.m,. in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Cardin, Shaheen, Murphy, Kaine, 
Markey, Corker, Risch, Johnson, Flake, Barrasso, and Paul.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing will come to order. Let me thank 
Deputy Secretary of State Burns for coming. While this was 
planned, obviously, well before the current state of events, 
understanding the challenges of your schedule, we appreciate 
your still being here today with us, as well as all of our 
panelists for being here to provide their perspective on the 
increasingly violent spillover from the ongoing conflict in 
Syria, and to hear also from the Deputy Secretary on the 
implication of Russia's military intervention in the Ukraine.
    As a cautionary note, we have a vote that will be taking 
place at around 11:20. So we will see where we are at in the 
proceeding. We may have to recess briefly. It is one vote; to 
vote and then come back. I am sure the Deputy Secretary would 
be happy for us to cast that vote since it is about Rose 
Gottemoeller.
    As we enter year 3 of the Syria crisis, headlines coming 
out of the region are no longer limited to the violence within 
Syria, but to the increasing spread of violence across Syria's 
borders, especially into Lebanon and Iraq. Of great concern is 
the proliferation of al-Qaeda affiliates and splinter groups 
and the increasing sectarian rhetoric fueling the increased 
violence that offers new opportunities for al-Qaeda to gain 
footholds in local communities.
    It opens the door for an Iranian-sponsored terrorist 
network to justify their presence as the protector of the 
region's Shias, while bolstering the Assad regime and 
antagonizing Arab States.
    The spillover from Syria is dangerous and troubling. In 
Lebanon there has been an alarming uptick in high-profile 
bombings, many claimed by the al-Qaeda-affiliated Abdullah Azam 
Brigades, and at the same time Hezbollah, purportedly 
protecting the Lebanese Shia communities, now extending into 
Syria, protecting the Assad regime.
    From where I sit, the region is becoming increasingly 
unstable, increasingly violent, and increasingly sectarian. 
Having said that, that is a major challenge for which the 
committee obviously wanted to rivet our attention, Ukraine is 
the 800-pound gorilla at the moment and we cannot ignore it. 
Nor can we ignore that Russia is a common element in both 
countries. Russia's support for Assad in Syria and the Russian 
invasion and occupation of parts of Ukraine make clear that 
Putin's game is not 21st century statesmanship, but 19th 
century gamesmanship.
    The brave protesters in Maidan Square, having lived under 
Russia's mantle for years, stood their ground because they 
understood that their fight was not just with their 
government's corrupt leaders, but also for the very future of 
their independent nation. Putin has cast aside both 
international law and his nation's own commitments to respect 
the territorial integrity of the Ukraine.
    We need a policy that checks and counters Russia's self-
centered, nationalistic and imperialistic, policy that adheres 
to no law, not international law, nor even those commitments it 
has made personally.
    Today our concern is for the Ukraine. Tomorrow it again 
could be for Georgia or perhaps Moldova, two nations waiting to 
finalize their association agreement with the European Union, a 
process that the Ukraine was engaged in, to the displeasure of 
the Russian Government.
    I want to note that I welcome the administration's 
expeditious response to the situation in Ukraine, the pledge of 
assistance in the form of loan guarantees, which this committee 
intends to endorse in legislation next week, and today's 
Executive order restricting visas, freezing assets, blocking 
property under U.S. jurisdiction, and preventing American 
companies from doing business with any individual or entity 
identified by the administration that threatens the peace, 
security, stability, sovereignty, or territorial integrity of 
Ukraine, or contributes to the misappropriation of state assets 
of the Ukraine, or purports to assert governmental authority 
over any part of Ukraine without authorization from the 
Ukrainian Government in Kiev.
    This flexible tool will allow the United States to target 
those directly responsible for the Crimean crisis and will 
further put Putin and his allies on notice that Russia's 
actions are not without consequence. The committee is prepared 
to codify this action and potentially provide the President 
with further authority to respond to the situation as it 
develops.
    President Putin's game of Russian roulette has pointed the 
gun at the international community's head. I believe this time 
he has miscalculated and I certainly believe it is essential 
that we do not blink. The unity of purpose displayed at the 
U.N. Security Council by the European Union and the G7 nations 
in support of Ukrainian autonomy, and in opposition to Russian 
authoritarianism, demonstrates the world's outrage, and I 
believe serves as a call to action.
    With that, I would be happy to recognize the distinguished 
ranking Republican, Senator Corker, for his remarks.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman, and thank you for 
having this hearing, and thank you for allowing it to evolve 
from Syria to Ukraine because of the current events. I want to 
thank all of you for your public service and for being here. I 
know that you do not necessarily decide what the policy is, but 
you carry it out. I just want to say that I could not be more 
disappointed in where we are in Syria. It is kind of amazing 
how prognosticators, both here on this panel, at the dais here, 
and around the world, stated what was going to happen in Syria 
over time if we did not change the balance on the ground, and 
unfortunately that is exactly what has happened.
    It has turned into a regional conflict, destabilizing other 
countries. Al-Qaeda is on the rise, not only, and other 
extremists, in Syria, where our Director of National 
Intelligence and others are now stating this is becoming a 
threat to the homeland, but it is also a threat to the entire 
region. You can witness that on the ground in Iraq now, this 
incredible violence that is occurring there, and as the 
chairman just mentioned, in Lebanon.
    You know, we tried to help the administration by passing 
something here in this committee and we did so on a 15-3 vote 
to arm and really support the vetted opposition. Unfortunately, 
the administration just never came around to doing the things 
that it stated publicly that it would do, and it just never has 
done it. So this has festered and there has never been a change 
that has caused Assad to really even want to sit down and 
negotiate. Obviously, what happened at Geneva 2 is what 
everybody expected.
    We gave the President, out of committee on a 10-7 vote, the 
authorization for the use of force, and yet the President 
really not only did not really make a case for it publicly, but 
obviously sort of jumped in Russia's lap to help us out of this 
situation in the deal with chemical weapons. Since then I know 
that 30 to 40,000 people have been killed. I do not know if the 
people who have been killed really care whether it was through 
chemical weapons or through barrel bombs that are being 
indiscriminately dropped on civilians right now. But it is a 
disaster of great proportions.
    It is certainly a failure on our part and many other 
nations relative to foreign policy, and it is destabilizing the 
region. I could not be more disappointed.
    And the two are related, as the chairman just mentioned. I 
do not know that we could say that Russia would not have done 
what it did in Ukraine with a different approach. I do not 
think we can state that. But I think that the permissive 
environment that we have created through this reset, thinking 
that someone like Putin reacts to warmth and charm and reach-
out, when what he really reacts to is weakness and I think he 
has seen that in our foreign policy efforts over the course of 
this last year.
    Again, I do not think we can make a case that what happened 
in Crimea would not have happened, but I certainly do not think 
he has felt that there would be much of a pushback from us.
    So I am thankful today that, again, there are some steps 
that are being taken. As the chairman mentioned, we stand 
ready, here, to enable the administration to act even more 
forcefully. We had a great meeting yesterday. But I could not 
be more disappointed that we are where we are. I think our 
credibility very much has been on the line, is on the line, and 
I do think that us having a unified and very strong reaction 
and approach over a long time, not something that is just 
short-term, over a long time, is very important relative to 
Russia right now, as is regaining some of that credibility.
    So I thank you for being here. I know you are going to talk 
some about Syria. I hope you will explain more fully what you 
think these sanctions that have been announced this morning are 
about. I think that would be helpful to us over the next few 
days in doing something that is complementary to those efforts. 
So I thank you for being here, and I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Corker.
    We will start off with Deputy Secretary Burns, who also 
served as Ambassador to Russia from 2005 to 2008 and has some 
obvious firsthand experience. We also are pleased to have with 
us the Assistant Secretary of Defense for International 
Security Affairs, Derek Chollet. We appreciate you being here, 
as well as the Director for the National Counterterrorism 
Center, Matt Olsen. We thank you all.
    All of your statements will be fully included in the record 
without objection, and I would ask you to more or less 
summarize within 5 minutes. If you go over a little bit, 
obviously with the gravity of the situation we want to hear 
from you. But I know that members do want to engage in a 
conversation with you about their issues and concerns.
    With that, Mr. Secretary, you are recognized.

STATEMENT OF HON. WILLIAM J. BURNS, DEPUTY SECRETARY OF STATE, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Burns. Thank you very much, Chairman Menendez, 
Ranking Member Corker, members of the committee. I very much 
appreciate this opportunity. I am pleased to be joined by Matt 
Olsen and Derek Chollet and I appreciate your putting my 
written testimony into the record.
    Before addressing the issue of extremism in the Levant, let 
me first offer a quick assessment of developments in Ukraine, 
as you requested. A great deal is at stake in Ukraine today. 
Less than 48 hours ago, in Kiev not far from the Shrine of the 
Fallen, Secretary Kerry made clear America's deep and abiding 
commitment to Ukraine's sovereignty and territorial integrity 
in the face of Russian aggression and our determination to 
ensure that the people of Ukraine get to make their own choices 
about their future. That is the bedrock conviction for the 
United States.
    On my own visit last week, I was profoundly moved by the 
bravery and selflessness of Ukrainians and profoundly impressed 
by the commitment of the new interim government to reach across 
ethnic and regional lines and build a stable, democratic, and 
inclusive Ukraine with good relations with all of its 
neighbors, including Russia.
    While we and our partners worked to support Ukraine's 
transition, Russia worked actively to undermine it. Russia's 
military intervention in Crimea is a brazen violation of its 
international obligations and no amount of Russian posturing 
can obscure that fact. Ukraine's interim government, approved 
by 82 percent of the Rada, including most members of 
Yanukovych's party, has shown admirable restraint in the face 
of massive provocation. They need and deserve our strong 
support.
    President Obama, Secretary Kerry, and the entire 
administration have been working hard, steadily, and 
methodically, to build urgent international backing for 
Ukraine, counterpressure against Russia, reassurance to other 
neighbors, and a path to deescalation. Our strategy has four 
main elements, and we look forward to working with this 
committee and with the Congress on each of them.
    First, immediate support for Ukraine as it deals with 
enormous economic challenges and prepares for critical national 
elections at the end of May. On Tuesday Secretary Kerry 
announced our intent to seek a $1 billion loan guarantee. That 
will be part of a major international effort to build a strong 
economic support package for Ukraine as it undertakes reform. 
That effort includes the IMF and the EU, which laid out its own 
substantial assistance package yesterday.
    Prime Minister Yatsanyuk and his colleagues are committed 
partners and understand that the Ukrainian Government has 
difficult reform choices to make after inheriting an economic 
mess from Yanukovych. Ukraine's considerable economic potential 
has never been matched by its business environment or economic 
leadership and now is the time to begin to get its financial 
house in order and realize its promise.
    Second, deterring further encroachment on Ukrainian 
territory and pressing for an end to Russia's occupation of 
Crimea. President Obama has led a broad international 
condemnation of Russia's intervention with strong unified 
statements from the G7 and NATO, as well as the EU, whose 
leaders are meeting today in an emergency summit. We are 
sending international observers from the OSCE to Crimea and 
eastern Ukraine to bear witness to what is happening and make 
clear that minorities are not at risk. This was never a 
credible claim by Russia nor a credible pretext for military 
intervention.
    We are making clear that there are costs for what Russia 
has already done and working with our partners to make clear 
that the costs will increase significantly if intervention 
expands. Today, as you mentioned, Mr. Chairman, the President 
signed an Executive order authorizing sanctions, including 
asset freezes and travel bans on individuals and entities 
responsible for activities undermining democratic processes or 
institutions in Ukraine, threatening the peace, security, 
stability, sovereignty, or territorial integrity of Ukraine, 
contributing to the misappropriation of state assets of 
Ukraine, or that purport to exercise authority over any part of 
Ukraine without authorization from the Ukrainian Government in 
Kiev. This EO will be used in a flexible way to designate those 
most directly involved in destabilizing Ukraine.
    The State Department today also put in place visa 
restrictions on a number of officials and individuals. We 
continue to look at every aspect of our relationship with 
Russia, from suspension of preparations for the Sochi G8 summit 
to pausing key elements in our bilateral dialogue.
    Third, bolstering Ukraine's neighbors. We are moving 
immediately to reinforce our Washington Treaty commitments to 
our allies. As Secretary Hagel stressed yesterday, we are 
taking concrete steps to support NATO partners through 
intensified joint training with our aviation detachment in 
Poland and enhanced participation in NATO's air policing 
mission in the Baltics.
    Fourth, Secretary Kerry is working intensively to 
deescalate the crisis in order to restore Ukraine's sovereignty 
while creating a diplomatic offramp. We support direct dialogue 
between Kiev and Moscow, facilitated by an international 
contact group. The President and Secretary Kerry have 
emphasized we do not seek confrontation with Russia. It is 
clearly in the interest of both Ukraine and Russia to have a 
healthy relationship, born of centuries of cultural, economic, 
and social ties. The will for that exists among Ukraine's new 
leaders, but it cannot happen if Russia continues down its 
current dangerous and irresponsible path. That will only bring 
greater isolation and mounting costs for Russia.
    Our strategy, it seems to me, needs to be steady and 
determined, mindful of what is at stake for Ukrainians as well 
as for international norms. We also need to be mindful of the 
enduring strengths of the United States and its partners and 
the very real weaknesses sometimes obscured by Russian bluster. 
Most of all, President Putin underestimates the commitment of 
Ukrainians across their country to sovereignty and independence 
and to writing their own future.
    No one should underestimate the power of patient and 
resolute counterpressure using all of the nonmilitary means at 
our disposal, working with our allies, and leaving the door 
open to deescalation and diplomacy if Russia is prepared to 
play by international rules.
    Now let me turn very briefly to the Levant. The turbulence 
of the past 3 years has had many roots: rising aspirations for 
dignity, political participation, and economic opportunity in a 
region in which too many people, for too many years, have been 
denied them, the ruthless reaction of some regimes and the 
efforts of violent extremists to exploit the resulting chaos. 
Nowhere have these trends converged more dangerously than in 
Syria. The conflict and the Assad regime have become a magnet 
for foreign fighters, many affiliated with terrorist groups 
from across the region and around the world.
    As Matt will describe, these fighters, mostly Sunni 
extremists, represent a long-term threat to U.S. national 
security interests. From the other side, Assad has recruited 
thousands of foreign fighters, mostly Shia, to defend the 
regime, with active Iranian support and facilitation. The hard 
reality is that the grinding Syrian civil war is now an 
incubator of extremism on both sides of the sectarian divide.
    We face a number of serious risks to our interests as a 
result: the risk to the homeland from global jihadist groups 
who seek to gain long-term safe havens, the risk to the 
stability of our regional partners, including Jordan, Lebanon, 
and Iraq, the risk to Israel and other partners from the rise 
of Iranian-backed extremist groups, especially Lebanese 
Hezbollah, fighting in Syria, and the risk to the Syrian 
people, whose suffering constitutes the greatest humanitarian 
crisis of this new century.
    These are enormous challenges. They require a steady, 
comprehensive American strategy aimed at isolating extremists 
and bolstering moderates both inside Syria and amongst our 
regional partners. I would highlight briefly four elements of 
our strategy.
    First, we are working to isolate and degrade terrorist 
networks in Syria. That means stepping up efforts with other 
governments to stem the flow of foreign fighters into Syria and 
cutting off financing and weapons to terrorist groups. It also 
means stepping up efforts to strengthen the moderate 
opposition, without which progress toward a negotiated 
transition of leadership through the Geneva process or any 
other diplomatic effort is impossible. Strengthened moderate 
forces are critical both to accelerate the demise of the Assad 
regime and to help Syrians build a counterweight to the 
extremists who threaten both the present and the post-Assad 
future of Syria and the region. None of this is easy, but the 
stakes are very high.
    Second, we are pushing hard against Iranian financing and 
material support to its proxy groups in Syria and elsewhere. We 
are also working intensively with partners in the gulf and 
elsewhere to curb financing flows to extremists.
    Third, we are increasing cooperation with Turkey and 
intensifying our efforts to strengthen the capacity of Syria's 
other endangered neighbors. In Jordan, which I visited again 
last month, we are further enhancing the capacity of the 
Jordanian Armed Forces to police its borders and deepening 
intelligence cooperation on extremist threats. The staggering 
burden of supporting 600,000 Syrian refugees has put serious 
strain on Jordan's resources. We deeply appreciate Congress' 
continued support for significant United States assistance for 
Jordan, which has totaled about a billion dollars for each of 
the past couple years, complemented by substantial loan 
guarantees. I can think of no better investment in regional 
stability than our efforts in Jordan.
    In Lebanon, we are supporting the Lebanese Armed Forces to 
help deter spillover, better monitor the border with Syria, and 
help bolster the government's policy of disassociation from the 
Syrian conflict. The formation of a new Cabinet last month 
provides a renewed opportunity for the United States to engage, 
and Secretary Kerry reaffirmed our strong commitment to 
Lebanon's security and economic stability directly to President 
Sleiman and to the international support group for Lebanon 
ministerial meeting in Paris yesterday.
    In Iraq, we are surging security assistance and 
information-sharing to combat the rising threat from ISIL, 
while pressing Iraqi leaders to execute a comprehensive 
strategy, security, policy, and economic, to isolate 
extremists, especially in Anbar. That was one of the main 
purposes of my last visit to Baghdad at the end of January.
    I appreciate the close consultation we have had with you, 
Mr. Chairman, and with other members of the committee on these 
crucial issues.
    Finally, we are supporting global efforts to ease the 
humanitarian crisis in Syria through the $1.7 billion we have 
already contributed.
    Beyond the Levant, we continue to work with our gulf 
partners to enhance security cooperation, blunt the extremist 
threat, and support sound economic development in transitioning 
countries. This will be an important focus of the President's 
visit to Saudi Arabia later this month.
    Mr. Chairman, the rise of extremism in the Levant poses an 
acute risk for the United States and for our regional partners. 
It is essential that we intensify our efforts to isolate 
extremists in Syria, limit the flow of foreign fighters, 
bolster moderate opposition forces, ease the humanitarian 
crisis, and help key partners like Jordan defend against 
spillover.
    Thank you again for your focus on these vitally important 
issues and we look forward to continuing to work with you.
    [The prepared statement of Ambassador Burns follows:]

           Prepared Statement of Ambassador William J. Burns

    Chairman Menendez, Ranking Member Corker, members of the committee, 
thank you for inviting me to address the challenges of growing 
extremism in the Levant.
    My statement will discuss the nature of the extremist challenge in 
the Levant, the important interests at stake for the United States, and 
how we intend to advance and protect those interests over the coming 
months.
                      the nature of the challenge
    Over the past decade, aspirations for a better life have risen 
among populations across the Middle East. Sixty percent of the people 
in the region are under 30 years of age, and their ambitions--for 
economic opportunity, political expression, and basic human rights--
ultimately burst onto the streets, from Tunisia, to Egypt, to Libya and 
Yemen, Bahrain and finally to Syria. Fueled by new technologies that 
enabled greater connectivity and individual political expression, 
populations across the region, often for the first time, sought to hold 
their leaders accountable.
    There have been some successes, most notably in Tunisia, where a 
new pluralistic political system has begun to emerge, anchored by a 
just-ratified constitution, and in Yemen, where the first phase of a 
historic level of national consultation over the direction of the 
country has just been completed. But the broader trend is one of 
turbulent transformation, often exacerbated by regional rivalries and 
destabilizing interventions, including Iran's role in Syria. The 
initial exhilaration among those pressing for change has given way to 
the hard realization that lasting social and political transformation 
requires arduous effort, compromise, and time.
    The rapid changes in the region have created vacuums and reopened 
long-dormant divisions within societies and along class, sectarian, and 
ethnic fault lines. Sectarian conflicts have reemerged, and the same 
technologies that facilitated peaceful popular movements have also been 
used to deepen societal fissures--spreading messages of hate and 
incitement against entire groups based solely on identity or 
affiliation.
    Nowhere have these trends converged more powerfully than in Syria. 
There, 3 years ago, an authoritarian regime met peaceful protests with 
violent suppression and carnage. The fateful decision by the Assad 
regime to reject a meaningful political dialogue and violently suppress 
popular aspirations led to open, armed conflict. That conflict 
exacerbated existing ethnic, sectarian, and broader regional political 
tensions, fueling the extremism that is the topic of this hearing.
    Among the many consequences of the Syria conflict, one of the most 
serious is the rise of extremism in the Levant. The conflict is now 
attracting foreign fighters from across the region and around the 
world. Many of these fighters are affiliated with designated terrorist 
groups, such as the al-Qaeda affiliated al-Nusra Front, and the 
formerly Iraq-based al-Qaeda affiliate now known as the Islamic State 
of Iraq and the Levant (ISIL). Both of these terrorist groups have 
sought to hijack the same popular aspirations the regime violently 
repressed.
    As my colleague from the National Counterterrorism Center (NCTC) 
will discuss in more detail, NCTC now assesses there are nearly 23,000 
extremist fighters in Syria, including more than 7,000 foreign fighters 
from as many as 50 countries. These fighters, mostly Sunni extremists, 
could represent a long-term threat to U.S. national security interests. 
Nusra and ISIL, have exploited largely ungoverned spaces in northern 
and eastern Syria to carve out territory to train fighters, recruit 
more of them, and plan attacks. Both groups have recently taken credit 
for terrorist operations in Lebanon, including one on the Lebanese 
Armed Forces. ISIL has also established camps in western Iraq and 
claimed terrorist operations in Iraq.
    From the other side, thousands of foreign fighters (mostly Shia) 
have traveled to Syria to defend the Assad regime with active support 
from Iran and Lebanese Hezbollah in recruiting and fighting. We believe 
the majority of these fighters come from Lebanon and Iraq. They are 
recruited on the premise of defending holy sites in Syria, but have 
been observed in battle across Syria. The foreign fighters' presence 
exacerbates the conflict's sectarian dimension and has led to lethal 
competition with the indigenous Syrian opposition.
    The grinding Syrian conflict is now an incubator of extremism--on 
both sides of the sectarian divide. Controversial Sunni clerics have 
called on able-bodied Sunni men to travel to Syria to fight in a 
foreign war against what they brand a Shia regime. Radical Shia clerics 
such as Hassan Nasrallah, the head of the high profile Shia extremist 
group Hezbollah in Lebanon, have called on able-bodied Shiites to fight 
those they brand ``Takfiris'' fighting on the side of the opposition.
    It is important to note that the conflict in Syria is not primarily 
a clash between the Shia and Sunni branches of Islam, but rather a 
clash between a small minority of violent extremists against the vast 
majority of moderates, whether Sunni or Shia, who seek to realize the 
promise of economic and political modernization. The extremists fueling 
the flames of conflict are outliers. To put that in perspective, while 
there may be up to 23,000 fighters among the rebel ranks inside Syria, 
the total number of opposition fighters is estimated between 75,000 and 
110,000.
    Despite the sectarian dimension of the Syria conflict, we also 
believe that it is a mistake to describe it as simply a proxy war 
between Iran and Saudi Arabia. To do so obscures the origins of the 
Syria conflict, which began as a nonviolent movement for political 
change. And it trivializes the sacrifice of the many Syrian men and 
women who do not identify with extremists from the Sunni or Shia camps, 
and who have stood up to an oppressive regime for basic political 
rights. It would be a mistake to dismiss this moderate majority, who 
stand against violent extremist groups on both sides of the conflict. 
The United States has no interest in taking sides in a contest between 
Sunni and Shia, whether in Syria, Lebanon, Iraq, or anywhere else in 
the region. Instead, as President Obama has stated: ``What we are 
trying to do is take sides against extremists of all sorts and in favor 
of people who are in favor of moderation, tolerance, representative 
government, and over the long term, stability and prosperity for the 
people of Syria.''
    That statement encapsulates our fundamental objective, not only in 
Syria--but also throughout the Levant and the broader region.
                        u.s. interests at stake
    There are four immediate risks to U.S. interests from the Syrian 
conflict and the rise of extremist groups in the Levant.
    First, there is the risk of external operations by al-Qaeda 
affiliated or inspired groups, such as al-Nusra and ISIL. We know that 
some of these groups seek long-term safe haven from which to expand 
their base of operations for attacks throughout the region and 
potentially the West.
    Second, there is the risk to the stability of our partners in the 
region, including Lebanon, Jordan, and Iraq. In Lebanon, there are now 
nearly 1 million refugees from Syria, roughly 20 percent of the 
population prior to the Syrian conflict, and sectarian tensions are 
spilling over the Syria-Lebanon border. Lebanon has experienced car 
bombs in Beirut and elsewhere and gunfights in the flashpoint city of 
Tripoli. Shia-populated border towns have been the target of direct 
attacks by ISIL, Nusra, and its allies in the Islamic Front, and Sunni 
towns by the Assad regime. In Jordan, nearly 600,000 Syrian refugees, 
more than 10 percent of the population, are stressing limited 
resources. Despite an unprecedented international humanitarian 
response, both Jordanian and Lebanese governments are struggling to 
deal with the strain. In Iraq, the two-way flow of extremist fighters--
and the rise of ISIL--has increased violent attacks to levels not seen 
since 2007, with nearly 1,000 Iraqis killed in January 2014 alone.
    Third, there is the risk to Israel and Arab partners in the region 
from the rise of Iranian-backed extremist groups, especially Lebanese 
Hezbollah, as well as the dangers when battle-seasoned Sunni fighters 
return to their home countries. In the case of Yemen, we see young men 
from both sides of the sectarian divide going to the fight, with plans 
to return to Yemen to use those skills. Fighters from the Iranian-
backed groups are now gaining battlefield experience through regular 
rotations to Syria and advanced military training, including at 
training camps in Iran.
    Fourth, there is the risk to the Syrian people, whose suffering 
constitutes the greatest humanitarian crisis the world has seen in this 
new century. Approximately 9.3 million people inside Syria are in need 
of humanitarian assistance, and well over 100,000 have now been killed 
since the conflict began. As in all conflicts, the suffering of the 
most vulnerable population elements is the greatest. Polio has returned 
to eastern Syria, where conflict disrupted vaccination programs. And we 
are increasingly concerned about a potential ``lost generation'' of 
Syrian children now living as refugees or internally displaced persons, 
many of whom are traumatized and without access to education, medicine 
or adequate food.
    u.s. strategy: bolster moderates, isolate extremists, shore up 
                               neighbors
    To mitigate these risks and protect U.S. interests, our strategy 
must focus both on immediate and long-term initiatives that leverage 
existing security relationships with key partners. In the long-term, as 
explained by the President, we face a struggle--not between Sunni and 
Shia, or Iran and Saudi Arabia--but between extremists and moderates. 
Our policy is to isolate extremists and bolster moderates--a critical 
mass of the population--both in Syria and in the greater region. Over 
the long term, this requires a steady focus on supporting economic and 
political modernization. In the immediate term, we are focused on 
mitigating risks stemming from the Syria conflict and the rise of 
extremism and extremist groups in the Levant, and on shoring up Syria's 
neighbors. We will work along four lines of effort, focused on the most 
acute risks to U.S. national security interests.
    First, we will work to isolate and degrade terrorist networks in 
Syria. As my NCTC colleague will address in detail, it is essential 
that we work with regional and international partners to police and 
stem the flow of foreign fighters into and out of Syria on both sides 
of the conflict. For example, we are working with Turkey on border 
security, and we have robust security cooperation with Jordan. We are 
encouraged by laws recently enacted by Saudi Arabia, which made it 
illegal for Saudis to fight in a foreign conflict, a topic that the 
President will discuss with King Abdullah of Saudi Arabia later this 
month in Riyadh. We are also pressing regional partners to stop the 
flow of finances and weapons to terrorist groups, including designated 
terrorist groups like Nusra and ISIL. Our partners are concerned about 
the lure of the battlefield to their young men, and the potential for 
violent extremism blowback in their own countries. We are encouraging 
them to look at a range of tools to discourage flows of money and 
fighters to the battlefield.
    In parallel, we are working to further enhance the capacity of the 
moderate Syrian opposition, both inside and outside Syria. It is 
important to bear in mind that moderate insurgent groups now face a 
two-front war--against the Assad regime on one side, and ISIL on the 
other side. The moderate groups are an ally against ISIL, a point its 
leaders repeatedly made during the international talks held recently in 
Montreux and Geneva. The willingness of the moderate insurgents to 
confront ISIL is an important development. The Assad regime itself, 
heavily dependent on the ``shabiha'' militias and the assistance of 
Hezbollah and Iran, is most responsible for introducing terrorists to 
the Syrian conflict.
    The success of our efforts to isolate and defeat violent extremist 
networks in Syria--their leadership, weapons, and financing--depends on 
negotiating a transition to a new leadership, without illusion about 
how long and difficult this process is likely to be. The United States 
will continue to work closely with the U.N., Russia, and the London 11 
to support the Geneva process and press the regime to accept the key 
elements of the June 2012 Geneva communique, including a Transitional 
Governing Body. However imperfect, the Geneva process, when combined 
with other measures, represents the best chance we have to negotiate an 
end to this bloody conflict. And we will consider additional diplomatic 
means by which to bring this about.
    Second, we will work to strengthen the capacity of Syria's 
neighbors, particularly Jordan, Lebanon, and Iraq. As we work to 
isolate and degrade the violent extremist networks in Syria, we must 
work in parallel to enhance the capacity of Syria's neighbors to 
mitigate the spillover effects of the conflict. Over the past 6 months, 
I have visited neighboring capitals to help coordinate our efforts. 
This included a visit in late January to Amman and then Baghdad, where 
I met with senior officials, including King Abdullah and Prime Minister 
Maliki, to discuss the Syria situation. Our relationships with these 
countries are multifaceted, but the key points include:
    In Jordan, we have heard King Abdullah's concerns about the risks 
of extremist spillover from Syria. We are increasing assistance to the 
Jordanian Armed Forces (JAF) to police its sensitive borders and guard 
against external threats, and are sharing information about the violent 
extremist threats emanating from Syria. CENTCOM Commander General 
Austin has also been consulting closely with his Jordanian 
counterparts. To support Jordan, we have provided $300 million per year 
in military assistance to the JAF and $360 million per year in economic 
support to address long-term development. We look forward to continuing 
this strong relationship in support of Jordan's economic and security 
reforms. We are also committed to supporting Jordan as it contends with 
the staggering costs of hosting nearly 600,000 Syrian refugees. To that 
end, we have provided cash transfers totaling $300 million in the last 
2 fiscal years; supported a $1.25 billion U.S.-backed loan guarantee; 
and provided more than $268 million toward the humanitarian needs of 
Syrian refugees in Jordan. We appreciate congressional support for 
these additional needs and will continue to provide assistance to help 
Jordan address challenges arising from the Syrian crisis. As you know, 
King Abdullah was in the United States last month to discuss these and 
other initiatives with President Obama, Secretary Kerry, Secretary 
Hagel, other Cabinet Members and the Congress. Jordan is a cornerstone 
of regional stability and King Abdullah, one of our closest partners in 
the region, heard a staunch message of U.S. support to help protect 
Jordan against violent extremist threats and maintain support for the 
Jordanian economy.
    In Lebanon, we are supporting the Lebanese Armed Forces (LAF) and 
the Internal Security Forces to deter violent extremist spillover from 
Syria. Since 2005, the United States has allocated nearly $1 billion to 
support the LAF and Internal Security Forces, and we are engaged with 
the Saudi Arabian Government to so that its recent pledge of $3 billion 
is used in a manner that complements our mutual goal to build up LAF 
capabilities. The U.S. commitment to a strong, independent, and 
sovereign Lebanon is steadfast, particularly as the country faces 
political challenges and spillover effects from Syria. During my last 
visit to Beirut, I met with senior political officials and military 
commanders, including President Sleiman and the LAF Commander, General 
Kahwagi. The impact from the Syrian conflict was central in all of my 
conversations, particularly as the LAF had just suffered casualties 
during an engagement with violent extremists in Sidon, a majority Sunni 
town south of Beirut. The refugee crisis has affected more than 1,600 
communities across Lebanon. Secretary Kerry participated in the March 5 
International Support Group for Lebanon ministerial in Paris to 
demonstrate our ongoing partnership with the Lebanese people, our 
support for development of the Lebanese Armed Forces, and our intention 
of working with the new Cabinet to help Lebanon address its security 
and economic challenges. The United States will continue to reinforce 
the generous humanitarian response from the Lebanese Government, 
including with the $76 million that we have contributed in humanitarian 
assistance to support refugees and host communities in Lebanon just 
this year, part of the $340 million we have contributed to the 
humanitarian effort in Lebanon since 2011. Politically, we strongly 
support efforts to ensure that upcoming elections are conducted in a 
timely, transparent, and fair manner in keeping with Lebanon's 
Constitution. Lebanon's leaders must meet their international 
obligations; all parties must adhere to the official policy of 
``dissociation'' from the Syrian conflict.
    In Iraq, we are prioritizing security assistance to combat the 
rising threat from ISIL, while pressing Iraqi leaders to execute a 
holistic strategy comprising security, political, and economic elements 
to isolate extremists over the long-term. During my recent visit to 
Baghdad, I discussed with leaders from all political blocs the need to 
pull together to address the ISIL threat. My conversations focused in 
particular on the situation in Ramadi and Fallujah, where ISIL has 
attempted to assert control and install local governance structures. 
The threat from ISIL is real, with materiel and suicide bombers flowing 
between Iraq and Syria, and executing a coordinated campaign meant to 
overthrow the Shia-led government, in part by conducting widespread 
indiscriminate attacks against Sunnis, Shia, and Kurds, and other 
populations in Iraq. We are encouraged by the response in Ramadi, where 
the central government is working in coordination with local leaders 
and tribes to expel violent extremist fighters from populated areas. 
The central government has approved approximately $128 million in 
assistance to meet humanitarian and reconstruction needs as well as 
support for tribes fighting ISIL. The Government of Iraq has also 
established a National Crisis Cell to coordinate assistance to Iraqis 
displaced by the recent sectarian violence in Anbar. We are now working 
with the Iraqis to help ensure that this money is allocated as rapidly 
as possible. Thanks to close cooperation from this committee and the 
Congress, we also bolstering the Iraqi Security Forces (ISF) with 
equipment needed in the counterterrorism fight, including Hellfire 
missiles. These missiles have proven effective at seriously damaging 
ISIL training camps in western Iraq, and we will continue to work 
closely with the ISF to ensure that they are employed with precision 
and on the basis of sound intelligence. The future delivery of six 
Apache helicopters, thanks again to support from this committee, will 
further improve the ISF's ability to target ISIL safe havens in western 
Iraq. We will work to ensure that Iraq strictly complies with its end-
use obligations for these helicopters. We will also work to ensure that 
Iraq resists negative pressure from Iran, including accepting offers 
from Iran for security assistance, which would be a clear violation of 
international sanctions. Finally, we are pressing to ensure that Iraq's 
national elections, scheduled for April 30, are held on time. Elections 
and inclusive politics remain essential for isolating violent 
extremists.
    Third, we are pushing hard against Iranian financing and material 
support to its proxy groups in Syria and elsewhere. As we work closely 
with our gulf partners to enhance security cooperation, blunt the 
violent extremist threat, and support sound economic development, we 
are also continuing our close partnerships to identify and disrupt 
Iranian support to its proxy groups. We have assisted the governments 
in the region and around the world in investigating Iranian and 
Lebanese Hezbollah-directed terrorist attacks and plots. Our diplomatic 
efforts resulted in the Gulf Cooperation Council announcing their 
intent to blacklist Hezbollah, and the EU's designation in 2013 of 
Hezbollah's military wing as a terrorist organization. In parallel, we 
are continuing aggressive and ongoing enforcement of counterterrorism 
sanctions against Iran, including a series of designations last month 
by the Department of the Treasury. Over the past few years we have also 
identified the Lebanese Canadian Bank and two Lebanese exchange houses 
as foreign financial institutions of ``primary money laundering 
concern,'' under Section 311 of the USA PATRIOT Act due to provision of 
support to Lebanese Hezbollah.
    We are also working with our gulf partners to detect and interdict 
shipments of Iranian weaponry to proxies in the region. We have 
repeatedly intercepted Iranian shipments of weapons to militants in 
Yemen, Afghanistan, and Gaza. Earlier this year, Bahraini authorities 
seized a boat filled with Iranian explosives and arrested a dozen 
militants meant to receive the smuggled cargo. We are also continuing 
to press the Government of Iraq to enhance its inspection of flights 
traveling from Iran to Syria via Iraqi airspace. While the government 
has taken some action in this regard, it has not been enough--a message 
I pressed directly with Prime Minister Maliki and other key leaders 
during my recent visit to Baghdad.
    Fourth, we support global efforts to address the humanitarian 
crisis in Syria. Violent extremist groups thrive in atmospheres of 
popular grievance, human suffering, and the collapse of state 
authority. Beyond the humanitarian and moral imperative, there are 
hard-nosed security dimensions to our global effort to address the 
human costs of the conflict inside Syria. The Syrian conflict 
represents this young century's greatest humanitarian crisis, with the 
largest refugee outflows in recent history. As we undertake 
negotiations with Israelis and Palestinians, in which refugee right of 
return is among the most contentious issues, it is not hard to see the 
potential for the humanitarian aspect of Syria's conflict to further 
disrupt the Middle East region for decades to come. The United States 
is the largest international donor of humanitarian assistance to the 
Syrian people. At the recent donor conference in Kuwait, Secretary 
Kerry pledged an additional $380 million in humanitarian assistance, 
bringing our total assistance to date to more than $1.7 billion. We 
also continue to press through the Geneva process and the U.N. Security 
Council to expand humanitarian access to Syrians. The recent adoption 
of a U.N. Security Council resolution demanding safe and unhindered 
humanitarian access to civilians in Syria was an important step in that 
effort and we will press for its full implementation.
                               conclusion
    The reasons for the rise of extremism in the Levant are complicated 
and flow in part from the profound changes that have swept the region 
in the past 3 years. The conflict in Syria and the wave of foreign 
fighters it has attracted from both sides of the sectarian divide have 
exacerbated extremism and sectarianism in the Levant, and represent an 
acute risk to U.S. interests.
    We are under no illusions that the framework I have articulated 
will immediately blunt violent extremism in the Levant, but a strategy 
to isolate extremist groups, bolster opposition moderates, shore up 
Syria's neighbors and address the humanitarian crisis offers the best 
chance in the near term to mitigate these acute risks. We look forward 
to working closely with the Congress to address these challenges.
    Thank you again for allowing me to address this important topic. I 
look forward to your questions.

    The Chairman. Thank you, Mr. Secretary.
    I would like to take in one more set of testimony, then 
recess briefly for the vote and immediately come back. So, Mr. 
Secretary.

STATEMENT OF HON. DEREK CHOLLET, ASSISTANT SECRETARY OF DEFENSE 
FOR INTERNATIONAL SECURITY AFFAIRS, U.S. DEPARTMENT OF DEFENSE, 
                         WASHINGTON, DC

    Mr. Chollet. Thanks. Mr. Chairman, Senator Corker, members 
of the committee, I appreciate the opportunity to speak with 
you today about security threats in the Middle East and how our 
regional defense policy addresses these challenges, and I will 
keep my opening comments very brief.
    As Deputy Secretary Burns described, sectarianism and 
extremism pose grave threats to the well-being and aspirations 
of the people of the Middle East, the stability and security of 
our regional partners, and U.S. national security interests. 
That is why our regional defense strategy is centered on 
cooperating with regional partners. The historic transformation 
in the region we have witnessed during the last 3 years offers 
the United States both opportunities and challenges as we work 
to address our core security interests, first, to combat al-
Qaeda and associated movements; second, to confront external 
aggression directed at our allies; third, to ensure the free 
flow of energy from the region; and fourth, to prevent the 
development, proliferation, and use of weapons of mass 
destruction.
    As U.S. military forces have withdrawn from Iraq and now 
Afghanistan, we are also addressing questions from our regional 
partners about our intentions in the region and our commitments 
over the long term. We are working hard to sustain and enhance 
our military capabilities in the region.
    As Secretary Hagel said in his speech in Manama last 
December, the United States has enduring security interests in 
the region and we remain fully committed to the security of our 
allies and our regional partners. We have a military presence 
of more than 35,000 personnel in and immediately around the 
Arabian Gulf, and the Quadrennial Defense Review that the 
Department released several days ago reaffirms this commitment, 
and, despite budget pressures, we will maintain a robust force 
posture in the region.
    I would like to briefly touch on some examples of how we 
are working to improve the military capabilities of our 
partners, focusing on Iraq, Lebanon, and Jordan. First, in 
Iraq, along with our State Department colleagues, we have been 
advising the Iraqi Government that the long-term strategy to 
defeat ISIL and achieving stability and security must include a 
political solution involving all the people of Iraq. And while 
the Iraqi security forces have proven competent at conducting 
counterterrorism and stability operations, the security 
situation they face there is very serious.
    The Iraqis also have gaps in their ability to defend 
against external threats and in areas such as integrated air 
defense, intelligence-sharing, and logistics. We remain very 
committed to working with the Iraqi Government to develop its 
military and security abilities. As this committee knows very 
well, the Iraqis are also asking to acquire key capabilities 
from the United States as soon as possible. We appreciate the 
quick decision to proceed with the Hellfire missiles 
notification associated with this urgent request. The Iraqis 
have paid about $250 million toward the resupply and we have 
been able to expedite the delivery of tank rounds, rockets, 
small arms, and ammunition. Those articles have either been 
delivered or are expected to arrive in the next few weeks. 
Associated with that request, we deeply appreciate your support 
to move forward with the sale and the lease of Apache 
helicopters.
    Turning to Lebanon, we view the Lebanese Armed Forces' 
emergence as the sole legitimate defense force as a critical 
component of Lebanon's long-term stability and development. 
U.S. assistance to the Lebanese Armed Forces and internal 
security forces, which is approximately $1 billion in 
assistance since 2005, strengthens Lebanese capacity and 
supports its mission to secure its own borders. We work to 
maintain strong ties between Lebanese and U.S. officers and 
officials through IMET, and Lebanon has the fourth-largest IMET 
program in the world. We are also promoting institutional 
reform through a Defense Institution Reform Initiative, or 
DIRI, with the LAF and efforts supporting Lebanese security 
sector reform.
    In Jordan, we are deeply committed to maintaining a strong 
defense partnership. Today and tomorrow, I am hosting the 
Jordanian Chief of Defense, General Zabban, at the Pentagon and 
his entire team for a series of meetings. As Deputy Burns said, 
we have no better defense partner than Jordan.
    U.S. security assistance helps build the capacity of the 
Jordanian Armed Forces, promotes interoperability between our 
two militaries, enhances Jordan's border security and 
counterterrorism capabilities, and supports military education 
and training. We provide the Jordanian Government with 
approximately $300 million in FMF funds per year. We have an 
active joint exercise program along with a very robust officer 
exchange program.
    In response to the crisis in Syria, we have military forces 
in Jordan manning a Patriot battery, an F-16 unit, and 
assisting the Jordanians with the planning necessary to 
strengthen its defense. In addition, we are providing equipment 
and training that will supplement the Jordanians' border 
security program and improve the capability of the Jordanian 
military to detect and interdict illegal attempts to cross the 
border and detect attempts to smuggle WMD along the border.
    Mr. Chairman, members of the committee, through these 
efforts in Iraq, Lebanon, Jordan, and elsewhere, the Department 
of Defense is keenly focused on building the capacity of our 
partners to fight extremism and support U.S. national security 
interests, and we remain committed to continuing to work with 
this committee and the Congress on these critical issues. I 
look forward to your questions.
    [The prepared statement of Mr. Chollet follows:]

        Prepared Statement of Assistant Secretary Derek Chollet

    Chairman Menendez, Senator Corker, members of the committee, I 
appreciate the opportunity to speak to you today about extremism and 
sectarianism in the Middle East, and how our regional defense policy 
addresses these challenges.
    As Deputy Secretary Burns and Director Olson described, 
sectarianism and extremism pose grave threats to the well-being and 
aspirations of the people of the Middle East, the stability and 
security of our regional partners, and U.S. national security 
interests.
    That's why our regional defense strategy is centered on cooperating 
with regional partners to achieve a stable, peaceful, and prosperous 
Middle East, one which promotes democracy, human rights, and open 
markets. The historic transformation in the region we've witnessed 
during the last 3 years offers the United States both opportunities and 
challenges as we work to address our core security interests: to combat 
al-Qaeda and associated movements; to confront external aggression 
directed at our allies; to ensure the free flow of energy from the 
region; and to prevent the development, proliferation, and use of 
weapons of mass destruction (WMD).
    As U.S. military forces have withdrawn from Iraq and now 
Afghanistan, we are also addressing questions from our regional 
partners about our intentions in the region, and our commitments to our 
long-term allies. We are working hard to sustain and enhance our 
military capabilities in the region.
    As Secretary Hagel reassured our regional partners in a speech in 
Manama last December, the United States has enduring military interests 
in this region, and we will remain fully committed to the security of 
our allies and our regional partners. We have a presence of more than 
35,000 military personnel in and immediately around the gulf. The U.S. 
Army continues to maintain more than 10,000 forward-deployed soldiers; 
we have deployed advanced fighter aircraft, including F-22s; we have 
advanced intelligence, surveillance and reconnaissance assets; we have 
fielded ballistic missile defense ships and PATRIOT batteries; and we 
maintain over 40 ships in the region. Our commitment to our core 
interests is absolute.
    I would like to briefly touch on some examples on how we are 
working to improve the military capabilities of our partners--focusing 
on Iraq, Lebanon, and Jordan.
    In Iraq, we are deeply concerned by the Islamic State in Iraq and 
the Levant's (ISIL) growing reach and lethality. Along with our State 
Department colleagues, we have been advising the Iraqi Government that 
the long-term strategy to defeat ISIL and achieving security and 
stability must include a political solution involving all of the people 
of Iraq.
    While the Iraqi Security Forces have proven competent at conducting 
counterterrorism and stability operations, the security situation they 
face is very serious. The Iraqis also have gaps in their ability to 
defend against external threats and in areas such as integrated air 
defense, intelligence-sharing, and logistics. We remain very committed 
to working with the Iraqi Government to develop its military and 
security abilities.
    As this committee knows, the Iraqis are also asking for increased 
Foreign Military Sales of key capabilities as soon as possible. We 
appreciate the quick decision to proceed with the Hellfire missiles 
notification associated with the urgent request. The Iraqis have paid 
about $250 million toward the resupply, and we have been able to 
expedite the delivery of tank rounds, rocket, small arms and 
ammunition. Those articles have either been delivered or are expected 
to arrive in the next few weeks.
    Associated with that request, we deeply appreciate your support to 
move forward the sale and lease of the Apache helicopters.
    Turning to Lebanon: We remain deeply concerned with Iran's 
destabilizing activities in Lebanon and its partnership with Hezbollah. 
We view the Lebanese Armed Forces' emergence as the sole legitimate 
defense force as a critical component of Lebanon's long-term stability 
and development. U.S. assistance to Lebanese Armed Forces (LAF) and 
Internal Security Forces, approximately $1 billion in assistance since 
2005, strengthens the capacity of the Lebanese Armed Forces and 
supports its mission to secure Lebanon's borders, defend the 
sovereignty of the state, and implement U.N. Security Council 
Resolutions 1559 and 1701.
    Lebanon's International Military Education and Training (IMET) 
program is the fourth-largest in the world. IMET builds strong ties 
between the United States and Lebanon by bringing Lebanese officers and 
officials to the United States to study and train alongside U.S. 
troops.
    In terms of supporting institutional reform, the Department of 
Defense has just started a Defense Institution Reform Initiative (DIRI) 
with the LAF. DIRI complements a U.S. whole-of-government effort 
supporting Lebanese security sector reform. U.S. Central Command 
(USCENTCOM) continues to provide support to the training and 
professionalization of the LAF while the Department of State's Bureau 
of International Narcotics and Law Enforcement Affairs (INL) is funding 
a program to strengthen the capability and management capacity of the 
Internal Security Forces (ISF).
    In Jordan, we are deeply committed to maintaining a strong defense 
partnership. And today and tomorrow, I am hosting the Jordanian Chief 
of Defense and his senior team for intensive meetings at the Pentagon. 
U.S. security assistance helps build the capacity of the Jordanian 
Armed Forces; promotes interoperability between our two militaries; 
enhances Jordan's border security and counterterrorism capabilities; 
and supports military education and training.
    We have provided the Jordanian Government with approximately $300 
million in FMF funds per year. An active joint exercise program, along 
with a robust exchange officer program, cements our military 
relationship.
    We have military forces in Jordan manning a Patriot battery and F-
16 unit, and assisting the Jordanians with the planning necessary to 
strengthen its defense.
    In addition, we are providing equipment and training that will 
supplement the Jordan Border Security Program and improve the 
capability of the Jordanian military to detect and interdict illegal 
attempts to cross the border, and detect attempts to smuggle WMD along 
the border.
    Mr. Chairman, members of this committee, through these efforts in 
Iraq, Lebanon, Jordan, and elsewhere, the Department of Defense is 
keenly focused on building the capacity of our partners to fight 
extremism and support U.S. national security interests. And we remain 
committed to continuing to work with this committee and the Congress on 
these critical issues.

    The Chairman. Thank you, Mr. Secretary.
    What we are going to do is I am going to have the committee 
go into recess, cast one vote. The Chair will come immediately 
back. Those who are interested I would urge to come back as 
well. We will hear from Director Olsen and then we will proceed 
to questions.
    The committee will be in recess subject to the call of the 
Chair.

[Recess from 11:35 a.m. to 11:48 a.m.]

    The Chairman. The hearing will come back to order, with 
thanks and our apologies to our witnesses. You will be happy to 
know, Mr. Secretary, that Ms. Gottemoeller was confirmed.
    Director Olsen.

    STATEMENT OF HON. MATTHEW G. OLSEN, DIRECTOR, NATIONAL 
            COUNTERTERRORISM CENTER, WASHINGTON, DC

    Mr. Olsen. Thank you very much, Mr. Chairman and members of 
the committee.
    I think it was about a year ago I was here to talk about 
threats in North Africa, so I appreciate the opportunity to be 
here again to represent NCTC and to talk a little bit about the 
threats we face in the Levant. I am particularly pleased to be 
here with two of our key partners, Deputy Secretary of State 
Burns and Assistant Secretary of Defense Chollet.
    As you are aware, we continue to face terrorist threats to 
the United States and to our interests overseas, particularly 
in parts of South Asia and the Middle East and Africa. But it 
is the current conflict in Syria and the regional instability 
in the Levant that stand out for me as areas of particular 
concern. I do think it is important to consider Syria in the 
context of the global terrorist movement. In the face of what 
has been sustained counterterrorism pressure, core al-Qaeda has 
adapted. They have adapted by becoming more decentralized and 
shifting away from the large-scale plotting that was 
exemplified in the attacks of September 11.
    Al-Qaeda has modified its tactics and look to conduct 
simpler attacks that do not require the same degree of 
resources and training and command and control. So today we are 
facing a wider array of threats in a greater variety of 
locations across the Middle East and around the world. In 
comparison to the al-Qaeda plots that emanated from the tribal 
areas of Pakistan a few years ago, these smaller and these less 
sophisticated plots are often more difficult for us to detect 
and disrupt, and that puts even greater pressure on us to work 
closely with our partners here at the table, across the Federal 
Government, and around the world.
    Turning to Syria, Syria has become the preeminent location 
for al-Qaeda-aligned groups to recruit and to train and to 
equip what is now a growing number of extremists, some of whom 
seek to conduct external attacks. In addition, Iran and 
Hezbollah, as you pointed out, are committed to defending the 
Assad regime, including sending billions of dollars in military 
and economic aid, training pro-regime and Iraqi Shia militants, 
and deploying their own personnel into the country.
    Now, from a terrorism perspective, the most concerning 
development is that al-Qaeda has declared Syria its most 
critical front and has called for extremists to fight against 
the regime in Syria. So what we have seen is that thousands of 
fighters from around the world, including hundreds from the 
West, have traveled to Syria and many of them have joined with 
established terrorist groups in Syria. This raises our concern 
that radicalized individuals with extremist contacts and 
battlefield experience could return to their home countries to 
commit violence at their own initiative or participate in al-
Qaeda-directed plots aimed at Western targets outside of Syria.
    What we have seen is a coalescence in Syria of al-Qaeda 
veterans from Afghanistan and Pakistan, as well as extremists 
from other hot spots such as Libya and Iraq. These extremists 
bring a wide range of contacts and skills, as well as 
battlefield experience, and they are able to exploit what has 
become a permissive environment from which to plot and train.
    Shifting briefly to Lebanon, one of the continuing effects 
of the Syrian conflict will be the instability in Lebanon in 
the upcoming year. I recently traveled to Lebanon and Jordan 
and the impacts of the continuing conflict in Syria continue to 
be of great concern to officials in the region.
    Hezbollah publicly admitted last spring that it is fighting 
for the Syrian regime and has framed the war as an act of self-
defense against Western-backed Sunni extremists. The group is 
sending capable fighters for pro-regime operations and support 
for pro-regime militias. In addition, Iran and Hezbollah are 
using allied Iraqi Shia groups to participate in 
counteropposition operations. This active support to the Assad 
regime is, of course, driving increased Sunni extremist attacks 
and sectarian violence.
    In short, the various factors contributing to instability 
in Lebanon are only exacerbated by the protracted conflict in 
Syria.
    Finally, I will turn to Iraq. What we have witnessed there 
over the last 3 years is a resurgence by the Islamic State for 
Iraq and the Levant, or ISIL, the former group known as AQI. 
The group has a core cadre of veteran extremists and access to 
a steady flow of weapons and fighters from Syria. So last year 
ISIL suicide and car bomb attacks returned to their peak levels 
from what we saw back in 2007 and 2008. At the end of last year 
the group was averaging one suicide attack per day.
    The situation in Fallujah is particularly disconcerting, 
where hundreds of ISIL fighters have joined the ranks with 
former insurgent groups to consolidate control of the inner 
city and contest areas in neighboring towns.
    In sum, the threat posed by ISIL to our interests in the 
region is growing, not diminishing. In the period ahead we will 
be working closely with our colleagues from State and Defense 
to aid the Iraqi Government's counterterrorism efforts.
    The last point I will make is that, in light of the large 
foreign fighter component in the Syrian crisis, we are working 
together to gather every piece of information we can about the 
identities of these individuals. As you know, at NCTC we play a 
role in supporting the effort to watch-list individuals and our 
efforts support the broader aviation and border screening 
efforts of our partners at the FBI and the Department of 
Homeland Security, and we are engaged in a focused effort to 
track the travel of any of these individuals, particularly from 
the West to Syria. As the conflict in Syria continues, the 
issues associated with Syrian foreign fighters and their travel 
patterns will be a continued area of the highest priority for 
us at NCTC.
    So in closing, Mr. Chairman, I want to assure you we are 
focused on the threat environment in this part of the world and 
we are working to identify and disrupt threats to the United 
States and particularly to our personnel serving in these 
areas. We will continue to support our whole of government 
effort in the region by identifying and analyzing threat-
information, sharing that information with our partners across 
the government. On behalf of the men and women at NCTC, I want 
to thank you for inviting me here to testify and for your focus 
on these critical issues.
    Thank you.
    [The prepared statement of Mr. Olsen follows:]

              Prepared Statement of Hon. Matthew G. Olsen

                              introduction
    Thank you Chairman Menendez, Ranking Member Corker, and members of 
the committee. I appreciate this opportunity to be here today to 
represent the National Counterterrorism Center (NCTC) and discuss with 
you the threat of terrorism and extremism in Syria, Iraq, and Lebanon.
    Intelligence Community leaders have testified over the past few 
weeks on the overall counterterrorism picture, noting that we face an 
enduring threat to U.S. interests overseas--particularly in parts of 
South Asia, the Middle East, and Africa. However, the regional 
instability in the Levant and increasingly in Iraq certainly stands out 
as an area of increasing concern.
    The current stalemate in Syria is having a ripple effect in Iraq, 
in Lebanon, and throughout the region; this is of great concern to the 
United States, and impacts more than just our counterterrorism 
equities. There are important defense and geopolitical considerations 
as well. Therefore, I am particularly pleased to be here today with two 
of NCTC's key partners--Deputy Secretary of State Burns and Assistant 
Secretary of Defense Chollet.
                     the current state of al-qaeda
    It is important to consider the current conflict and regional 
instability in Iraq and the Levant region in the context of the global 
terrorist movement. In the face of sustained counterterrorism pressure, 
core al-Qaeda has adapted by becoming more decentralized and is 
shifting away from large-scale, mass casualty plots like the attacks of 
September 11. Al-Qaeda has modified its tactics, looking to conduct 
simpler attacks that do not require the same degree of resources, 
training, and command and control.
    Instability in the Middle East and North Africa has accelerated 
this decentralization of the al-Qaeda movement, which is increasingly 
influenced by local and regional factors and conditions. This diffusion 
has also led to the emergence of new power centers and an increase in 
threats by networks of like-minded violent extremists with allegiances 
to multiple groups. Ultimately, this less centralized network poses a 
more diverse and geographically dispersed threat and is likely to 
result in increased low-level attacks against U.S. and European 
interests overseas. Put simply, we are facing a wider array of threats 
in a greater variety of locations across the Middle East and around the 
world. In comparison to the al-Qaeda plots that emanated from the 
tribal areas of Pakistan a few years ago, these smaller, less 
sophisticated plots are often more difficult to detect and disrupt, 
putting even greater pressure on us to work closely with partners 
around the world.
    Last year, counterterrorism operations and the loss of key al-Qaeda 
leaders and members further degraded al-Qaeda core's ability to lead 
the global terrorist movement and to plan sophisticated attacks in the 
West. While we continue to assess that al-Qaeda senior leaders remain 
the recognized leader of the global terrorist movement, their 
leadership and authority have not gone unchallenged, as the rift 
between core al-Qaeda and the Islamic State of Iraq and Levant (ISIL) 
makes abundantly clear. We are still assessing the full impact of the 
recent statement from Ayman al-Zawahiri publicly disassociating al-
Qaeda from ISIL.
    Returning now to current terrorist threats in Iraq and the across 
the Levant, these emanate from a diverse array of actors, ranging from 
formal groups--such as al-Qaeda and its affiliates, Lebanese Hezbollah, 
and the ISIL--to a large pool of individuals--many of them from Western 
countries including the United States--only loosely affiliated or 
attached to groups we are tracking.
    This morning I will break down the terrorist threat from this 
region as we see it in the Intelligence Community. I'll start with 
Syria, then move to Lebanon and Iraq, and finally close with some of 
the activities we're engaged in to identify Syrian foreign fighters.
Syria
    Syria has become the preeminent location for independent or al-
Qaeda-aligned groups to recruit, train, and equip a growing number of 
extremists, some of whom we assess may seek to conduct external 
attacks. Hostilities between Sunni and Shia are also intensifying in 
Syria and spilling into neighboring countries--particularly Lebanon--
which is increasing the likelihood of a protracted conflict in Syria as 
both seek military advantage.
    Both the Syrian regime and the opposition believe that they can 
achieve a military victory in the ongoing conflict. President Assad 
remains unwilling to negotiate himself out of power--currently an 
untenable outcome for the opposition forces--and he almost certainly 
intends to remain the ruler of Syria and to win a new 7-year term in 
Presidential elections that might occur mid-year.
    To that end, Iran and Hezbollah are committed to defending the 
Assad regime, including sending billions of dollars in military and 
economic aid, training pro-regime and Iraqi Shia militants, and 
deploying their own personnel into the country. Iran and Hezbollah view 
the Assad regime as a key partner in an ``axis of resistance'' against 
Israel and are prepared to take major risks to preserve the regime as 
well as their critical transshipment routes.
    In terms of the opposition, the fight against the Assad Regime 
includes up to 110,000 insurgents, who are organized into numerous 
groups, including more than 7,000 foreign fighters from 50 countries. 
European governments estimate that more than 1,000 Westerners have 
traveled to join the fight against the Assad regime. Dozens of 
Americans from a variety of backgrounds and locations in the United 
States have traveled or attempted to travel to Syria but to date we 
have not identified an organized recruitment effort targeting 
Americans. The U.S. Government continues to work closely with our 
foreign partners to resolve the identities of potential extremists and 
identify potential threats emanating from Syria.
    Al-Qaeda amir Ayman al-Zawahiri and other prominent Salafist 
leaders continue to issue statements declaring Syria the most critical 
front for ideologically driven terrorism today and calling for 
additional fighters to support the cause. Ousting Assad in Syria has 
become a top al-Qaeda priority, and some of the most militarily 
effective antiregime forces are also those most closely aligned with 
al-Qaeda's violent extremist ideology.
    At present, several extremist groups, including the al-Qaeda-linked 
al-Nusra Front and ISIL are in Syria fighting against the Assad regime. 
ISIL founded al-Nusra Front in late 2011 to act as its operational arm 
in Syria, although the two groups split following a public dispute in 
April 2013. Al-Nusra Front has mounted suicide, explosive, and firearms 
attacks against regime and security targets across the country; it has 
also sought to provide limited public services and governance to the 
local population in areas under its control.
    Al-Nusra Front's leader, Abu Muhammad al-Jawlani, in April 2013 
pledged allegiance to al-Qaeda leader Ayman al-Zawahiri, publicly 
affirming the group's ties to core al-Qaeda, and al-Zawahiri named the 
group al-Qaeda's recognized affiliate later last year. Many moderate 
opposition groups fight alongside al-Nusra Front and other Sunni 
extremists in Syria and depend on extremists for resources, including 
weapons and training.
    Syria has already become a significant location for extremist 
groups to recruit, train, and equip a growing number of fighters. The 
combination of ungoverned areas as new safe havens, the presence inside 
Syria of experienced al-Qaeda terrorists and other seasoned extremists, 
and the influx of Westerners and other foreign fighters creates a 
fertile environment for external attack planning. Thousands of fighters 
from around the world--including the United States--have traveled to 
Syria to support oppositionists fighting against the Assad regime and 
some have connected with extremist groups, including al-Nusra Front. 
This raises concerns that radicalized individuals with extremist 
contacts and battlefield experience could either return to their home 
countries to commit violence at their own initiative, or participate in 
an al-Qaeda directed plot aimed at Western targets outside Syria.
Lebanon
    We expect that one of the continuing effects of the Syrian conflict 
will be the continued erosion of Lebanese stability this year. The 
primary drivers of instability in Lebanon are economic, social, and 
sectarian tensions fueled by the Syrian conflict and Hezbollah's 
willingness to use violence to protect its own and Iranian interests in 
Syria. The influx of nearly 1 million refugees from Syria into 
Lebanon--roughly 20 percent of Lebanon's population prior to the Syrian 
war--is also straining the country's fragile economy and overburdening 
already strained public services, particularly in the north and the 
Beqaa, areas hosting the majority of the refugees.
    In May 2013, Hezbollah publicly admitted that it is fighting for 
the Syrian regime and its chief, Hassan Nasrallah, has framed the war 
as an act of self-defense against Western-backed Sunni extremists, whom 
he claimed would target all Lebanese if the Assad regime fell. 
Hezbollah is sending capable fighters for pro-regime operations and 
support for a pro-regime militia. Additionally, Iran and Hezbollah are 
leveraging allied Iraqi Shia militant and terrorist groups to 
participate in counteropposition operations. This active support to the 
Assad regime is driving increased Sunni extremist attacks and sectarian 
unrest in Lebanon.
    Following the group's public confirmation that it was fighting in 
Syria and had played a pivotal role in pro-regime operations in Al 
Qusayr, Sunni extremist and terrorist elements began a violent campaign 
of attacks against Hezbollah strongholds in Lebanon. There has been a 
sharp rise in Sunni extremism in Lebanon over the past 2 years, 
particularly in the north. Given the character and structure of these 
many diverse extremist groups there is increasing concern about their 
threat to Lebanon's stability. In addition there are regular reports of 
the movement of fighters and trafficking of arms and explosive 
materials across the Lebanese border with Syria.

  <bullet> May 2013--rocket attacks against Hezbollah suburbs of 
        Beirut;
  <bullet> June 2013--Supporters of Salafi leader Ahmad al-Assir attack 
        a LAF checkpoint near Sidon, killing three soldiers; LAF 
        responds by conducting operations against up to 300 al-Assir 
        supporters;
  <bullet> July-August 2013--Sunni extremist groups, the 313 Brigade 
        and the Aisha Mother of Believers Brigade, each conduct a VBIED 
        attack in Hezbollah-controlled neighborhoods in Beirut (20 
        dead, over 250 wounded);
  <bullet> October 2013--LAF seizes a VBIED with 250 kg of explosives 
        and a suicide belt; two soldiers and two armed men killed in 
        ensuing gunfire exchange;
  <bullet> November 2013--Sunni extremists are tied to two near-
        simultaneous suicide bombings against the Iranian Embassy in 
        Beirut, probably motivated by revenge for Iran's support of 
        Hezbollah and the Assad regime (25 dead, over 150 wounded);
  <bullet> January/February 2014--Sunni extremists conduct several 
        VBIED and suicide attacks against Hezbollah and Shia interests 
        in Beirut and Hermel (41 dead, over 280 wounded).

    Hezbollah also uses violence to intimidate and kill political 
rivals, putting Lebanon's stability at further risk and undermining the 
country's rule of law. The group was most likely responsible for the 
December 2013 assassination of senior Lebanese official Muhammad 
Chatah--a longtime critic of the group and former Ambassador to the 
U.S., who was the diplomatic advisor to former Prime Minister Saad 
Hariri [killed in a Vehicle Born Improvised Explosive Device].
    In short, the various factors contributing to instability in 
Lebanon are only exacerbated by the protracted conflict in Syria, 
particularly as tensions grow between Shia and Sunni groups operating 
inside Lebanon.
Iraq
    In Iraq, we have witnessed over the last 3 years a disturbing 
resurgence by ISIL. The group has a core cadre of veteran leaders, and 
access to a steady flow of both weapons and fighters from Syria. ISIL 
is also able to draw from a significant pool of terrorist fighters 
previously imprisoned by the Iraqi Government. The Syrian conflict has 
facilitated a greater two-way sharing of Sunni extremists and resources 
between Syria and Iraq that has contributed to ISIL's increased pace of 
high-profile attacks.
    In 2012, ISIL launched a campaign to free detained members that led 
to the release of hundreds of prisoners to bolster their ranks. Last 
year, ISIL's suicide and car bomb attacks returned to their peak levels 
from 2007-2008. At the end of 2013, the group was averaging a suicide 
attack each day. The increasingly permissive security environment has 
allowed ISIL to challenge Iraqi security forces, most recently and 
notably in Fallujah and Ramadi.
    On January 1 of this year, convoys totaling approximately 70-100 
trucks with mounted heavy weapons and antiaircraft guns entered the 
central cities of Fallujah and Ramadi. They quickly secured vital 
transportation nodes and destroyed most police stations. The Iraqi Army 
units in the vicinity engaged some armed vehicles but chose to not get 
drawn into an urban fight. A combination of military, political, and 
tribal efforts in Ramadi have begun to show results, with the city 
becoming increasingly secure. The situation in Fallujah, however, is 
far more disconcerting.
    In Fallujah, hundreds of ISIL fighters have joined ranks with 
former insurgent groups to consolidate control of the inner city and 
contest areas in neighboring towns. The Iraqi Army is facing 
significant resistance, including well-trained snipers armed with 50-
caliber rifles. Last month approximately a dozen Iraqi soldiers were 
captured near Fallujah. The next day they were executed. At the moment 
it remains a tense standoff as some tribes are ready and preparing to 
fight against ISIL, others are preparing to fight with ISIL, and still 
others on the fence, waiting to see which side is likely to prevail in 
the end.
    ISIL's strength again poses the credible threat to U.S. interests 
in the region that it had at its peak in 2006. It has pledged its 
resources to support establishing hardline Islamic governance. And 
although ISIL is primarily focused on its activities in Iraq and Syria, 
it still perceives the United States as an enemy.
    Early this year, ISIL publicly claimed its first attack in Lebanon 
and promised more, demonstrating its aspirations go beyond Syria and 
Iraq. Also in January, ISIL's leader [Abu Bakr al-Baghdadi] publicly 
called for operatives in Iraq to surge attacks in Shia areas the group 
wants to control to inflame to sectarian violence. In the same speech, 
he threatened ``direct confrontation'' with the United States. In sum, 
our concerns with the threat posed by ISIL to our interests in the 
region are currently growing, not diminishing. In the period ahead, we 
will be watching closely to see if the Iraqi Government's 
counterterrorism efforts will gain greater traction against the 
extremist threat.
      addressing the specific threat from syrian foreign fighters
    At NCTC, in addition to analyzing and assessing threat information, 
we play an important role in supporting the effort to watchlist known 
or suspected terrorists. On behalf of the Intelligence Community, NCTC 
hosts and maintains the central and shared knowledge bank on known and 
suspected international terrorists and international terror groups, as 
well as their goals, strategies, capabilities, and networks of contacts 
and support. This database of terrorism information, known as the 
Terrorist Identities Datamart Environment (TIDE) supports the border 
and aviation screening efforts of our partners at the FBI and the 
Department of Homeland Security. In light of the large foreign fighter 
component to the Syria crisis that I highlighted earlier, this effort 
to gather every bit of available information about terrorist identities 
is particularly important.
    For some time we have been engaged in a focused effort--working 
closely with the Department of Homeland Security and the Federal Bureau 
of Investigation and our other Intelligence Community partners--to 
track the travel of any individuals that we've identified as having 
traveled to Syria to participate in extremist activity. When we obtain 
such information, we ensure that the individuals in question are added 
to the TIDE database and that their identifying information is exported 
to our partners to support their various watchlisting activities. We 
also work with a wide array of foreign partners to try and learn more 
about how extremists are, in fact, traveling to Syria, what routes they 
are using, what facilitation networks are supporting them, and what 
happens to those extremists both inside Syria and after they leave the 
battlefield to return to their place of origin. As the conflict in 
Syria continues, issues associated with Syrian foreign fighters and 
their travel patterns will be a continued area of the highest priority 
and emphasis for NCTC and the Intelligence Community.
                                closing
    Members of the committee, the deteriorating situation in Syria, 
Lebanon, and Iraq is of great concern to the United States and its 
allies. The potential for further escalation of sectarian violence and 
the resulting second and third order effects is of tremendous concern 
to the intelligence community.
    Let me assure you that we are also focused intensively on the 
tactical threat environment in this volatile region and our 
responsibility to identify and disrupt threats to our personnel serving 
in these crisis zones. We ask much of our military members, our 
intelligence service professionals, and our diplomats to operate in 
such a dangerously unpredictable environment, but I think all of us 
recognize that it is in our national security interests to operate in 
these areas.
    The National Counterterrorism Center will continue to support our 
whole-of-government effort in the region by identifying and analyzing 
threat information and sharing that information with our partners 
across the government. In addition, we will continue to focus on 
identifying individuals who might seek to return from these overseas 
battlefields and do us harm so that our law enforcement and 
intelligence officials can engage in the appropriate disruption 
efforts. And throughout we will continue to keep the Congress fully and 
currently informed of our activities, as required by the law.
    On behalf of the men and women of the National Counterterrorism 
Center, I want to thank you for inviting me to testify, and I look 
forward to answering any of your questions.

    The Chairman. Thank you all for your testimony. There is a 
lot of ground to cover here, so let me start.
    Mr. Secretary, while we are focused on the Ukraine, I 
wonder whether the administration is of the view, as some of us 
are, that the international norms that you talked about in your 
opening statement and the challenge to international norms and 
how we respond to that is critically important far beyond even 
the Ukraine.
    Senator Cardin and I were talking yesterday about the 
consequences of how we respond when other countries like China 
look to see what we are going to do as they consider their 
options in the South China Sea, North Korea in terms of its 
march to weaponization, those places like Africa and the Congo 
that decide whether or not the international community is going 
to be responsive or whether they are going to rearm and 
continue to have millions of lives lost, even as we negotiate 
with Iran, at the same time that Iran, as we have heard here, 
is in the midst of promoting, still promoting vigorously, 
terrorism.
    So it seems to me that you need to say what you mean and 
mean what you say. In that respect, do we understand that this 
is a challenge in the immediacy about Ukraine, but it is also a 
broader challenge as it relates to the message that we and our 
Western allies send globally?
    Ambassador Burns. Thanks, Mr. Chairman. I agree fully with 
your point. I think there is a great deal that is at stake in 
Ukraine today. It is about Ukrainians and their ability to make 
their own choices. It is about Europe and Eurasia. But it is 
also about the wider consequences that you just described. So I 
think it is very important for the United States to make clear, 
as you said, that we will put actions behind our words, about 
our concerns about what has happened, about the importance of 
abiding by international norms, again not just for the sake of 
Ukraine, important as that is, but given the wider stakes that 
are involved, and it is also important that we work closely 
with our allies and partners to reinforce the same point, and 
that is what we have been spending a lot of time and energy 
doing in recent days, and we will continue to.
    The Chairman. Now, with reference to the Ukrainian 
situation, I know the Secretary, Secretary Kerry, and his 
European counterparts met with the Russian Foreign Minister in 
Paris yesterday. The Russians, at least at this point, will not 
speak directly to the Ukrainians. What do we envision as to the 
willingness of Russia to find a diplomatic exit here, and what 
are the necessary ingredients to deescalate the crisis?
    Ambassador Burns. Mr. Chairman, you know, the essence I 
think of any deescalatory political process is direct dialogue 
between the Ukrainian Government and the Russian Government 
which is aimed at restoration of Ukraine's sovereignty and 
territorial integrity. The Russian Government has expressed 
concerns about ethnic minorities, Russian-speaking minorities 
in eastern Ukraine and in Crimea. We believe, as the Secretary 
and the President made very clear, that those are unfounded. 
There is no evidence for any persecution of those minorities. 
But there are ways of addressing that concern directly with the 
government in Kiev and also through organizations like the 
OSCE, which is why we are supporting the sending of monitors 
from the OSCE to eastern Ukraine and to Crimea to try to 
establish what the facts are.
    So again, as I said, the essence of any kind of diplomatic 
off-ramp has to be direct dialogue between the Ukrainian 
Government and the Russian.
    The Chairman. They reject that, at least at this point. 
Obviously, there is a purpose for the Russians trying, not that 
I believe it is legitimate, but trying to undermine the 
legitimacy of the present Ukrainian Government. In a series of 
international forums they can make the argument, falsely, but 
they can make the argument.
    So my concern is that at some point, from my own 
perspective, as much as we seek to deescalate this, we have 
seen this picture before. We have seen what President Putin did 
in Georgia, in South Ossetia, and other parts. We see him doing 
it in the Crimea. How serious do we believe is his desire to go 
beyond Crimea and into eastern Ukraine?
    Ambassador Burns. It is difficult to predict, and we are 
certainly doing everything that we can with our partners to 
make clear the costs of any such move. As I said, we are trying 
to establish OSCE monitors in eastern Ukraine to beat back the 
false accusation that there is persecution of ethnic minorities 
going on there. I think the new Ukrainian Government has done a 
good job of making clear its concern about Ukrainian citizens, 
west and east, across the whole country. So I think we need to 
continue to push those lines of effort, and also make clear, as 
we did today in the actions that the President has taken, that 
there are costs, and to build patiently, persistently, and 
firmly counterpressure against what the Russians have already 
done and making clear that there will be costs if they escalate 
further.
    The Chairman. Well, I hope that as we pursue the diplomatic 
course we are organizing as much as possible the international 
community in joining us in the strongest possible response, 
because otherwise Putin's calculations will take him to as far 
as he thinks he can get away with.
    Let me just turn quickly to Syria. I heard what you said, 
but I question whether or not we are fully committed to 
changing the battlefield equation, because unless, as this 
committee voted quite some time ago in a bipartisan fashion to 
arm the vetted Syrian moderate rebels, nothing will change in 
Assad's equation or against Russia and their patronizing of 
Assad, for him to feel that he has to do anything but to 
continue to hang in there and try to win a war of attrition.
    So how robustly are we ready to engage in helping to change 
that battlefield equation, even though it is a lot harder now 
than it was then? But listening to all the threats that the 
Director talked about, I just do not see that, unless we do 
that, we are going to get in a position where we have anything 
but the potential of a failed state and the consequences of 
what that that means to our national security, in addition to 
the bloodshed that is being shed every day in Syria.
    Ambassador Burns. Mr. Chairman, just as you said, there are 
huge and growing risks, I think, in Syria and in the spillover 
of Syria's violence into the wider region. We are looking 
actively at further ways in which we can support the moderate 
opposition. As you know, we are also trying to intensify 
cooperation with other backers of the moderate opposition.
    The Saudi Minister of Interior, Mohamed bin Nayaf, was in 
Washington recently and I think we have improved the 
cooperation and coordination with some of the other backers of 
the moderate opposition to ensure both that they get the 
support they need, but also that extremists are denied the 
funding and the flow of arms that are enabling them to increase 
their strength. So part of it is what we do; part of it is what 
we can work with our partners to do.
    The Chairman. Well, I get a sense that we are not as robust 
as we should be, and, unless we are, we are not going to change 
the equation in Syria, which means that we are in for a world 
of hurt as we move forward.
    Finally in this regard, this committee gave the President 
the authorization for the use of force, which I think was a 
critical element of his ability to at least pursue the chemical 
weapons issues that Syria possesses. But they have missed two 
deadlines already. I now see a report where they are 
accelerating--allegedly accelerating--but accelerating without 
actually doing anything is inconsequential. To say you are 
going to accelerate on paper is one thing, but they have missed 
deadlines.
    How convinced are we that we are going to get the 
commitment of action by the Syrians as it relates to getting 
rid of their chemical weapons stash?
    Ambassador Burns. Mr. Chairman, the foot-dragging by the 
Syrian regime has been deeply frustrating. The last few weeks 
there has, as you rightly pointed out, been an increase in 
movement in the right direction. By the beginning of next week, 
I understand that about 35 percent of the chemical materials 
will have been removed from Syria. So I still think it is 
possible to meet the 30th of June deadline that has been set 
for removal and destruction. But we are going to have to keep 
pushing very hard to ensure that this process continues.
    As I said, there has been some accelerated movement in 
recent weeks, but I do not think we can take that for granted. 
We need to keep pushing very hard.
    The Chairman. Well, I think we need to keep pushing, and at 
some point we need to suggest that our patience is not 
unlimited with constant violation of deadlines that ultimately 
need to be met.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    I did not hear your first questions. I hope I am not being 
redundant, but I do want to talk a little bit about Syria.
    The Chairman. You are never redundant.
    Senator Corker. Okay, good. Thank you.
    In the Syrian issue, I know that it sounds like the 
chairman and you had a little discussion about that. First of 
all, I appreciate the work you are doing in counterterrorism 
and certainly what our Defense is doing relative to some of the 
regional threats that we have that, candidly, did not need to 
exist. But they now do because of our inaction and others.
    But what is it that we are expecting to do to change the 
equation on the ground in Syria now that it has become what it 
is? I do not know if you have got policy moves. I know 
Secretary Kerry, I saw him a few weeks ago in Europe. He told 
me he was on the verge of announcing something. We keep hearing 
that. We have private conversations with others. But there is 
no balance change that we are seeing.
    So what is it that the administration believes is going to 
be the thing that causes Assad to want to negotiate his 
leadership away from Syria?
    Ambassador Burns. The reality, just as you said, Senator 
Corker, is that without a change in Assad's calculation and a 
change in the balance on the ground it is unlikely, in fact 
impossible, that you are going to see diplomatic progress, 
whether it is in Geneva or anyplace else. We are looking 
actively, as Senator Kerry said to you, at ways in which we can 
step up our own support for the moderate opposition, which has 
had more than its share of challenges in the last couple of 
years.
    We are also working I think more effectively with some of 
the other partners. The Saudis I mentioned earlier in response 
to the chairman.
    Senator Corker. So are we thinking about lethal support? We 
have people dropping barrel bombs. Are we thinking about doing 
something to diminish their ability to do that? I know that 
there have been debates about title 10 support, having actual 
military training, having actual military--not our boots on the 
ground, but our ability to get weaponry and training to the 
vetted moderates. Are we still looking at that?
    Ambassador Burns. We certainly are still looking at a range 
of options, some of which I ca not really discuss in this kind 
of a setting. But we are looking--we understand the urgency of 
the situation. I think all of us understand what is at stake 
here, not just for Syria but for its neighborhood, and some of 
our closest partners are in that neighborhood. So we are 
looking at what more we can do, but also at what our partners 
can do more effectively to support the moderate opposition and 
begin to try to change the realities on the ground.
    Senator Corker. You understand we have been hearing this 
for years now. And since we first began hearing this, I would 
guess 100,000 people have died since we first began hearing 
this.
    What is it within the administration right now that keeps 
the administration from really wanting to put something forth? 
I mean, do we not have the partnerships we had before in the 
region? What is the factor that you think keeps our 
administration from being slightly more forward? I will say 
this: Things have changed. I think the options that were great 
options a year ago are probably not as great today. They are 
just not, because of the extremists that have moved into the 
region.
    But who are our partners now in this effort, our real 
partners? And what is it that you think keeps the 
administration from wanting to change that balance on the 
ground? Have we decided now that we are better off with Assad 
in place because the extremists are actually worse for our own 
homeland security than Assad being there? I would just like an 
explanation because we have been hearing this--100,000 people 
ago we were hearing this.
    Ambassador Burns. I remain firmly convinced, and the 
administration does, that Assad is a magnet, as my colleagues 
were talking about, not only for foreign fighters and violent 
extremism, but that as long as Assad remains the civil war will 
continue and get worse and the dangers of spillover get worse 
as well. So I do not think either our analysis or our resolve 
has changed a bit on that.
    There is more that we can do with our partners. I mentioned 
the Saudis earlier. The President, as you know, at the end of 
March is going to be going to Saudi Arabia. We work very 
effectively, as Derek was describing, with the Jordanians, and 
I know King Abdullah had a chance to meet with you recently and 
discuss both his concerns and his plans. We are intensifying 
our cooperation with Jordan as well.
    So this is going to require an all-of-the-above effort, 
looking at what more we can do, but also what more our partners 
can do, recognizing the urgency of the situation.
    Senator Corker. Generally speaking, I just want to say it 
is kind of none of the above. I know there is limited activity 
that gets discussed in other settings. But I was just in Saudi 
Arabia not long ago. I can tell you they are one frustrated 
group of folks at us saying we are going to do something and 
not doing anything. They obviously went outside the umbrella. 
There has been some backlash there, I understand.
    But it is very disappointing, year after year, 100,000 
people later, to continue to hear the same things and yet no 
action be taken, and I know the situation is much worse now.
    Let me ask you this. On Russia, has there been any 
discussion--and I know that people on both sides of the aisle 
have discussed energy issues, and I know we are going to talk 
about sanctions, and we are going to have some economic relief, 
hopefully, coming next week--is there any discussion right now 
about our energy policy and additional pressure that might be 
placed on Russia by moving quickly with that, not again waiting 
a year but moving quickly with some changes in how we deal with 
some of our energy issues that might put additional economic 
pressure on Russia?
    Ambassador Burns. Well, Senator, as you and other members 
of the committee know very well, the shale revolution and the 
transformation of the global energy market gives the United 
States a great deal of strategic leverage we did not have 
before, and it creates opportunities for us to help the 
Europeans loosen their dependence on Russian gas, and over the 
long term gives us strategic assets that I think can be very 
important in foreign policy.
    We need to be very conscious of that as we look ahead and 
very conscious of that in terms of what it means for our 
relative strengths and Russia's relative weaknesses as you look 
out over the next few years.
    So to answer your question; yes, people are looking very 
carefully at that as an element of broader strategy.
    Senator Corker. I think most of the people that look at 
this issue, much like we could have done some things in Syria a 
year ago, 2 years ago, and things would not be the way they are 
today, people look at this energy issue and I think they say, 
well, if we wait a year or two to announce some things or do 
some things, it is not going to have the impact that it would 
have today. So I hope we do not go through the same process in 
looking at energy that we have in Syria.
    I will just close with this. I know my time is up. I think 
our foreign policy credibility is close to shot at this time. 
The series of events that have happened over this last year I 
think have weakened us substantially. Again, I know you are 
implementers, not setters, and I am not directing this at you.
    On Iran, though, I think we all support the diplomatic 
activities that are taking place there. I think many of us are 
concerned about the interim deal being the final deal or having 
a series of rolling interim deals. I would just say that, look, 
Russia has been our partner in all of these things, and I think 
us rushing to some agreement that again is not one that is 
substantial enough will shoot all credibility that we have 
relative to foreign policy issues.
    I would just urge you to--I would urge the State 
Department, I would urge those that are negotiating, to please 
pause. Let us make sure that what we do there is something of 
long-term significance that matters, and let us--certainly, do 
not appear to be rushing into a deal just to make a deal, which 
I think that has hurt us over the course of the last year.
    I thank you for your service.
    The Chairman. Senator Cardin.
    Senator Cardin. Well, Mr. Chairman, first of all, thank you 
very much for holding this hearing.
    Secretary Burns, it is always a pleasure to have you before 
our committee, and the other panelists. Senator Corker and I 
share many common visions on foreign policy objectives, 
including in Iran and Syria and Ukraine. I disagree with your 
assessment. I think this administration has shown incredible 
leadership and effective coalition-building to deal with some 
extremely challenging problems around the world. It is 
important that we work as closely as we can together, and I 
want to talk about the Ukraine specifically.
    We have talked about this before, but I am just going to 
underscore how dangerous this situation is and how Russia is 
violating not just one, but numerous international obligations. 
They are violating the OSCE core principles, the 1994 Budapest 
Memorandum--signed by the United States, United Kingdom, 
Russia, and Ukraine--the 1997 Ukraine-Russia bilateral treaty, 
the U.N. Charter.
    Russia's military invasion is a gross violation of the 
Vienna Documents Confidence and Security-Building Mechanisms, 
which govern military relations and arms control. I could go on 
and list many, many other international agreements that are 
clearly being violated by Russia in Ukraine.
    Ukraine has shown remarkable restraint. I commend them for 
being able to put the spotlight on who is the villain here, and 
it is clearly Russia.
    The OSCE has a mechanism in order to deal with it. They 
have observers. Ukraine has asked those observers to go to 
Crimea so that we can have objective accounts, because I think 
it is clear to the world that Russia's justification for what 
they are doing does not exist.
    Mr. Chairman, it is very interesting that those observers 
have been denied entrance into Crimea by people dressed up in 
military uniforms and by others who are unidentified. Clearly, 
we know who is responsible for those denials.
    The OSCE media freedom representative and her staff were 
temporarily blocked from leaving a hotel in Crimea where she 
had meetings with journalists and civil society activists. The 
U.N. special envoy was accosted by unidentified gunmen after 
visiting the naval headquarters. I could go on and on and on 
about how Russia is denying international institutions that are 
available in order to deal with this the access they need, 
which is only accelerating this problem.
    As the chairman pointed out, this is an issue that goes 
well beyond Ukraine and Russia. From the western Balkans to the 
South China Sea, we have territorial issues in which we worry 
about military force being used rather than direct bilateral 
discussions.
    So I am proud that the United States has taken a strong 
position on this and our President has taken a strong position 
on this. The Executive order that was issued I think is the 
right course. We are going to have to do more, as you have 
acknowledged.
    But here is the challenge. What is the EU doing? What is 
the United Nations doing? We have heard a little bit about 
OSCE. We have heard a little bit about NATO. But I tell you, we 
have not heard the strong unified voice that we hoped we would 
see around the world to demand that Russia get out of Ukraine 
and allow Ukraine to run its own internal affairs.
    Where are we with the U.N.? Where are we with the other 
international organizations and the EU?
    Ambassador Burns. Thanks, Senator. On the EU, as you know, 
there is an EU summit, an extraordinary EU summit that is going 
on right now. The President and Secretary Kerry have been in 
very close touch with EU leaders over the course of recent 
days. The EU has taken some steps, both----
    Senator Cardin. Are they as broad as what the President has 
taken on this Executive order?
    Ambassador Burns. They have taken some steps against 
Ukrainian individuals which are consistent with the Executive 
order, and I know they are considering today as we meet here a 
range of other steps. I do believe that EU leaders understand 
what is at stake here.
    Senator Cardin. As I understand the President's Executive 
order, it goes beyond just Ukrainians.
    Ambassador Burns. Yes, sir. But as I said, I believe the EU 
is considering very seriously a range of other steps that it 
can take. I do agree with you; I think acting as part of a 
broad international coalition on issues like this is likely to 
have more significant effect on Russian behavior. So we are 
going to continue to do everything we can, working with our 
partners in the EU, to make clear the costs, not only of what 
Russia has already done, but the increasingly significant costs 
of any further escalation.
    I do believe that EU leaders understand that and are going 
to act on it.
    Senator Cardin. How about beyond the EU?
    Ambassador Burns. You mentioned the OSCE, sir, which you 
know very well. OSCE has moved quickly to organize observers in 
eastern Ukraine. They have run into difficulties in Crimea, but 
we are going to continue to push that as hard as we can. It is 
one of the most effective ways to demonstrate the falsity of 
some of the claims that Russian leaders have made about what is 
going on in eastern Ukraine and the false accusations about 
persecution of ethnic Russian minorities there.
    So in the U.N. Security Council we will continue to try to 
keep a focus on the issue as well. So that we will use every 
international fora that we can to not only highlight our 
concerns, but build practical pressure on Russia to restore 
Ukraine's territorial integrity and sovereignty.
    Senator Cardin. Thank you.
    The Chairman. Senator Risch has deferred to Senator 
Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Secretary Burns, can you tell me exactly how the 
administration views Russia? I would like to think Russia is a 
friendly rival as opposed to an unfriendly adversary. What is 
the viewpoint of the administration right now toward Russia?
    Ambassador Burns. Our relationship with Russia is a 
complicated one. There are some areas in which as a practical 
matter we have been able to work together in recent years. 
Afghanistan is one example. It is been true in some other areas 
as well. But there are also areas of obvious difference, 
certainly most obviously and most seriously in Ukraine now. But 
it has been true in other parts of Russia's neighborhood, 
Georgia, as was mentioned earlier.
    And we continue to have serious concerns about human rights 
abuses within Russia itself. So the honest answer is that our 
relationship is a mix of areas of obvious difference and in 
some cases competition and some areas in which objectively we 
can work together. But right now I think we are in a very 
difficult period in our relationship with Russia because of 
Russian behavior.
    Senator Johnson. In areas, for example Afghanistan, maybe 
there is a little bit more cooperation there. Then you look at 
Syria. When we are attempting to work with them as, let us say, 
partners, do you believe they are always operating with the 
United States in good faith or are they being duplicitous? I 
mean, it may be good faith in Afghanistan, there is maybe some 
shared interests, but more duplicity in Syria?
    Ambassador Burns. I think on Syria we have been frustrated 
by large dimensions of Russian behavior and actions. On the 
chemical weapons issue, we have managed to work together and 
made at least some progress toward the destruction of Assad's 
chemical weapons stockpile, which objectively, I think, is a 
good thing for Syria and for the region.
    But in other areas we have been frustrated by the 
reluctance, the unwillingness of the Russian Government to push 
harder on the Assad regime and to recognize what is at stake, 
not just for Syria but for the whole region. So Afghanistan, as 
you mentioned, Russia has played a role in facilitating through 
the Northern Distribution Network the provision of supplies to 
the coalition effort in Afghanistan, which again is in a hard-
nosed way in Russia's interest because it does not have an 
interest in the spillover of instability from Afghanistan.
    Senator Johnson. The Washington Post, in an editorial, said 
that the administration is basing its foreign policy on a 
fantasy. Then they changed it in the printed version. But have 
the events in the Crimea and the Ukraine--is the administration 
now looking a little more realistically long term?
    Ambassador Burns. Senator, I think, and I have spent a good 
bit of my own career serving in Russia and working on United 
States-Russian relations, and I have always tried to be 
realistic about where there are areas of cooperation, trying to 
take advantage of that, but also to be honest with ourselves 
about those areas of obvious difference.
    So I think over the long haul we need to be mindful, as I 
said in my opening remarks, of our own strengths and the 
strengths of the United States and our partners and the 
dilemmas that Russia is going to face over the long term.
    Senator Johnson. I have heard a number of people say that 
Russia's move in Crimea signals a certain level of weakness on 
the part of Russia. It looks like a pretty strong move to me. 
Can we just--you talked about strengths. What gives Russia the 
strength to do what it did? Why did they think they can do that 
with impunity?
    Ambassador Burns. Well, given the geography and the 
proximity of Russia to Crimea and the relative strength of the 
Russian military compared to the Ukrainian military, it is 
clear to see how Russia could have----
    Senator Johnson. So military. But also, is it not their 
oil?
    Ambassador Burns. Certainly the Russian economy is largely 
dependent on hydrocarbons, on oil and gas.
    Senator Johnson. Is it safe to say that high oil prices, 
which are sometimes driven higher by chaos for example in the 
Middle East, does that give Russia strength?
    Ambassador Burns. Certainly high energy prices have fueled 
Russian economic growth in recent years. But that growth has 
tapered off. It is now under 2 percent in the last couple 
years, as I recall. As I mentioned earlier, if you look at the 
way in which the global energy market is being transformed by 
the shale technology revolution, over the long haul those 
relative strengths of Russia I think are going to diminish. And 
Russia has not taken advantage of the opportunity in the last 
decade to diversify its economy.
    Senator Johnson. So we are getting right to the point I 
wanted to get to. You mentioned that we need to remain steady, 
determined, patient, resolute. The chairman said we have to say 
what we mean and mean what we say. In other words, not only 
just talk ???to??? talk; walk the walk. So is this 
administration going to start looking at Russia with their eyes 
wide open, understand the reality of the situation, understand 
the brute force, the lawlessness, the duplicity of Russia? And 
are we going to start laying in a ratcheted-up level of 
strategy of increasing the sanctions, increasing the costs, if 
Vladimir Putin continues to do this? Or are we going to 
deescalate, provide an off-ramp, and then just kind of hope for 
the best again?
    Do we have a well thought out or are we going to develop a 
well thought out strategy, understanding the real reality of 
the situation now?
    Ambassador Burns. Senator, I think we have our eyes wide 
open about all the realities that you just described. And as I 
tried to outline in my opening comments, I think we are 
developing a very careful systematic strategy for dealing with 
those realities and promoting American interests and values.
    Senator Johnson. Okay, thank you.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you.
    Thank you all very much for being here at a very 
challenging time in the world. I am not sure whether this is 
best directed to you, Deputy Secretary Burns, or Mr. Chollet. 
But I know that Ukraine is not a member of NATO, but there have 
been some meetings within our NATO allies to assess the 
situation in Ukraine. Do we assume that NATO may take a more 
assertive posture with respect to what has happened there, 
either rhetorically or in some other ways that symbolically 
might suggest support for Ukraine?
    I wonder if you could talk about what actions we might be 
taking with NATO to engage their support in the current 
situation.
    Ambassador Burns. Senator, let me start and then I will 
turn to Derek. As Secretary Hagel made clear yesterday, we have 
taken a number of immediate practical steps. We have an 
aviation detachment in Poland. We are looking to expand 
cooperation with the Poles through that detachment. There is a 
NATO air policing unit that operates in the Baltics. We are 
looking to enhance the contributions that we make there.
    So those are steps that are not just symbolic; they are 
practical and they make clear the commitment of the United 
States and the entire alliance to partners who have real 
concerns right now.
    Mr. Chollet. Senator, if I could add, the North Atlantic 
Council of NATO has been in continuous meetings over the last 
week on this issue. I, a week ago today, was with Secretary 
Hagel in Brussels, where we participated in a NATO Ukraine 
Commission meeting that was thrown together on very short 
notice to discuss this crisis, and the Deputy Defense Minister 
of Ukraine was there.
    Today in Brussels the Secretary General of NATO is going to 
be meeting with the Ukrainian Prime Minister. At each of these 
junctures, NATO has released very strong statements of support 
for the Ukrainian people and for the peaceful end to this 
situation. As the Deputy mentioned, the Baltic air policing 
mission, which is a NATO mission, Secretary Hagel announced 
yesterday that the United States, which is currently managing 
that operation--we have had four F-15s there. We will be adding 
six additional F-15 today, flying from the U.K. to Lithuania. 
They will land today and then participate this NATO-led air 
policing mission for our Baltic partners.
    That is reassuring some very critical allies of ours who 
are made very nervous about the events in the Ukraine and what 
Russia's been doing.
    Senator Shaheen. Can you speak to how those actions are 
being received in Russia?
    Mr. Chollet. We have been very clear with our Russian 
counterparts about what we are doing. Chairman Dempsey has had 
several conversations in the last 48 hours with his counterpart 
in Russia. We have been very open with them. They are taking 
this rather matter of factly, to be honest, which is good news. 
We are not seeking to take an escalatory step vis-a-vis Russia 
with these moves. We are seeking to reassure some partners who 
are rightfully nervous about what is going on in Ukraine and 
what this may mean for them.
    So we are very determined to remain transparent. Yesterday, 
in fact, in Brussels there was a NATO Russia Council meeting 
that was thrown on the schedule, did not go particularly well, 
as you might imagine, with the Russian representative there. So 
NATO is trying to send a clear sign of support and reassurance 
to NATO partners. We are also trying to be transparent as much 
as we can with the Russians, so the steps we take to reassure 
partners do not escalate the situation further.
    Senator Shaheen. Mr. Olsen, you talked in your testimony 
about the Islamic State of Iraq and the Levant. Can you talk 
about the extent to which we think there is collaboration--I do 
not know if that is the right term--with al-Qaeda on their 
activities, or how are they directing things that are happening 
in Iraq and Syria as opposed to al-Qaeda, and how much do we 
know about them?
    Mr. Olsen. Sure. Senator, the group that you mentioned, 
ISIL, really is a modification of a prior group, Al Qaeda in 
Iraq, which was an affiliated group with al-Qaeda. They 
certainly share that same ideology, although they are now 
engaged in a rather public controversy about whether ISIL is 
still part of al-Qaeda, core al-Qaeda under Zawahiri in 
Pakistan.
    But the bottom line is that ISIL is a group that has that 
same ideology and has been involved in a significant amount of 
violence both in Syria as well as in Iraq, and has demonstrated 
really brutal tactics in both locations. As I mentioned, the 
degree of violence in Iraq, in particular in Fallujah, has 
risen to a level that we have not seen for several years.
    Senator Shaheen. Thank you.
    My time is up.
    The Chairman. Senator Flake.
    Senator Flake. Thank you, and thank you all for your 
service.
    Deputy Secretary Burns, with regard to the sanctions 
announced today, the visa restrictions, how effective do you 
expect those to be unless our European partners move ahead with 
some financial sanctions of its own, or sanctions on assets or 
dealing with assets somehow? What can you tell us about what 
Europe is doing at this point or the EU?
    Ambassador Burns. Certainly, Senator, I think the steps, 
both the Executive order that the President signed as well as 
the visa bans that the State Department is putting into effect, 
are significant steps. But you are absolutely right, we will 
have more impact if we do more with our European partners. The 
EU leaders are meeting right now in an extraordinary summit. I 
think they are looking very seriously at concrete actions that 
they can take.
    They have taken some already against Ukrainian individuals 
with regard to travel and asset forfeitures. But they are 
looking at further serious steps that they can take. So the 
more we do this in sync with our European partners, the 
stronger the effect is going to be and that is why we are 
working quite intensively with our European partners right now.
    Senator Flake. Thank you. I think the outcry from the 
United States and from Europe may stop, for the time being at 
least, Russia from moving further into the Ukraine. But it 
looks as if they are looking to hunker down pretty quickly in 
Crimea. They are moving forward with some kind of referendum of 
elections within a week, and I guess the Russian Parliament is 
now looking for a way to more easily allow them to be annexed 
or somehow swallowed up by Russia just in the short term.
    Assuming that happens, assuming that Russia tries to give 
some patina of legality to all of this that way, how long do 
you think our European allies and others will hold forward with 
sanctions if Russia does not incur further into the Ukraine, 
but just settles for Crimea? Will the sanctions regime that we 
are putting in place be effective in the long term? Will it be 
held in the long term? What are your feelings there?
    Ambassador Burns. Senator, I would say a couple things. 
First, I do not think there is any way in which the Russians 
can put a patina of legality or legitimacy on the referendum 
that has been discussed. It runs directly counter to the 
Ukrainian Constitution, which makes clear that any step to 
alter the territory of the Ukraine has to be approved by an 
all-Ukraine national referendum.
    Second, I think the Europeans understand what is at stake, 
as I believe we do, and are determined to not only make clear 
that there are costs of what has already been done, but to 
increase significantly costs if the situation escalates. I 
think over the long term what Russia will face if it persists 
in this is going to be not only increasing costs, but 
increasing international isolation, which does have a 
consequence at a moment when Russia has its share of 
challenges--as I mentioned before, changes in the global energy 
market, an economy which is not growing at nearly the rate it 
was before, and a lot of unresolved domestic challenges as 
well.
    Senator Flake. I did not say they could put some kind of 
patina of legality, but they are sure trying.
    With regard to Russia and our cooperation with Russia in 
Syria with regard to chemical weapons, what can you tell us 
about how the recent events have affected that cooperation with 
regard to chemical weapons? I am sorry if this is ground you 
have already plowed here. I came late.
    Ambassador Burns. I will be very brief, Senator. We have 
been frustrated over recent months by the foot-dragging of the 
Syrian regime. I believe Russia remains committed to the object 
here, which is the removal and destruction of all of Syria's 
chemical weapons stockpile. By the beginning of next week, 
about 35 percent of that stockpile should be removed from 
Syria.
    It is still possible to meet the 30th of June target that 
has been set and I think it is vitally important to do that. 
That is an area where I believe Russia has a self-interest in 
trying to ensure that that happens. It is not a favor to the 
United States. It is something that Russia has committed to, 
and I hope that we can accomplish that goal.
    Senator Flake. Some of the sanctions that have been talked 
about or contemplated by the administration and/or Congress 
involve cooperation or lack thereof or stopping cooperation 
with Russia on certain issues. How would that impact our 
ability to carry forward the agreement that we have in Syria?
    Ambassador Burns. It is hard to predict, Senator. But as I 
said before, I think Russia having made a very visible and 
public commitment to accomplishing the destruction of Syria's 
chemical weapons stockpile, I think has a self-interest in 
trying to ensure that that happens. We will certainly do 
everything we can to help ensure it does.
    Senator Flake. Thank you, Mr. Chairman.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Senator Johnson referenced the fact that there are many 
people who believe that this is actually a sign of Russian 
weakness. Count me amongst them, in the sense that only 2 weeks 
ago Russia had the President of the Ukraine essentially under 
their thumb both economically and politically, a country that 
had reversed course and had committed into a new economic 
relationship with Russia, moved away from an economic 
association with Europe, and today the situation is very 
different. No matter the future disposition of Crimea, there 
are 43 million other Ukrainians, which represent 95 percent of 
the country's population, which now have a government oriented 
toward Europe, a country--Russia now faces economic sanctions 
from the United States and Europe that, if not crippling, will 
certainly be damaging, and he faces a future as somewhat of an 
international pariah who is going to be much--have a much 
lesser ability to influence the future course of democratic and 
economic values.
    So ultimately I guess the question is, What is his end goal 
here? If this was a panicked reaction to Yanukovych's removal 
from office, then what he is seeking here is not just 
territorial control of Crimea, but he is still seeking to 
influence events in Kiev, that he actually thinks he still has 
the ability to keep the totality of Ukraine out of the EU and 
still part of the Russian orbit.
    That does not seem to me the direction that this is going. 
I want to make sure we do everything within our ability through 
the trans-Atlantic relationship to expel Russian troops out of 
Crimea. But no matter his ability to cloud the future of 
Crimea's legal status, I would be interested to hear your take 
on whether this has anything to do--whether he has any 
remaining effect on what seems to me now a predestined path of 
Ukraine into the European?
    Ambassador Burns. Senator, I think the effect if the 
present events continue on their course is going to be largely 
to solidify Ukrainians around their own commitment to their 
independence and sovereignty and deepen their interest in 
connections to the EU and to the West. I think that is largely 
the effect. I do not think that is the intended effect of what 
President Putin has tried to do. I think what he looks for is 
deferential neighbors and to try to ensure that there are 
governments in place that are going to be deferential to 
Russian interests.
    As I said in my opening remarks, it is one thing to 
recognize that Russia has legitimate interests in Ukraine for 
all sorts of reasons, but that does not justify illegitimate 
actions. I think those illegitimate actions are over the long 
haul going to isolate Russia just as you said and undermine its 
ability to influence its neighbors.
    Senator Murphy. There has been all sorts of loose talk on 
the television news shows about the fact that just because 
there are ethnic Russians and Russian speakers in Ukraine, in 
Crimea and eastern Ukraine, that that somehow equates to 
Russian sympathizers. That frankly is simply not the case in 
that part of the world, as it is also not the case in many 
parts of this country that have large numbers of ethnic 
Russians.
    A followup on Senator Shaheen's question regarding NATO. 
There have been some that have suggested that the move on 
Crimea is a caution to admit Georgia and Ukraine into NATO, 
because then of course we would have an article 5 obligation to 
defend. The other way of looking at it is that it is an 
advertisement for why we should offer membership to Georgia 
now, this year, and Ukraine at the appropriate moment, because 
it would insulate those countries from future Russian 
encroachment.
    That latter view is mine, but how does the administration 
view the effect of the events of the past several weeks, maybe 
most immediately on the potential roadmap for Georgia's 
ascension into NATO?
    Ambassador Burns. Senator, as you know, American policy 
across administrations has been to support an open door for 
NATO, and with regard to Georgia to support Georgia's interest 
in eventual membership with the membership action plan being 
the next step along the way. That is obviously a decision that 
has to be taken within the alliance and there is always an 
active debate about those issues. But American policy has not 
changed.
    Senator Murphy. Thank you. Finally, this is not a question 
that needs to be answered. Let me say that I do not necessarily 
share your optimism about the direction that our European 
friends are going. I hope that today's summit results in a new 
commitment to join us in sanctions. I am glad that the 
administration took these initial steps today. But given the 
fact that our economic relationship with Russia is about $40 
billion in Europe's economic relationship with Russia is $460 
billion, if economic sanctions are to have an effect, which I 
believe they can, this clearly has to be done in conjunction.
    This is a test of the trans-Atlantic relationship and we 
will see what the result is from our European allies in the 
coming days and weeks.
    Thank you, Mr. Chairman.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman, and thanks to the 
witnesses.
    Two comments on Russia and then I want to ask some 
questions about Syria. I associate myself with the comments 
suggesting that Russia's move in the Crimea is ultimately a 
sign of weakness that is likely to lead to bad consequences for 
Russia. I think they have overplayed their hand in a way that 
it is going to have dramatically negative consequences for an 
economy that already has challenges and a political system that 
is sort of rotten at the top.
    Second, I associate myself with the comments raised by 
folks around the table that we ought to be using our energy 
resources to accomplish our foreign policy objectives, 
especially the support of Ukrainian independence. The energy 
resources that we have give us such a good ability to provide a 
backstop and help countries wean themselves away from 
autocratic regimes that they need to be close to because of 
energy. Whether that is folks who have to purchase from Russia 
or folks who we have given a waiver to purchase from Iran, we 
do have an ability now to strategically use our resources to 
help pull people away from countries that they would rather not 
be associated with, and we should be looking at that with 
respect to Ukraine.
    Moving to Syria, I recently returned from a trip to Lebanon 
with Senator King to talk about Syria there, after earlier 
visits to Turkey and Jordan. We had a hearing about Lebanon 
that some in the room attended 10 days or so ago, and it was 
shocking, the magnitude of the challenge, 4 million Lebanese 
and now over a million Syrian refugees.
    But what was even more shocking is as you talk to Lebanese 
about any issue Syria is the dark star with its powerful center 
of gravity that warps everything in Lebanon. The Syrian civil 
war is ultimately the answer to every question. The kids were 
running two shifts in the Lebanese schools because of Syrian 
refugees. Water resources, energy resources, tourism, and the 
economy.
    Despite political instability, Lebanon had been somewhat 
free from the kind of terrorist bombing activity that had been 
the norm there during the 1980s and some parts of the 1990s. 
But as soon as Hezbollah decided to go all in for Assad, then 
Sunni extremists said, okay, we are going to come fight a 
battle in your neighborhood. And there has been this extremist 
violence. Senator King and I were heading off to a meeting in 
downtown Beirut and two suicide bombers exploded themselves 
outside of an Iranian cultural center.
    The Hezbollah activity in Syria has brought more extremist 
activity into Syria. The topic of this hearing is the spillover 
effect, and the spillover effect in Lebanon is just absolutely 
massive.
    It strikes me that as we are grappling with what the United 
States can do there are sort of at least four areas where we 
can be engaged. Humanitarian aid to Syrian refugees outside 
Syria, we are the top provider of humanitarian aid in the 
world. Not that we cannot do more and not that we cannot be 
calling on other nations to do more, but in terms of who is 
providing that humanitarian aid we are No. 1 and there is not a 
close second.
    Second and very importantly is humanitarian aid inside 
Syria. Where there are 3 to 4 million Syrian refugees outside 
Saudi Arabia, there are 7 million refugees inside Syria who 
have been displaced. And Russia has been that stone wall 
against humanitarian aid delivery, aggressive insertion of 
humanitarian aid inside Syria.
    During the Winter Olympics when the light of the world was 
on them and they did not want to just be the sole pariah 
blocking humanitarian aid, Russia finally agreed, after vetoing 
three Security Council resolutions on humanitarian aid, to a 
Security Council resolution about the delivery of humanitarian 
aid inside Syria. The first question I want to ask you is, that 
was done in mid-February. It has not been many weeks since it 
was done and I think there was like a 30-day reporting 
requirement. What have you seen in terms of humanitarian aid 
delivery inside Syria since the U.N. Security resolution?
    Ambassador Burns. It remains a huge problem and we have not 
seen huge progress since the passage of Resolution 2139. I 
think it does provide a tool to try to ensure not only that the 
siege--and it literally is a siege--of certain cities are 
lifted, and that we can establish humanitarian access. We are 
working hard at that in support not just of U.N. and other 
relief agencies, but also pressing the Russians and others who 
voted for this resolution to help make it a reality.
    But I do not want to suggest to you, Senator, that we have 
seen kind of dramatic overnight progress. But we are going to 
keep trying to do everything we can to use 2139 to improve the 
situation.
    Senator Kaine. Mr. Chairman, my time is almost up. The 
other two elements obviously where we can be helpful, that we 
have to grapple with policy, is along the lines that were in 
the Foreign Relations Committee's resolution we passed earlier 
this year about military support, supporting military support 
to vetted opposition; and finally the diplomacy. While the 
Geneva talks have been a failure thus far, there is no 
substitute for them.
    Let me just ask you finally, Do you share DNI Clapper's 
view that the current battlefield situation in Syria is 
essentially a stalemate that is likely to last a long time 
without either side being able to claim a decisive victory?
    Ambassador Burns. I do think the civil war is a bloody 
stalemate right now. The Assad regime controls some parts of 
the country, but obviously does not control other swaths of the 
country right now. I think the longer that bloody stalemate 
continues, the greater the human cost for Syrians, obviously as 
you just mentioned, but also the greater dangers to the region, 
for Lebanon but also for Jordan and Iraq.
    Senator Kaine. Thank you, Mr. Chairman.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    I want to very strongly contest this idea that massive 
exportation of American energy is going to affect the Ukraine. 
I want to say this because I believe our greatest strength is 
our national economy. I think that is what really makes us 
strong. Because we are strong at home, we are strong abroad.
    So the administration has already approved five export 
terminals which have the capacity to export 5 trillion feet of 
natural gas. The Energy Information Agency says that just 
because of that reduction of supply in the United States it 
could lead to an upward of 50 percent increase in domestic 
prices here. Well, that is $62 billion a year that is coming 
out of consumers' pockets in America, manufacturers' pockets in 
America. That is a $62 trillion tax, this policy, on Americans 
every year. It would be close to $600, $700 billion over a 10-
year period.
    Not only that, it is going to slow the conversion from 
coal-fired plants over to natural gas plants in the United 
States, because the price of natural gas is going to go so high 
here. It is going to slow the conversion of oil-run buses and 
trucks over to natural gas, which is domestically supplied and 
is low cost, and as a result we are going to continue to import 
more oil from places we should not be importing oil. It is 
going to slow our economic recovery because it is a subsidy 
right now, this low-cost energy into our economy, and except 
for labor it is the single largest discretionary item.
    And moreover, this whole idea that our natural gas is going 
to the Ukraine is just completely wrong-headed. Rex Tillerson 
at Exxon Mobil has a fiduciary relationship with his 
shareholders. The price in China that he is going to get for 
natural gas is much higher than in the Ukraine. The price he is 
going to get in South America is much higher than he is going 
to get in the Ukraine.
    Congress and the President do not control where this 
natural gas goes. It is not Russia, it is not Venezuela. We are 
a capitalist country. They are going for the highest price, and 
that is not from Ukraine.
    So this is an illusion and we need a national debate here. 
We have a tremendous economic recovery being driven by this 
low-cost natural gas. If we are going to lead to a $62 billion 
a year increase, a tax, I can understand what Rex Tillerson and 
the American Gas Association want. Their motto is essentially 
do not let a good crisis go to waste. Let us just argue for 
more export of this incredibly valuable natural resource.
    But I will tell you this. This is a huge price that we pay 
in weakening America's economy by doing it, and that is our 
greatest strength. That is what really allows us to stand 
astride the world. It is our economy. That is what the rest of 
the world's afraid of. They want to partner with us. That is 
why the Ukraine wants to move toward the West. It is our 
economy that makes us attractive to them. It is not our tanks, 
it is not our jets. It is our economy. That is what those young 
people want.
    So all I can say to you is it is an illusion. It is a free 
market out there. Our natural gas is not going to the Ukraine. 
No President, no Secretary of Defense, can direct it that way. 
It is not going there. We cannot compete with Russian pipelines 
with high-cost liquefied natural gas that costs $6.00 just to 
liquefy it, just to cryogenically freeze it.
    So I just say that to you, Mr. Secretary. We need a big 
debate in America, Mr. Chairman, over the economic impacts on 
our own country if we decide to just disperse this natural gas 
around the world, helping the Chinese, yes, helping South 
Americans, yes, but having such a small impact on what is going 
on in the Ukraine that people will look back and say, what were 
they thinking; they had an incredible asset that they allowed 
to be diffused.
    Mr. Secretary.
    Ambassador Burns. I guess with regard to Ukraine, I think 
there is another dimension, as you know better than I do, to 
helping the Ukrainians lessen their dependence on Russian 
natural gas, and that is developing their own resources, 
whether it is shale or in other areas. The Poles have done some 
very sensible things in recent years along those lines. So I 
think those are the kind of things that we are working actively 
to help the Ukrainians on.
    I recognize I am no expert on the global energy market, but 
I recognize what you said about the very important tradeoffs 
that are involved here, and that has to be a part of the 
broader debate that you described.
    Senator Markey. I do not think the analysis has been done. 
I think people are just throwing this out as some big idea and 
it does not come from an analysis of the impact on our economy. 
It does not come from the incredible manufacturing renaissance 
we have had in America because of low-priced oil and natural 
gas.
    Yes, I would like to go out into the free market and get an 
extra eight or ten bucks a barrel for American oil. But what 
does that do for the low-cost American manufacturers and 
consumers who have access to it here? So this is a big debate 
for our economy and all I can say is that if we want the 
petrochemical, fertilizer, manufacturing industry to be reborn 
here, decamp from China and come back here, energy is one of 
the biggest single factors. Fifteen bucks an MCF in China, 5 
bucks an MCF here in the United States. That is why they are 
coming back. You want to double it, then you are going to lose 
your competitive edge and it is really going to hurt us here in 
America.
    So I just want to throw that out, Mr. Chairman. We need a 
big national debate over this bonanza of shale oil and gas and 
see how we benefit most as a country. Thank you.
    The Chairman. Thank you. That is 37 years of experience 
over in the House of Representatives speaking.
    Senator Markey. By osmosis you pick up a few things.
    The Chairman. I have one final question and I think Senator 
Corker does.
    Senator Kaine. And I do as well, Mr. Chairman.
    The Chairman. Okay.
    So, Secretary Chollet, a question and a caution. The 
question is, In light of what has happened here with Russia and 
considering the announcements of the Secretary of Defense about 
our overall plans for the future, does this give us cause to 
reconsider what we are doing in Europe?
    Mr. Chollet. In terms of military posture?
    The Chairman. Yes.
    Mr. Chollet. Well, sir, as you know, we maintain a very 
robust posture in Europe. Even though we have had to come down 
since the end of the cold war, we still have many, many forces 
forward-deployed. I think that the QDR that was released 
several days ago makes very clear that we still, despite the 
budget pressures we face, despite a commitment to implement a 
rebalance toward Asia, that we are privileging the trans-
Atlantic alliance and we are going to have the necessary forces 
and energy in place to continue to work very closely with our 
NATO allies.
    So I think that part of what we are trying to do is build 
strong partners; work through strong partners. The aviation 
detachment in Poland that has been mentioned several times 
already is a perfect example of how the United States, with 
very little investment, a matter of a few airplanes, can work 
very closely with our Polish partners both to reassure them and 
build up their capability to work with us to take care of our 
common security.
    The Chairman. I appreciate that, the aviation detachment. I 
think it is a good thing. But it is not a challenge to the 
Russians if they decided to move further east--further west, I 
should say. So I just think that it is a moment to think about 
where we are headed here, because there were some presumptions, 
I think, and I am not sure that, based on current events, those 
presumptions do not need to be reviewed.
    My caution is that I agreed to arms sales to Iraq after a 
lot of concerns and a lot of collective work to get to a point 
that I thought it was propitious to do, but I read these 
reports of Israelis stopping a ship with dozens of rockets, 
including Syrian-made M-302s, that as I understand the reports 
show ultimately came from Iran, went to Iraq, where they were 
placed on a ship and hidden under cement. The Cubans use sugar. 
Here they use cement to hide the missiles. And then went down 
from there to the coast, along the coast of Africa, where it 
was intercepted.
    You know, the Iraqis must understand, whether it is 
overflights by Iran into Syria or being a place where you can 
send missiles and then have them boarded on a commercial ship 
and then trying to evade what I think are violations of 
international norms in terms of the shipment of missiles here, 
that that behavior, one, is unacceptable, and two, comes with 
consequences.
    Every time I try to help you move forward, I get a set of 
circumstances that increase my concern about the Iraqis' 
commitments. So I just want to caution that as I look at this 
case, which we will be reviewing, and others that our Iraqi 
partners must understand that there are consequences in this 
regard, consequences until we ultimately resettle all of the 
MEK, to their security. There are a series of things here.
    I have been willing to be helpful, but I have to be honest 
with you: I get concerned when I see actions such as these.
    Senator Corker.
    Senator Corker. Mr. Chairman, just on that note, here we 
are. Again, I think this committee in a bipartisan way has done 
everything it can to try to support and bolster things that the 
administration has at least tilted at publicly. Maybe today the 
fact that we are having a hearing on Syria and we have got our 
counterterrorism person here because we know what has happened 
and Syria is now a threat to our Nation, and our Director of 
National Intelligence has said that, we have our person 
involved in international defense issues working on the region 
because we know the region has been destabilized because of 
lack of followthrough.
    I just have to tell you it is disappointing. And again, I 
really respect the public service of all three of our 
panelists. It is disappointing that we just continue to have 
really no policy, no policy in Syria, other than dealing with 
chemical weapons at a slow pace. So I am just very 
disappointed. I know it is even more difficult to have a policy 
because we did not take actions earlier on the that 
administration itself declared were going to take place.
    So anyway, I think this is a telling panel. I appreciate 
you having this hearing.
    I just want to close with this. I think it is an incredible 
thing that in this Foreign Relations hearing we were able to 
get the Senator from Massachusetts, who I respect--and I say 
this with affection--to give a 7-minute oration on the 
importance of fossil fuels to our economy. So I want to thank 
you for that and I look forward to that being on YouTube over 
and over and over again. But I thank you for that.
    I would just ask----
    Senator Markey. Would the gentleman yield as the ranking 
member?
    Senator Corker. If the chairman will let me, yes, I will.
    Senator Markey. Those of us who sit down here only get 5 
minutes, and it was only 3 of my minutes.
    Senator Corker. Well, it was a great testament to the 
importance of inexpensive fossil fuels to our economy.
    I would just ask, since this is a place where debates 
usually begin and since I agree we should have a debate, what 
are some of the dimensions that the State Department is looking 
at? We understand there are some trade issues, some WTO issues. 
I realize the complexities are much more difficult than just 
waving a wand and natural gas appearing in Ukraine. But what 
are some of the things that are just being discussed, that are 
not agreed to, relative to how energy policy in our Nation with 
excesses can help and maybe cause Europeans, candidly, who as 
someone mentioned earlier do not look like they are acting 
extremely courageous now because of some of these energy issues 
and other things--what is it we might do? What are some of the 
things we might be considering relative to energy that could be 
important right now relative to Ukraine?
    Ambassador Burns. I think the most important thing we can 
do, Senator, with regard to Ukraine is continue to help them 
develop their own energy resources off the Black Sea, for 
example, take advantage of shale technology, as the Poles have 
done recently, I think help them to diversify their sources 
beyond Russia, because there are others in Central Asia and 
other energy producers to whom they can turn; to help improve 
energy efficiency, because energy use is enormously inefficient 
in Ukraine.
    So those are all very practical things that I think we can 
do, quite apart from the broader debate that you have both been 
talking about, about how does the United States best use what 
is going to be an enormous asset, I think, in the coming years, 
already is an enormous asset as a result of the shale 
revolution.
    Senator Corker. But is there any discussion about that 
specifically, which is I think what evoked the conversation we 
had? Are there at least some considerations being made for 
using this resource that we have today to cause there to be a 
little change in the balance in Ukraine?
    Ambassador Burns. There certainly is a lot of active 
strategic consideration being given to how this huge asset 
might affect strategy and foreign policy. Again, it is going to 
have to flow from a national debate, which involves tradeoffs 
in this country. There are a lot of other parts to the 
executive branch that are going to be involved in this as well 
as the Congress. But I do think it is going to provide a very 
significant asset for the United States for many decades to 
come, and I do think that asset and how we use it is going to 
have an impact on the leverage of countries like Russia that 
for many years have used an abundance of hydrocarbons as a tool 
of national security.
    Senator Corker. So it would be fair to say there are active 
discussions at high levels within our government relative to 
how we use this resource, natural gas, today to help us with 
some of the issues we are dealing with in Europe right now, 
both their resistance to put in place sanctions and Ukraine 
itself? There is active discussions at high levels regarding 
that?
    Ambassador Burns. There certainly is.
    Senator Corker. Thank you.
    The Chairman. Senator Kaine.
    Senator Kaine. Just briefly, Mr. Chair. I want to echo--
first I have great respect for my Massachusetts colleague's 
understanding of these issues, and his request that we ought to 
have a national debate about this I think is very appropriate. 
I think when that debate is engaged we will find that the 
position that we should use in a strategic and specific way are 
assets to accomplish important national security objectives is 
not based on an illusion or a lack of analysis.
    Now, it may at the end of the day be, as the Senator 
indicated, a matter of tradeoffs. We may see that there are 
real advantages from it, but the advantages are outweighed by 
domestic pricing or domestic economic effects. But I know from 
interaction with nations that are currently in the nations that 
have received waivers from Secretary Kerry to enable them to 
purchase Iranian oil, for example--they get a waiver from the 
sanctions regime because their economies would not allow them 
to function absent Iranian oil. They are very interested in 
what tradeoffs they could achieve in purchasing American energy 
and weakening their reliance on Iranian oil.
    That can be a very powerful lever in attempting to find the 
diplomatic path that we want toward a nonnuclear weaponized 
Iran. So I think a national debate is a good idea. I think 
there are going to be tradeoffs. it may end up being the will 
of Congress that we want to keep everything on shore and not 
use it in that way. But the suggestion that the believe that 
this is an asset that can accomplish a national security 
objective is asserted without analysis or is an illusory one, I 
think that is going to be proven to be untrue when we get into 
the debate.
    Thank you, Mr. Chairman.
    Senator Markey. I have a final comment. I would like to do 
it in 1 minute, Mr. Chairman.
    The Chairman. Okay.
    Senator Markey. I can do it in 1 minute. I will just say 
that we are a capitalist country, not a Communist country. 
Venezuela, Russia, they can direct their oil, their gas, 
anywhere they want. We cannot do that. We should just accept 
capitalism. It is going toward the highest price. That is in 
China and South America. And if we allow for a 50-percent rise 
in natural gas prices here, the large bus and truck fleet is 
ready to convert over to natural gas. You need a small number 
of stations to do it, if it is low-priced. If you just do one-
third of that fleet, you cut back by 1 million barrels of oil 
that we are importing from the Middle East right now.
    To a very large extent, the more we become energy 
independent the stronger the United States is. That is what 
isolates us right now from any pressure from Russia, is that 
sense that they do not have any control over our energy 
situation. We just have to be very careful that we do not miss 
the opportunity to break total dependence on imported oil. That 
is what conversion of natural gas from oil-fired buses and 
trucks allows to happen. It is what a reestablishment of a 
strong manufacturing base in America allows to happen. It is 
what--Secretary Kerry said this. Climate change is a huge 
issue. It is a huge national security issue. The faster we 
convert over from coal over to natural gas is the sooner we are 
going to meet our greenhouse gas commitments at Copenhagen and 
later in Paris.
    So I just put it in all those national security contexts 
and I ask for a real debate, not an illusory debate by foreign 
policy experts, but economic experts objectively weighing in on 
this as well.
    So I thank you.
    The Chairman. Well, it seems that the debate has been 
started.
    Let me thank this panel for a lot of insights. We may have 
a little difference here on how we use our energy, but there is 
no difference, I believe, between us on standing up to Russia's 
aggression as it relates to the Ukraine and what we need to do 
in response. I look forward for the committee coming together, 
as it has so many times, to do that by early next week.
    With the thanks of the committee, this panel is excused. 
Let me call up our second panel. We have with us Daveed 
Gartenstein-Ross with the Foundation for the Defense of 
Democracies and Matthew Levitt of the Washington Institute of 
Near East Policy. We welcome them as we excuse the other panel.
    [Pause.]
    The Chairman. Your full statements will be included in the 
record without objection and we would ask you to summarize your 
statements in about 5 minutes so that we can engage in the type 
of dialogue you just saw us engage with our previous panel. So 
Mr. Gartenstein, I think we can start with you.

STATEMENT OF DAVEED GARTENSTEIN-ROSS, SENIOR FELLOW, FOUNDATION 
           FOR DEFENSE OF DEMOCRACIES, WASHINGTON, DC

    Mr. Gartenstein-Ross. Chairman Menendez, Ranking Member 
Corker, and distinguished members of the committee, it is an 
honor to appear before you to discuss the spillover effect of 
the Syria conflict. At this point the Syria war is likely to 
continue for a long time. We should not altogether rule out the 
possibility that Assad's regime could fall unexpectedly fast. 
The regime could be seriously threatened, for example, of rebel 
infighting declines and is combined with battlefield reversals 
or growing defections from the government side.
    But nonetheless, it is now clear that Assad's fall is not 
the inevitability that many analysts believed a year ago and 
the likeliest scenario is that which the U.S. intelligence 
community now predicts, which is the war continuing for another 
decade or more.
    Assad's position has been bolstered by two primary factors. 
One is that he has been heavily supported by both Iran and 
Russia; and the second is his willingness, brazen willingness, 
to allow jihadists and other actors viewed as problematic by 
outside states to flourish relative to other rebels. The Syrian 
military has not made efforts to prevent jihadist groups, like 
Jibhat al-Nusra or the Islamic State of Iraq and Al-Sham, or 
ISIS, from holding territory as it has done for more moderate 
factions within the opposition. This Machiavellian strategy has 
served its purpose. The major role jihadists now play has 
deterred Western countries and others from throwing significant 
weight behind the opposition.
    The war in Syria has already produced tremendous ripple 
effects and they will only widen. A major ripple is foreign 
fighters. The impact that the Syria war will have on this 
generation of jihadists will be every bit the equal of what the 
Afghan-Soviet War meant for militants who came of age in the 
1980s. Both conflicts should be considered first-order 
humanitarian disasters. Both conflicts have attracted a large 
number of Sunni Muslim fighters and, unfortunately many foreign 
fighters have joined jihadist factions.
    In the Afghan-Soviet war, relationships amongst militants 
forged on the battlefield endured for decades and changed the 
international security environment. They gave birth to al-Qaeda 
and foreign fighters' roles in many conflicts, such as the 
extraordinarily bloody Algerian civil war, were significant. 
Like the Afghan-Soviet war, the Syria war will also have far-
flung consequences.
    Around 11,000 foreign fighters have been drawn to the 
battlefield, a number that already rivals the number of Arabs 
who flocked to South Asia to help the Afghan cause in the 
1980s. Director Olsen highlighted European Muslims who travel 
to Syria to fight Assad and concerns about their liaisons with 
jihadist groups. A recent study estimates that up to 1,900 of 
the foreign fighters in Syria hail from Western Europe, and 
this is now seen as a top national security concern in several 
western European countries.
    However, the impact of foreign fighters is likely to be 
felt most acutely outside the West. About 2,100 Jordanians have 
joined the jihad. Over 1,000 Saudis have gone to fight in 
Syria, at a time when the country is already challenged by 
natural demographic trends. Put simply, given their population 
explosion, their oil is buying them less and less relative to 
their population, which makes it difficult for them to absorb 
the foreign fighter challenge.
    The Afghan-Soviet war shows that foreign fighters can 
produce consequences in unanticipated places. About 1,000 
Tunisians have gone over and Indonesians are for the first time 
going overseas to fight, not just to train, which has given 
rise to concerns that this conflict may breathe new life into 
the group Jemaah Islamiya, which analysts previously considered 
to be moribund.
    My written testimony emphasizes the great spillover we have 
already seen in two countries, in Lebanon and Iraq. Director 
Olsen talked about the revitalization of the Islamic State in 
Iraq and Al-Sham, which is a serious concern. Already the Syria 
war is a major tragedy and it is likely to have a tragic 
ending, and the United States is probably unable to avert that 
even if we choose to become more deeply involved.
    At a policymaking level, I would describe the United States 
response to developments in Syria as confused. I share the 
frustrations of this panel about our strategic drift in this 
conflict. We have not defined our desired end state. We seem to 
vaguely know what we do not want to happen, but have little 
idea in my view how to get there.
    Further, there is the risk that the more involved we choose 
to be the greater the danger that we will be drawn into the 
conflict in ways that we do not intend. One priority should be 
ameliorating the massive humanitarian crisis in the region, 
something we should do for moral reasons, but also for 
strategic reasons as the refugee camps and other humanitarian 
factors can serve as a potential radicalizing element.
    It is at least acceptable and perhaps desirable for the 
United States to provide small arms to rebel factions. It will 
provide an opportunity to map those factions and also provide 
the United States with both a presence and a platform. We 
should, however, resist the temptation to send antitank or 
antiaircraft weapons to Syrian rebels, which present 
significant risks that the weaponry could end up in jihadist 
hands.
    An unfortunate reality of the 21st century is that we need 
to deal with an environment of severely constrained resources, 
and in Syria it is very difficult to achieve real strategic 
gains at an acceptable coast at this point.
    Thank you for inviting me to testify. I look forward to 
talking to you during questions.
    [The prepared statement of Mr. Gartenstein-Ross follows:]

             Prepared Statement of Daveed Gartenstein-Ross

    Chairman Menendez, Ranking Member Corker, and distinguished members 
of the committee, on behalf of the Foundation for Defense of 
Democracies, it is an honor to appear before you to discuss the 
spillover effect of the Syria conflict.
    The war in Syria has already produced tremendous ripple effects 
internationally, and they will only widen over time. The impact the 
Syria war will have on this generation of jihadists will be every bit 
the equal of what the Afghan-Soviet war meant for militants coming of 
age in the 1980s. Both conflicts should be considered first-order 
humanitarian disasters, justifiably inflaming passions throughout the 
Muslim world and beyond. Because of the devastation wrought by both 
wars, the various violent nonstate actors who showed up to defend 
Muslims against their antagonists gained legitimacy from the clerical 
class and popularity at the street level. Unsurprisingly, both 
conflicts attracted a large number of Sunni Muslim foreign fighters 
from abroad, most of whom were drawn to the battlefield by grisly 
representations of what was happening and the desire to battle 
repressive forces who willingly shed innocent blood.\1\ Despite the 
often noble intentions for being drawn to the battlefield, many foreign 
fighters joined jihadist factions.
    In the Afghan-Soviet war, relationships among jihadists were forged 
on the battlefield that endured for decades and profoundly changed the 
security environment in many countries: Al-Qaeda (AQ) itself was, in 
fact, one of the outgrowths of these relationships. But while 
Communists were the enemy in the Afghan-Soviet war, the Syrian war has 
taken on a more sectarian hue. Iran has steadfastly supported Syrian 
President Bashar al-Assad's embattled regime, and the Quds Force, an 
elite unit within the Iranian Revolutionary Guard Corps (IRGC), has 
deployed in support of Assad's government. Hezbollah militants and Shia 
irregular fighters from multiple countries have also entered Syria to 
support Assad. This dynamic has already produced sectarian ripples that 
did not exist in the Afghan-Soviet war.
    In addition to the foreign fighters who have been drawn to the 
battlefield--estimated at as many as 11,000 by a recent International 
Centre for the Study of Radicalisation (ICSR) report \2\--two of 
Syria's neighbors, Lebanon and Iraq, have been hit particularly hard. 
The Syria conflict has bolstered Sunni jihadists in Lebanon and 
reignited sectarian tensions, manifested in shootings on the streets, 
bombings, and assassinations. Iraq has experienced even more 
troublesome sectarian violence than Lebanon, and in addition a major 
Iraq jihadist group, the Islamic State of Iraq and al-Sham (ISIS), 
experienced a stunning revival due in significant part to events in 
Syria. ISIS's gains are reflected in more than 7,800 civilians dying in 
violent attacks in Iraq in 2013 (making it the deadliest year the 
country has seen since the height of the civil war in 2006-07), and the 
dramatic offensive the jihadist group launched on January 1 of this 
year, in which it captured major parts of Fallujah and Ramadi.
    A year or two ago it appeared that Assad's regime might collapse 
quickly, but the situation in Syria can now be described as a 
stalemate, and the U.S. intelligence community believes the war could 
ravage the country for another decade or more.\3\ Though the 
possibility of an unexpectedly fast regime collapse should not be ruled 
out entirely, it is fair to say that a large part of the Assad regime's 
unexpected longevity can be attributed to two factors: outside support 
from Iran and Russia, and Assad's extraordinarily Machiavellian 
strategy. Assad has overwhelmingly concentrated his military resources 
and efforts on relatively moderate insurgent factions, which has 
ensured that jihadists play an increasingly prominent role on the rebel 
side. Regardless of the reprehensibility of the regime's strategy, it 
has served its purpose: the major role jihadists now play in the 
opposition has deterred Western countries and others from throwing 
significant weight behind the rebels. As the Syria conflict continues 
to rage, the problems associated with it will mount.
    The U.S. has yet to match its desired outcome in Syria to the means 
it is willing to employ in addressing the conflict. This testimony will 
conclude by contextualizing our consistent failure to match ends to the 
means we are willing to employ in Syria, and it will suggest both a 
paradigmatic course and also specific policy prescriptions. The bottom 
line is that there is little we can do to end or otherwise ``solve'' 
the Syria conflict. The best we can do, most likely, is to understand 
the tremendous ripples that this war is producing, and attempt to 
contain the spillover.
                       syria's ongoing civil war
    As the respected Middle East scholar Emile Hokayem has noted, 
``Syria as the world has known it for the last four decades no longer 
exists.'' \4\ Yet although his country is fractured, Assad may be able 
to avoid the collapse of his regime indefinitely.
    As I mentioned previously, we should not rule out the possibility 
that Assad's regime could fall unexpectedly fast. It suffers from the 
combination of a moribund economy and a hollowed-out military that 
increasingly relies on conscripts, and the regime could be seriously 
threatened if rebel infighting declines and is combined with other 
major trends, such as battlefield reversals or growing defections on 
the government's side. Nonetheless, it is now clear that Assad's fall 
is not the inevitability that many analysts believed it to be a year 
ago, and the likeliest scenario is that which is now envisioned by the 
U.S. intelligence community: that is, the war continuing for another 
decade or more. And rather than the conflict ending with a clear winner 
that controls a unified state, it is entirely possible that it will 
terminate in ``fragmented sovereignty,'' where a variety of state and 
nonstate actors are dominant in different areas.\5\ Such a possibility 
is consistent with Director of National Intelligence James Clapper's 
pronouncement in February 2014 testimony before the U.S. House of 
Representatives that Syria appears destined for ``a perpetual state of 
a stalemate'' in which ``neither the regime nor the opposition can 
prevail.''
    For context on the present shape of the Syria war, Assad's 
overreactions had much to do with the early escalation of the struggle 
against him. As revolutionary fervor caught hold in the Arab world, 
Syria experienced a seemingly limited set of demonstrations beginning 
on March 15, 2011. The Deraa demonstrations were the most destructive. 
After a crowd burned down the city's Baath Party headquarters, the 
regime ``responded decisively, driving straight to the heart of the 
protest movement, the Omari Mosque.'' \6\ There, the 4th Armored 
Division fired on unarmed protesters, killing up to 15. Images and 
video of the slaughter rapidly circulated through opposition media. 
This early incident is representative of the beginning of the conflict, 
where the regime's overreactions prompted escalation on the other side.
    The regime faced internal and external problems. Soldiers began to 
defect rather than following orders to shoot protestors. On July 29, 
2011, a video posted to YouTube by former Syrian Army officers 
announced their defection and the formation of the Free Syrian Army. 
The Syrian Government's excesses and its geopolitical position (Syria 
was allied with Iran, putting it at odds with the region's Sunni 
states) caused it to become increasingly isolated, and helped the 
opposition find sponsors. Following a series of meetings during the 
summer in Turkey and Qatar with those countries' approval, opposition 
forces made a further play for legitimacy and recognition by 
establishing the Syrian National Council (SNC) in October 2011. The SNC 
``quickly secured Turkish, Qatari and, to a lesser extent, Saudi 
political and material support.'' \7\
    The Assad regime's increasing isolation was reflected in the Arab 
League's decision to suspend Syria in November 2011. Other regional 
leaders, including Jordan's King Abdullah and Turkish Prime Minister 
Recep Tayyip Erdoggan, called on Assad to resign.\8\
    The opposition was nowhere near as organized as surface appearances 
may have made it seem. It was, in fact, beset by personality clashes, 
and failed to reflect Syria's diversity. Nonetheless, the combination 
of defections, Assad's isolation, and an increasingly potent opposition 
caused the regime to experience battlefield setbacks. As pressure 
mounted, the Syrian military both lost territory and also made tactical 
retreats. Analysts began to see it as inevitably doomed.
    By now, however, Assad's regime is embattled and weakened, but has 
grown likelier to survive--even despite having crossed a U.S. 
``redline'' by using chemical weapons against the opposition in August 
2013. It is worth noting three major challenges the regime now 
confronts. First, Syria is about as isolated internationally as it 
could be (with the noteworthy exception of the support it receives from 
Iran and Russia, which will be discussed momentarily). Second, Syria's 
economy has been severely damaged by the civil war, and multiple 
reports have portrayed the regime as teetering on the brink of 
bankruptcy. Third, the military's effectiveness has severely declined 
due to both attrition produced by the conflict and also significant 
numbers of defections. As a result, the regime has had trouble taking 
advantage of recent rebel infighting as an opportunity to regain 
territory. When it redeployed forces into Aleppo in January, for 
example, the regime was forced, due to hard limitations on its reliable 
manpower, ``to give up control of the southern city of Jassem and the 
long-contested Ghouta neighborhood east of the capital, Damascus.'' \9\
    Despite these weaknesses, Assad's position, and ability to survive, 
has been bolstered by two primary factors. First, his regime has been 
heavily supported by both Iran and Russia, both of which see this 
course as advancing their strategic interests. Iran doesn't want to 
lose its close ally, while Russia wants to maintain access to its naval 
base at Tartus, which it views as important to its ability to project 
power in the Mediterranean.\10\ The role both Russia and Iran are 
playing feeds into the global jihadist narrative in discernible ways: 
Russian support for Assad conjures the image of external powers 
imposing tyrants upon the Muslim world, while Iran's role magnifies 
sectarian animosities. This sectarianism is further increased by the 
fact that Hezbollah has deployed combatants to support Assad's regime, 
while Iran has helped to facilitate the entry of Shia irregular 
fighters from countries like Afghanistan, Bahrain, and Yemen.
    A second factor bolstering Assad's chances of survival is his 
willingness to allow jihadists, and other factions viewed as malign by 
outside states, to flourish relative to other rebel factions. As 
previously alluded to, the regime has concentrated its military 
resources on fighting the more moderate opposition, while allowing 
extremist groups and other factions widely viewed as undesirables to 
become relatively strong. While the Syrian military has fiercely fought 
to recover territory controlled by the Free Syrian Army, it has not 
made similar efforts to prevent the jihadist groups, Jabhat al-Nusra or 
ISIS, from holding territory. Further, the regime's pattern of 
releasing jihadist prisoners--but not those who might join more 
moderate rebel factions--during the course of the conflict suggests 
that it views making jihadists a prominent part of the rebellion as 
more important at this stage than defeating them or thinning their 
ranks.\11\
    Assad appears to have followed a similar pattern with respect to 
Kurdish groups, undertaking a tactical retreat from northern Kurdish 
regions near the Turkish border. Given Turkish support for the Syrian 
rebels, this retreat served a strategic purpose: Turkey has had 
significant troubles with Kurdish separatism, and Kurdish control of 
territory in Syria's north raises the possibility that a rebel victory 
could threaten Turkish territory. Turkey viewed Assad's retreat from 
Kurdish areas through this lens, as government sources told the media 
that Syria ``deliberately left the three districts on the Turkish 
border in northern Syria to the control of the Democratic Union of 
Kurdistan (PYD), known as an affiliate of the outlawed Kurdistan 
Workers' Party (PKK),'' and voiced concerns about a new PKK front 
opening up inside Syria.\12\
    This is extraordinarily Machiavellian strategy has served its 
purpose. The major role jihadists now play in the Syrian opposition has 
deterred Western countries and others from throwing significant weight 
behind the opposition. Syrian democratic activist Haitham al-Maleh has 
described ISIS, with some justification, as ``a mine planted by the 
Assad regime in the revolution's body to warn the international 
community of approaching or interfering in Syrian issues.'' \13\
                   foreign fighter networks in syria
    One extraordinarily important aspect of the Syria conflict is the 
fact that the rebel side is highly popular throughout the Muslim world, 
and the jihad enjoys deep mainstream clerical support. Regional ulema 
widely believe that Syria represents a legitimate jihad in support of 
fellow Muslims, and the fight has been endorsed by such figures as 
Yusuf al-Qaradawi and Al-Azhar's Sheikh Hassan al-Shafai, and such 
organizations as Egypt's Muslim Brotherhood. At a Friday sermon in 
Mecca's Grand Mosque, senior cleric Shaikh Saoud al-Shuraym encouraged 
congregants to support anti-Assad rebels by ``all means.'' To the 
extent that the jihad is dominated by salafi jihadists, including al-
Qaeda and its fellow travelers, the conflict helps to legitimate them, 
boost their manpower, and attract financial support to their cause.
    The emotional resonance of the conflict and success of the call for 
jihad can be seen in the enormous number of foreign fighters who have 
answered the call. As I noted earlier, the number of fighters who 
traveled to Syria from abroad to fight Assad's regime is estimated to 
be as high as 11,000, and even that number may be conservative. They 
have come from a large number of countries--around 50, according to 
U.S. intelligence assessments.
    Earlier, I drew a comparison between the Syria conflict and the 
Afghan-Soviet war. Similar to the Syria conflict, the rebel side in 
that conflict was extremely popular throughout the Muslim world, and 
the anti-Soviet fight was widely endorsed by clerics as a legitimate 
defensive jihad. Around 10 thousand Arabs flocked to South Asia to help 
the Afghan cause.\14\ The ripple effects of that conflict were 
tremendous, touching numerous countries. Al-Qaeda itself was a product 
of the Afghan-Soviet war, founded in August 1988, in the waning days of 
the conflict.\15\ At that time, Osama bin Laden and his mentor, 
Abdullah Azzam, agreed that the organization they had built during the 
course of the Afghan-Soviet war to support the fight against Russian 
occupiers shouldn't simply dissolve when the war ended, but rather its 
structure should be preserved to serve as ``the base'' (al qaeda) for 
future mujahedin efforts.\16\ Veterans of the anti-Soviet jihad went on 
to play a critical role in the Algerian civil war that claimed over 
150,000 lives; and the Afghan-Soviet war left behind a wrecked country 
that would serve as a safe haven for a large agglomeration of jihadist 
groups. Thus, the ripples of the Afghan-Soviet war could be felt in a 
large number of far-flung places: while the fact that the conflict 
would have second-order consequences could have been predicted at the 
time, the exact reach of the Afghan-Soviet war's ripples was 
unpredictable.
    Similarly, it can be said with certainty that the foreign fighters 
who have been drawn to Syria will prove to be profoundly important, and 
their impact on jihadism will likely reach places that analysts don't 
anticipate at present. One issue worth highlighting is European Muslims 
who have traveled to Syria to fight Assad's regime: the most 
comprehensive open-source estimate holds that up to 1,900 of the 
foreign fighters in Syria hail from Western Europe.\17\ The possibility 
that these individuals could return and either carry out attacks or 
otherwise foster a militant milieu has made this issue a top national-
security concern in several Western European countries.
    The percentage of Western foreign fighters who might be expected to 
carry out attacks against the West is relatively low. In a recent 
comprehensive study examining foreign fighters in several conflicts, 
Norwegian researcher Thomas Hegghammer found that ``no more than one in 
nine foreign fighters returned to perpetrate attacks in the West.'' 
\18\ As Hegghammer details, there are two sides to this finding. First, 
it is far from true that ``all foreign fighters are domestic fighters-
in-the-making.'' But conversely, though this is a low percentage of the 
whole, it is nonetheless high enough to ``make foreign fighter 
experience one of the strongest predictors of individual involvement in 
domestic operations that we know.'' Given the large numbers who have 
gone to the Syrian battlefield, there is clearly cause to view this as 
a concern.
    But the largest impact of foreign fighters returning to their home 
countries is likely to be felt outside the West. The ICSR study names 
Jordan as the largest contributor of foreign fighters to Syria, with 
about 2,100 having joined the jihad.\19\ Several Jordanians serve in 
prominent leadership roles within Jabhat al-Nusra and ISIS. Nusra's 
head sharia official is a Jordanian who holds a doctorate in Islamic 
law from the University of Jordan, and young Jordanians also serve as 
officials in Nusra's military wing.\20\ Combined with the significant 
Syrian refugee presence in Jordan and consequent strains on the 
country's economy, returning foreign fighters could have a drastic 
impact on Jordan.
    ICSR names Saudi Arabia as the second-largest contributor of 
foreign fighters in Syria, with over a thousand. Other estimates are 
even higher, ranging up to 3,000.\21\ Saudi Arabia implemented a set of 
policies toward Syria early in the civil war that can only be described 
as short-sighted and potentially suicidal: it offered to commute the 
sentences of its prisoners on the condition that they go to Syria to 
fight Assad's regime.\22\ More recently, Saudi Arabia has indicated 
that it will clamp down on its citizens traveling to Syria to join the 
jihad. However, the monarchy has a pattern of taking one step forward 
and two steps back in fighting jihadist militancy, and also is heavily 
invested in defeating Assad's regime. Thus, it is worth watching 
whether Saudi Arabia ends up deviating from its announced policies 
designed to stem the flow of citizens to Syria. Unfortunately for Saudi 
Arabia, its foreign fighters will be returning at a time when the 
country is experiencing increasing challenges based on natural 
demographic trends: Put simply, as its population grows, the country's 
oil wealth provides them fewer and fewer benefits. As Saudi Arabia 
experiences increasing financial problems, its ability to simply throw 
money at problems erodes, and thus it becomes more difficult to absorb 
such challenges as large amounts of returning foreign fighters.
    ICSR's study names Tunisia as the third-biggest contributor of 
foreign fighters, with about 970 Tunisians traveling to Syria; there 
are also higher estimates. The jihadist group Ansar al-Sharia in 
Tunisia has frequently posted notices of the martyrdom of Tunisians 
killed in Syria, and videos posted to YouTube are testament to the 
Tunisian presence in that conflict. Tunisia is a small country, and 
though the current challenge it faces from jihadist groups has been low 
in intensity, it may be vulnerable if it proves unable to absorb 
returnees.
    As the Afghan-Soviet war demonstrates, the ripples of jihadists 
being drawn to major conflicts can also occur in unanticipated places. 
A recent report by the Institute for Policy Analysis of Conflict (IPAC) 
notes that, in Syria, Indonesians are for the first time ``going 
overseas to fight, not just to train, as in Afghanistan in the late 
1980s and 1990s, or to give moral and financial support, as in the case 
of Palestine.'' \23\ Currently the number of Indonesians in Syria is 
relatively small, estimated at around 50 by Indonesia's Foreign 
Ministry. Nonetheless,the Indonesian presence in Syria has raised fears 
that the conflict may breathe new life into Jemaah Islamiyah (JI), 
which analysts previously considered moribund due to Indonesian 
security forces' crackdown against it. IPAC's report notes that the 
Syria war has already bolstered JI's prestige: when jihadists groups 
are at the forefront of a popular conflict, they will reap the benefit. 
Moreover, 20 Rana al-Sabbagh, ``Jordan Faces Growing Salafi-Jihadist 
Threat,'' Al-Monitor, Feb. 4, 2014. IPAC suggests that the Syria 
conflict could magnify sectarian tensions in Indonesia by increasing 
anti-Shia sentiment, and also that returning mujahedin may ``bring new 
life, leadership and ideas to the radical movement at home.'' \24\
                  growing sectarian strife in lebanon
    The Syria conflict has allowed Sunni jihadists to experience 
significant gains in Lebanon, and has produced a tremendous resurgence 
of sectarian conflict. The major jihadist group that has gained since 
the conflict began is the Abdullah Azzam Brigades (AAB), named after 
bin Laden's mentor.
    As the U.S. Department of State has explained, AAB's formation was 
announced in a July 2009 video that claimed credit for a rocket attack 
against Israel.\25\ There are two different branches of AAB. The 
Lebanese branch is called the Ziad al-Jarrah Battalions, named after a 
Lebanese citizen who was one of the 9/11 hijackers, and it has 
primarily been known for occasional rocket strikes on Israel. Like 
ISIS, AAB was focused on benefiting from the Syria conflict, and late 
AAB emir Majid bin Muhammad al-Majid issued guidance regarding what 
kind of attacks to avoid in Syria in order to win over the 
population.\26\
    AAB had low manpower prior to the onset of the Syrian conflict, 
with perhaps 150 men in the group's ranks. Its growing capabilities can 
be seen in recent attacks that it carried out inside Lebanon. The most 
prominent attack AAB carried out was the November 19, 2013, bombing of 
the Iranian Embassy in Beirut. This attack is indicative of both AAB's 
growing capabilities--Iran's Embassy is not an easy target--and also 
growing sectarianism in Lebanon. AAB also launched a twin suicide 
attack in Beirut last month that struck an Iranian cultural center.
    AAB's attacks come within the context of escalating violence in 
general, and sectarian violence in particular, inside Lebanon. Some of 
the early attacks following the onset of anti-Assad protests in Syria 
struck at U.N. forces, including a May 2011 roadside bomb that struck a 
U.N. convoy near Sidon, and a July 2011 bomb attack that injured five 
French U.N. peacekeepers, also near Sidon. U.N. peacekeepers were 
struck by a roadside bomb for a third time in December 2011, prompting 
Lebanese Prime Minister Najib Mikati to describe these attacks on 
peacekeepers as targeting ``Lebanon's stability and security.''\27\
    In addition to these anti-U.N. attacks, occasional violence broke 
out between anti-Assad protesters and Tripoli's Alawite communities, 
but clashes became more frequent and more sectarian over time. A 
variety of incidents demonstrate the progressive growth in sectarian 
strife:

  <bullet> The arrest and killing of prominent Lebanese Sunni figures 
        in May 2012 produced instability: after authorities arrested 
        Islamist figure, Shadi al-Mawlawi, resulting street protests 
        descended into violence that killed 10, and the shooting death 
        of Sheikh Ahmad Abdel-Wahad later that month similarly produced 
        rage and unrest.
  <bullet> In June 2012, after a Lebanese Shia was arrested for 
        firebombing and shooting up the offices of New TV, which was 
        critical of Assad's regime, Shia gunmen erected roadblocks in 
        Beirut, burning tires and firing automatic weapons into the 
        air.\28\
  <bullet> In July 2012, after a Damascus bombing killed several regime 
        figures close to Assad, celebrations in the Tripoli's Sunni 
        neighborhood Bab al-Tabbeneh descended into clashes with 
        Alawite residents of the Jabal Mohsen neighborhood, leaving one 
        person dead. Clashes between residents of these two 
        neighborhoods have proved to be an enduring feature of how the 
        Syria conflict is being felt in Tripoli.
  <bullet> In October 2012, a bomb blast in Beirut killed Lebanese 
        intelligence chief Wissam al-Hassan was assassinated, with 
        Syria strongly suspected. This raised immediate concerns about 
        inflaming sectarian tensions, as ``black smoke from burning 
        tires ignited by angry men choked the streets of a few 
        neighborhoods in the city'' before night fell.\29\ Al-Hassan's 
        assassination and the subsequent backlash of violence has had 
        huge repercussions in Lebanon, greatly destabilizing politics 
        and leading to a marked escalation in violence in 2013.

    Bombings would further escalate sectarian tensions. On July 9, 
2013, a car bomb exploded in Hezbollah-dominated territory in southern 
Beirut, injuring over 50 people. This attack ``increased fears that the 
spillover from the war in neighboring Syria was entering a dangerous 
new phase.'' \30\ About a week later, gunmen assassinated Mohammad 
Darra Jamo, a pro-Assad media commentator, in his Sarafand home.\31\ On 
August 15, 2013, a car bomb struck a Hezbollah stronghold in southern 
Beirut again, killing 20 and wounding over 100 people. A Sunni Islamist 
group claimed credit, and promised to continue striking at Hezbollah. 
On November 19, 2013, AAB carried out its already described bombing of 
the Iranian Embassy in Beirut. The attack killed at least 22 people, 
including Iran's cultural attachee, and wounded over 100. On December 
4, 2013, high-ranking Hezbollah leader, Hassane Laqees, was 
assassinated, shot at close range as he parked his car near a south 
Beirut apartment that he used.\32\ On January 2, 2014, another bomb 
struck a Hezbollah-dominated area in south Beirut, killing at least 
five and injuring more than 50.
    Sunnis were also targeted by bombings. On August 23, 2013, powerful 
bomb blasts struck two Sunni mosques in Tripoli whose imams had ties to 
Syrian rebels (the Al-Taqwa and Al-Salam mosques), killing at least 42 
and wounding about 600. The level of carnage in these attacks hadn't 
been seen in Lebanon since the 1980s. On December 27, 2013, former 
Lebanese Finance Minister and U.S. Ambassador Mohamad Chatah (a member 
of the Sunni community) was killed by a car bomb. Chatah's vocal 
opposition to Hezbollah and the Assad regime made the list of possible 
perpetrators rather clear.
    Lebanon-based Alawites have also been the victims of sectarian 
violence. On February 20, 2014, an official in the pro-Assad Arab 
Democratic Party (ADP), Abdel-Rahman Diab was shot and killed by masked 
gunmen on a motorcycle while driving on the coastal Mina highway. As 
news of his killing spread, ADP fighters in the hotspot Jabal Mohsen 
neighborhood ``began sniping at their rival neighborhoods of Mallouleh 
and Mankoubin.'' \33\
    The sectarian strife in Lebanon is particularly intense, but the 
Syria war has also magnified sectarianism throughout the region, and 
beyond. As researchers Aaron Y. Zelin and Phillip Smyth demonstrate, 
the way this conflict has lined up--with Sunni salafists battling 
Alawites and Iranian-backed Shias--has caused dehumanizing sectarian 
language to become a more common part of discourse.\34\ Zelin and Smyth 
note that ``many players are pursuing a long-term dehumanization 
strategy because they view this as an existential cosmic religious 
battle between salafi Sunnism and Khomeinist Shiism.'' In turn, there 
have been sectarian incidents not only in the region, but in countries 
further from the main battlefield, such as Australia, Azerbaijan, 
Britain, and Egypt.
    As for Lebanon, the spillover of the Syrian conflict can be seen on 
three levels. The first is the increase in sectarianism that has 
blossomed into violence within Lebanon, as I have detailed at some 
length. Second, there is the increase in conflict between Syria and 
Lebanon: Syria has carried out cross-border attacks against rebel 
targets in Lebanon. Third, the growing presence of refugees from Syria 
is putting an increasing strain on the Lebanese economy and society.
                       resurgent jihadism in iraq
    At the time of the U.S. troop withdrawal from Iraq in December 
2011, ISIS, which is the successor to Al-Qaeda in Iraq (AQI), ``was 
still able to conduct attacks, but the organization was isolated, 
disrupted, and did not pose an existential threat to the state,'' as 
demonstrated by the fact that, ``from September 2010 to December 2011, 
monthly fatalities in Iraq stabilized in the 300-400 range.'' \35\ The 
group has experienced a dramatic renewal since then: in 2013, more than 
7,800 civilians lost their lives in violent attacks, while ISIS was 
able to launch a stunning offensive that captured large portions of 
Fallujah and Ramadi in January 2014.
    Factors other than Syria also played a role in ISIS's rebound, but 
the Syria war has also helped bring new life to the jihadist group due 
to the already explained popularity and legitimacy that the Syria jihad 
enjoys. When the Syria conflict escalated, ISIS already had an existing 
infrastructure that gave it one of the best ground games among rebel 
factions, and which helped the group gain territory and prestige. In 
turn, it also attracted additional resources and more recruits. The 
symbiotic relationship between the Syria conflict and ISIS's resurgence 
in Iraq is further illustrated by administration officials' belief that 
``most'' suicide bombers striking inside Iraq during a recent surge in 
the tactic's use ``are coming in from Syria.'' \36\
    The Syria conflict has strengthened ISIS in four major ways. First, 
ISIS experienced a surge in popularity by being at the forefront of a 
popular jihad, though its brutal tactics could undercut this gain. 
Second, the abundance of people willing to fight the Assad regime 
provided the group with an easy source of recruits. Today, ISIS is 
estimated to have around 7,000 fighters in its ranks.\37\ Third, the 
conflict made funding easier to obtain, both from external financiers 
and also through extorting ``tax'' revenues from citizens and 
militarily capturing industries in Syria. (As will be discussed 
subsequently, ISIS's recent expulsion from al-Qaeda likely diminishes 
its external sources of funding.) And a fourth factor contributing to 
ISIS's gains has been its ability to control territory in Syria and 
otherwise operate from the Syrian side of the border. Iraqi Deputy 
Interior Minister, Adnan al-Asadi, has explained that ISIS ``is 
deployed in vast desert areas on both sides of the Iraqi-Syrian borders 
that are difficult for any army to control,'' which makes Iraq's fight 
against ISIS ``require a lot of time and resources.'' \38\
    One of ISIS's striking achievements last year was the July 2013 
prison break from the notorious high-security Abu Ghraib prison outside 
of Baghdad. The tactics it employed included suicide and car bombs, an 
attack against another prison in Taji as a diversion, and inside 
assistance from some of the personnel charged with guarding the 
prison.\39\ An Iraqi security official told Reuters that the attack was 
``obviously a terrorist attack'' designed to ``free convicted 
terrorists with al-Qaeda.'' \40\ The most commonly cited figure for the 
number of prisoners who managed to escape is 500, and there was a 
particularly high concentration of important ISIS leaders and 
operatives in this group. Given the manner in which prison breaks and 
prisoner releases have bolstered the jihadist movement in the past, the 
Abu Ghraib incident is likely to magnify the challenges that Iraq 
faces.
    One issue of immediate relevance regarding the future of ISIS, al-
Qaeda, and the Syria jihad is ISIS's expulsion from the al-Qaeda 
network on February 2, 2014, when al-Qaeda's senior leadership 
announced it was no longer affiliated with ISIS. This separation was a 
long time coming. ISIS had been fighting with other Syrian rebel 
factions, and al-Qaeda's senior leadership ordered it to submit to 
mediation to resolve these tensions. ISIS paid lip service to these 
demands but in practice flouted the mediation orders. Though there was 
a great deal of behind-the-scenes maneuvering between the two, 
ultimately al-Qaeda issued a statement announcing that ISIS was no 
longer part of the organization.
    There was an immediate escalation in tensions in Syria following 
ISIS's expulsion from AQ. After other rebel factions increasingly 
targeted ISIS, it has largely retreated to its northern Syria 
stronghold of Raqqa, which it believes to be the most defensible 
position during a difficult and uncertain time. There will also be 
implications for the shape of jihadism beyond the region. ISIS had been 
in open defiance of al-Qaeda's senior leadership (AQSL) until it was 
finally expelled from the organization. If it prospers despite defying 
al-Qaeda's leadership, does that weaken AQSL's ability to have 
influence over other affiliates? Might AQ financiers and potential 
recruits throw their weight behind competing jihadist sources of power? 
There are some signs of the strains being placed on the al-Qaeda 
network by this separation. Jihadist forums now feature users openly 
siding with ISIS, and condemning al-Qaeda's recognized branches in 
Syria. Further, jihadist groups affiliated with al-Qaeda are deeply 
divided over how to address the split between ISIS and al-Qaeda.
    The stakes involved in this question were raised significantly at 
the end of February when Abu Khalid al-Suri, a longtime leader within 
al-Qaeda and one of the founding members of the Syrian rebel group 
Ahrar al-Sham, was killed by a suicide bomber, with ISIS being blamed 
by many jihadists, including by Ahrar al-Sham.\41\
    Though the fragmentation of al-Qaeda is one possible outcome of the 
ISIS-AQ split, some public sphere analysis has gotten ahead of the 
facts in this regard. ISIS itself risks weakness and fragmentation. 
Major clerics like Abdallah Muhammad al-Muhaysini have called for ISIS 
fighters to defect to other jihadist factions.\42\ ISIS's retreat to 
Raqqa--abandoning such sources of income as Deir al-Zour's grain mills 
and factories in the process--is indicative of its feelings of 
vulnerability in Syria. And ISIS has seen new competitors emerge even 
inside Iraq. In late February, a new jihadist group called Al-Murabitin 
Front in Iraq announced its formation, something that many online 
jihadists believe to be a new al-Qaeda branch designed to counter 
ISIS's influence.\43\ Al-Murabitin has already claimed its first 
attacks in Iraq, posting statements to the Hanin jihadist web forum 
claiming bomb attacks against Iraqi military vehicles.\44\
    The ISIS-AQ split is an important inflection point that may have an 
enormous impact on jihadism within Syria and beyond. The ramifications 
warrant close attention.
                               conclusion
    The Syria war is already a major tragedy. It is likely to have a 
tragic ending, too, and the U.S. is probably unable to avert that even 
if it chooses to become far more deeply involved in the country's civil 
war.
    At a policymaking level, the U.S.'s response to developments in 
Syria can best be described as confused. We haven't defined our desired 
end state: we seem to vaguely know what we don't want to happen, but 
have little or no idea how to get there. Nor have we defined the kind 
of means we are willing to devote in pursuit of whatever goals we think 
are in our strategic interest. What do we want? What are we prepared to 
do to achieve it?
    It is also important to bear in mind that the more involved we 
choose to be, the greater the danger that the U.S. will be further 
drawn into the conflict in ways that we do not intend. I believe that 
the U.S. should choose a course of limited engagement for several 
reasons:

  <bullet> The U.S.'s strategic interests in Syria that it can 
        realistically achieve are relatively low.
  <bullet> It is obvious that the U.S. doesn't understand the players 
        on the ground well, and so will have great difficulty selecting 
        a desirable set of players to back.
  <bullet> Indeed, it is highly likely that U.S. aid to rebel factions 
        will fall into jihadist hands.
  <bullet> There are cognizable risks of the U.S. being drawn into the 
        Syria quagmire beyond what it intends.

    Let us not sugarcoat what a strategy of limited engagement means. I 
have noted that it's possible the Assad regime could collapse faster 
than anticipate; but if the U.S. chooses a strategy of limited 
engagement, we have to be prepared for the converse possibility, that 
Assad may crush the rebels. It comes down to a question of tradeoffs, 
and the fact that there are costs to any option the U.S. might choose.
    A strategy of limited engagement is not the same as a strategy of 
nonengagement. A limited-engagement strategy would recognize that the 
U.S. is probably incapable of truly addressing Syria's problems--
certainly not at an acceptable cost--and so our overarching priority is 
containing the spillover. One priority for this strategy should be 
ameliorating the humanitarian crisis that the Syrian war has created, 
focusing efforts on refugees from Syria. There are both strong moral 
and humanitarian reasons for doing so, but also strategic reasons: the 
potential for radicalization within the refugee problem is a real 
concern.
    It is at the very least acceptable, and perhaps desirable, for the 
U.S. to provide small arms to rebel factions. The harm in doing so is 
relatively small if these arms fall into the wrong hands, given the 
large amount of light weaponry that is already in Syria; and the U.S. 
can derive specific benefits from providing light arms to rebels. Those 
benefits should not involve trying to lengthen or draw out the 
conflict; but, if the policy is implemented right, it can provide the 
U.S. with both a presence and platform. The U.S. might use this 
position to gather intelligence and better map the rebel factions; and 
it may be able to gain some degree of influence over the rebels, 
although the potential for gaining influence should not be overstated.
    There have been suggestions that the U.S. should send antitank or 
antiaircraft weapons to Syrian rebels. Such a course presents 
significant risks that the weaponry would end up in jihadist hands, or 
the hands of others who would wish harm to the United States or its 
allies. For this reason, under the approach I suggest the U.S. should 
refuse to escalate by providing this more advanced weaponry, unless (a) 
a clear and specific strategic interest can be advanced by the 
provision of imagery, and (b) the U.S. can ensure to its satisfaction 
that the weapons will not end up in jihadist hands. At present, neither 
of these conditions exist.
    One of the fundamental dilemmas the U.S. must confront in the 21st 
century security environment is the reality of severely constrained 
resources. The U.S. no longer has the luxury of living in the unipolar 
world that existed a dozen years ago. Not only is the U.S. now 
incapable of responding with full vigor to every perceived threat--
doing so would ensure that we lack the resources to advance our most 
pressing interests--but we will also be increasingly challenged, 
including by those we regard as our allies.
    Just as we no longer have the luxury of living in a unipolar world, 
we also no longer have the luxury of being able to muddle through with 
poor foreign-policy strategy and expect that there will be no costs. 
This means that we will have to carefully consider what kind of 
resources and commitments we are willing to make in advance of any 
potential commitment. When the U.S. drew a redline over Syrian chemical 
weapons use that it was apparently unable to enforce, that resulted in 
real damage to other countries' perception of what U.S. security 
guarantees mean.
    One sad reality of the 21st century is that lives will often be 
lost in other parts of the world, and we won't be able to do anything 
about it. This should give us no comfort, but we must be realistic. The 
course to maintaining American power in the 21st century begins with 
conserving our resources, and in Syria achieving real strategic gains 
at an acceptable cost will be difficult.
    Thank you again for inviting me to testify today. I look forward to 
answering your questions.

----------------
Notes

    \1\ This testimony focuses on Sunni foreign fighters because they 
will have a profound impact on the future shape of the jihadist 
movement. However, the conflict has also attracted Shia foreign 
fighters to the battlefield, as well as other nonstate actors who chose 
to enter the battle on Syrian President Bashar al-Assad's side. For 
some of the best work on this subject, it is worth following Phillip 
Smyth's excellent feature ``Hizballah Cavalcade'' at the website 
Jihadology (www.jihadology.net). As of the writing of this testimony, 
the last foreign fighters in Syria to attract major media attention 
were fighting on Assad's side: They were a couple of L.A. gang members 
who swore they would fight Assad's ``enemigos.'' One of the men, 
identifying himself as ``Creeper from the G'd up 13 Gang,'' explained 
his role in Syria: ``I'm gangbanging, homie.'' Middle East Media 
Research Institute, video clip #4170, March 1, 2014.
    \2\ Aaron Zelin et al., ``Up to 11,00 Foreign Fighters in Syria; 
Steep Rise Among Western Europeans,'' ICSR Insight, December 17, 2013.
    \3\ Adam Entous & Siobhan Gorman, ``Behind Assad's Comeback, A 
Mismatch in Commitments,'' Wall Street Journal, December 31, 2013 
(noting that ``the civil war could last another decade or more, based 
on a Central Intelligence Agency analysis of the history of 
insurgencies that recently departed Deputy Director Michael Morell 
privately shared with lawmakers'').
    \4\ Emile Hokayem, ``Syria's Uprising and the Fracturing of the 
Levant Kindle'' ed. (London: International Institute for Strategic 
Studies, 2013), loc. 161 of 3617.
    \5\ See discussion of fragmented sovereignty in Klejda Mulaj, 
``Violent Non-State Actors: Exploring Their State Relations, 
Legitimation, and Operationality,'' in Klejda Mulaj ed., Violent Non-
State Actors in World Politics (New York: Columbia University Press, 
2010), pp. 7-10.
    \6\ Joseph Holliday, ``The Struggle for Syria in 2011: An 
Operational and Regional Analysis'' (Washington, DC: Institute for the 
Study of War, 2011), p. 13.
    \7\ Hokayem, ``Syria's Uprising,'' loc. 1219 of 3617.
    \8\ Tony Badran, ``How Assad Stayed in Power--And How He'll Try to 
Keep It,'' Foreign Affairs, December 1, 2011.
    \9\ ``Assad Fails to Break Syrian Stalemate Despite Rebel 
Infighting,'' Financial Times, Jan. 16, 2014.
    \10\ For information on Russia's naval base, see Christopher 
Harmer, ``Backgrounder: Naval Base Tartus,'' Institute for the Study of 
War, July 31, 2012.
    \11\ Phil Sands, Justin Vela & Suha Maayeh, ``Assad Regime Set Free 
Extremists from Prison to Fire Up Trouble During Peaceful Uprising,'' 
The National (U.A.E.), Jan. 21, 2014; Ruth Sherlock, ``Syria's Assad 
Accused of Boosting al-Qaeda with Secret Oil Deals,'' Telegraph (U.K.), 
Jan. 20, 2014.
    \12\ Serkan Demirtas, ``Ankara: Assad Leaves Turkish Border to 
Kurds,'' Huurriyet Daily News, July 25, 2012.
    \13\ Nicholas Blanford, ``What Syrian Rebel Infighting Means for 
Assad,'' Christian Science Monitor, Jan. 13, 2014.
    \14\ Mohammed M. Hafez, ``Jihad after Iraq: Lessons from the Arab 
Afghans Phenomenon,'' CTC Sentinel (Combating Terrorism Center at West 
Point), Mar. 2008.
    \15\ Indictment, United States v. Arnaout, 02 CR 892 (N.D. Ill., 
2002), p. 2; 9/11 Commission Report: ``Final Report of the National 
Commission on Terrorist Attacks Upon the United States'' (New York: W. 
W. Norton,2004), p. 56.
    \16\ Tareekh Osama memorandum, 1988, introduced by prosecution at 
Benevolence International Foundation trial, Northern District of 
Illinois, 2002-2003.
    \17\ Zelin et al., ``Up to 11,00 Foreign Fighters in Syria.''
    \18\ Thomas Hegghammer, `` `Should I Stay or Should I Go': 
Explaining Variation in Western Jihadists' Choice between Domestic and 
Foreign Fighting,'' American Political Science Review, Feb. 2013, p. 
10.
    \19\ Zelin et al., ``Up to 11,00 Foreign Fighters in Syria.''
    \20\ Rana al-Sabbagh, ``Jordan Faces Growing Salafi-Jihadist 
Threat,'' Al-Monitor, Feb. 4, 2014.
    \21\ Taimur Khan, ``Prince Mohammed Appointment Highlights Saudi 
Arabia's Terrorism Concerns Over Syria,'' The National (U.A.E.), Feb. 
25, 2014.
    \22\ Michael Winter, ``Report: Saudis Sent Death-Row Inmates to 
Fight Syria,'' USA Today, Jan. 21, 2013.
    \23\ ``Indonesians and the Syria Conflict,'' Institute for Policy 
Analysis of Conflict Report No. 6, Jan. 30, 2014, p. 1.
    \24\ Ibid., p. 10.
    \25\ U.S. Department of State, ``Foreign Terrorist Organizations,'' 
May 30, 2013.
    \26\ Bill Roggio, ``Abdullah Azzam Brigades Names Leader, Advises 
Against Attacks in Syria's Cities,'' Long War Journal, June 27, 2012.
    \27\ Anthony Shadid, ``U.N. Peacekeepers Wounded in Southern 
Lebanon Attack,'' New York Times, Dec. 12, 2011.
    \28\ Rob Nordland, ``Assad Supporters Suspected in New Beirut 
Incidents,'' New York Times, June 26, 2012.
    \29\ Anne Barnard, ``Blast in Beirut is Seen as an Extension of 
Syria's War,'' New York Times, Oct. 19, 2012.
    \30\ Anne Barnard, ``Car Bombing Injures Dozens in Hezbollah 
Section of Beirut,'' New York Times, July 9, 2013.
    \31\ Oliver Holmes, ``Gunmen Kill Pro-Assad Figure in Lebanon as 
Syria War Spreads,'' Reuters, July 17, 2013.
    \32\ Anne Barnard, ``Major Hezbollah Figure, Tied to Syrian War, is 
Assassinated Near Beirut,'' New York Times, Dec. 4, 2013.
    \33\ Misbah al-Ali, ``Pro-Assad Party Issues Ultimatum Over 
Official's Killing,'' Daily Star (Lebanon), Feb. 20, 2014.
    \34\ Aaron Y. Zelin & Phillip Smyth, ``The Vocabulary of 
Sectarianism,'' Foreign Policy, Jan. 29, 2014.
    \35\ Jessica D. Lewis, ``Al-Qaeda in Iraq Resurgent'' (Washington, 
DC: Institute for the Study of War, Sept. 2013), p. 9.
    \36\ Senior administration official, U.S. Department of State, 
``Background Briefing on U.S.-Iraq Political and Diplomatic JCC Meeting 
and the U.S.-Iraq Bilateral Relationship Under the Strategic Framework 
Agreement,'' Aug. 15, 2013.
    \37\ ``What ISIS, an Al-Qaeda Affiliate in Syria, Really Wants,'' 
The Economist Jan. 20, 2014.
    \38\ Harith Hasan, ``ISIS Exploits Weak Iraqi, Syrian States,'' Al-
Monitor, Nov. 29, 2013.
    \39\ Adam Schreck & Qassim Abdul-Zahra, ``Abu Ghraib Prison Break: 
Hundreds Of Detainees, Including Senior Al-Qaeda Members, Escape 
Facility,'' Associated Press, July 22, 2013.
    \40\ Kareem Raheem & Ziad Al-Sinjary, ``Al-Qaeda Militants Flee 
Iraq Jail in Violent Mass Break-Out,'' Reuters, July 22, 2013.
    \41\ Maria Abi-Habib, ``Al-Qaeda Emissary in Syria Killed by Rival 
Islamist Rebels,'' Wall Street Journal, February 23, 2014.
    \42\ Thomas Joscelyn, ``Pro-Al-Qaeda Saudi Cleric Calls for ISIS 
Members to Defect,'' Long War Journal, February 3, 2014.
    \43\ BBC Monitoring in English, Feb. 26, 2014.
    \44\ BBC Monitoring in English, Feb. 28, 2014.

    The Chairman. Dr. Levitt.

STATEMENT OF MATTHEW LEVITT, PH.D., DIRECTOR FOR STEIN PROGRAM 
ON COUNTERTERRORISM AND INTELLIGENCE, THE WASHINGTON INSTITUTE 
              FOR NEAR EAST POLICY, WASHINGTON, DC

    Dr. Levitt. Thank you very much, Chairman Menendez, Ranking 
Member Corker, members of the committee. It is an honor to be 
here to testify before you today. There is of course the 
multiple connections between the two issues of Ukraine and 
Syria, not the least is that President Assad just announced 
that he is supporting Putin in that conflict.
    The war in Syria is a humanitarian catastrophe that 
threatens to tear the region apart along sectarian lines. It 
has injected new oxygen into terrorist groups and movements 
driven by violent ideologies around the region, including but 
by no means limited to groups formerly associated with al-
Qaeda. In fact, we are now facing a sharp rise in violent 
extremism within both the radical Sunni and the Shiite camps.
    Over the past few weeks, much of the discussion on Syria 
has focused on diplomatic talks and potential threats to the 
West, but this hearing is about the regional implications of 
Syria and so I want to focus on three things. The first is the 
flow of foreign fighters to Syria from across the Middle East 
and then back home and the impact this is already having in the 
region, not just their potential to go to Europe or here, a 
very real threat, but in the region, which is already 
happening.
    Second, the especially pernicious sectarian nature of the 
conflict in hand; and third, the very sharp increase as a 
result of the war in dangerous macrotrends, the kinds of things 
that create conditions that are conducive to long-term violence 
and instability in the region.
    As I was thinking about this hearing, I reread a 
declassified 1993 report written by the State Department's INR, 
Intelligence and Research Branch, in which they discuss things 
like the foreign fighters coming home from Afghanistan. If you 
take ``Afghanistan'' and insert ``Syria,'' if you take out 
things that are clear to 1993 and clear to today, this report 
could have been written yesterday. Consider how then and now, 
as Daveed said, fighters are traveling from around the world to 
go fight on either side of this increasingly sectarian war. 
Then note that the greatest number of foreign fighters on both 
sides have come from the Middle East.
    The likelihood, and we are already seeing it, is that the 
majority of radicalized fighters are going to go home and 
attack their homes in the region before they come and strike in 
Europe or in the United States. We have already seen an Israeli 
Arab convicted for going to fight with Jibhat al-Nusra in 
Israel. We have already seen cases of suicide bombers who were 
going to go to fight in Syria and in the end were sent instead 
to Tunisia. We have seen people coming back from Syria and 
carrying out attacks in Egypt. We see a fully Moroccan jihadist 
organization created in Syria, and the cases go on and on.
    But none of it should surprise. Twenty-one years ago INR 
noted that the support network that funneled money, supplies, 
and manpower to supplant the then-Afghan mujahedin was now 
contributing experienced fighters to militant Islamic groups 
worldwide, and it will be again today. As one point of that 
1993 report is entitled, ``When the Boys Come Home.''
    Consider the role of Libya then at the time and then think 
about today Libya's Ansar al-Sharia operating on the ground, 
not in Libya but in Syria, in Latakia, for example, setting up 
a bakery and organizing an Ansar al-Sharia branded aid for 
Sunni communities.
    Meanwhile, how complicated has it got? You have Iran not 
only supporting Assad, not only supporting Hezbollah, but also 
supporting al-Qaeda elements moving foreign fighters and 
raising money, in particular from Kuwait, through Iran and 
knowingly allowing al-Qaeda elements to do so within Iran.
    In terms of the proxy issues, this is no longer a simple 
rebellion. This has grown into a classic case of a proxy war 
between Sunnis, Sunni Gulf States, and Iran on the other. The 
sectarian vocabulary that is used to dehumanize the other is 
something that is going to set the stage for the next decade.
    The bottom line is that, while the war itself might at some 
level be negotiable, maybe, the sectarianism is not and is 
almost certainly going to create conditions for instability 
over the next decade.
    Finally, a last comment on the trending toward instability. 
The NIC, the National Intelligence Council, had a great study 
called ``Global Trends 2030, Alternative Worlds.'' It talks 
there about things that it describes as ``looming 
disequilibria.'' Every one of those things we are seeing today, 
problems with education, health, poverty, forced migration, 
humanitarian assistance needs, the economic impact on fragile 
economies in the neighborhood, Jordan in particular, Lebanon in 
particular. This is something we are seeing in spades now.
    When the NIC published its report, it actually anticipated 
that this kind of chronic instability in the Middle East was 
something we would see. They highlighted Iraq, Libya, Yemen, 
and Syria as places where we could see things like this, 
Bahrain. But clearly there is no way they could have 
anticipated what we are seeing today.
    I submit that the United States is not doing anywhere near 
enough to address these critical problems, and failure to 
respond effectively to this crisis has led in part to the 
increasing horrific consequences today. Even if we do not want 
either camp to win tomorrow because there are bad guys on both 
sides, there are certain things we have to do. We must degrade 
the regime and the extremist capabilities to create conditions 
for moderates' victory some time tomorrow.
    Also, we have to mitigate the regime and the extremists' 
ability to continue to do damage today. Simply doing 
humanitarian aid is addressing the symptoms. What are we doing 
to stop the foreign fighters? What are we doing to stop the 
barrel bombs so that more humanitarian crises are not created 
tomorrow?
    If I can put it in one last concluding statement, it is 
this: Las Vegas rules do not apply in Syria. I applaud the 
committee for holding this hearing today specifically on the 
spillover effects in the region because what happens in Syria 
will not remain in Syria.
    [The prepared statement of Dr. Levitt follows:]

              Prepared Statement of Dr. Matthew Levitt \1\

    Chairman Menendez, Ranking Member Corker, members of the committee, 
thank you for the opportunity to testify before you today about such a 
critical and timely issue.
    The war in Syria is a humanitarian catastrophe. It threatens to 
tear the region apart along sectarian lines. It has injected new oxygen 
into groups and movements driven by violent Islamist ideologies, 
including but by no means limited to groups formally associated with 
al-Qaeda. Indeed, we are now faced with a sharp rise in violent 
extremism from within both the radical Sunni and Shiite camps.
    Over the past few weeks, much of the discussion related to the war 
in Syria has focused on either diplomatic talks in Switzerland (which 
appear to be going nowhere fast) or the potential threats to the West 
in general and the U.S. homeland in particular posed by the Syrian 
jihad. These are critical issues, to be sure, but I am very pleased 
that this committee is holding today's hearing on the regional 
implications of the war in Syria.
    As Director of National Intelligence James Clapper recently noted, 
we can expect an increase in political uncertainty and violence across 
the region in 2014.\2\ There are many reasons this will be the case, 
not all of which are directly tied to the war in Syria. For today's 
purposes, however, I would like to address three types of fallout from 
the war in Syria that are certain to cause significant spillover of one 
kind or another: First, the flow of foreign fighters to Syria from 
across the Middle East and the impact this is certain to have on 
regional stability; second, the especially pernicious sectarian nature 
of the conflict at hand, and the impact that will have on Lebanon in 
particular; and third, the sharp increase--as a result of the war--in 
dangerous macrotrends, from refugees and population displacement to 
poverty, hunger, and lack of adequate health care, that create 
conditions conducive to violence and instability.
                      ``when the boys come home''
    Fifteen years from now, when classified documents produced today 
begin to be declassified, we will surely look back with some discomfort 
at just how far off some of our judgments were when written in 2014. 
Such is the nature of intelligence assessments. I worry, however, that 
we may look back 15 years hence and find ourselves dealing with a 
laundry list of difficult problems that are in large part the result of 
actions taken, or not taken, today.
    This reflection is underscored by rereading a declassified August 
1993 report, ``The Wandering Mujahidin: Armed and Dangerous,'' written 
by the State Department's Bureau of Intelligence and Research (INR).\3\ 
Its subject was the possible spillover effect of Afghan mujahedin 
fighters and support networks moving on to fight in other jihad 
conflicts, alongside other militant Islamic groups worldwide. Much of 
the report could be applied as equally to the themes we find ourselves 
facing today as it did when it was written 21 years ago.
    Consider how fighters are traveling from around the world to go 
fight on either side of the increasingly sectarian war in Syria. Much 
of the discussion about foreign fighters traveling to Syria has focused 
on radicalized Muslim youth coming from Western countries--Europe, 
North America, Australia--which presents an especially disconcerting 
threat to homeland security given that these Western passport holders 
are likely to return home far more radicalized than when they left. 
These individuals are also more often than not fighting with groups 
like Jabhat al-Nusra (JN) or the Islamic State of Iraq and al-Sham 
(ISIS), at least some of which, DNI Clapper recently testified, aspire 
to attack the United States.\4\ But the greatest numbers of foreign 
fighters, on both the Sunni and Shiite sides of the equation, have come 
from the Middle East. Indeed, it must be noted that while most people 
focus on the Sunni foreign fighter phenomenon, there are at least as 
many Shiite foreign fighters in Syria today. Most are from Iraq, but 
others have come from as far afield as Yemen, Afghanistan, and even 
Australia.
    Earlier this month DNI Clapper estimated that more than 7,000 
fighters have traveled to Syria from more than 50 countries.\5\ In an 
independent study in December, my colleague, Aaron Zelin, estimated the 
numbers to be some 8,500 foreign fighters from 74 different countries. 
His estimates of the range of foreign fighters from across the region 
who have come to fight on the Sunni side of the war in Syria are 
equally telling: \6\

                                                   ARAB WORLD
----------------------------------------------------------------------------------------------------------------
                    Country                       Low    High                Country                Low    High
----------------------------------------------------------------------------------------------------------------
Kuwait........................................      54      71  Lebanon.........................      65     890
Tunisia.......................................     379     970  Jordan..........................     175   2,089
Libya.........................................     330     556  Iraq............................      59      97
Algeria.......................................      68     123  Egypt...........................     118     358
Palestine.....................................      73     114  Saudi Arabia....................     380   1,010
Sudan.........................................       2      96  Yemen...........................      13     110
Morocco.......................................      76      91  United Arab Emirates............      13      13
Mauritania....................................       2       2  Qatar...........................      14      14
Bahrain.......................................      12      12  Oman............................       1       1
----------------------------------------------------------------------------------------------------------------


    On the Shiite side of the equation, Lebanese Hezbollah and Iraqi 
Shiite militants from groups like Asaib Ahl al-Haqq and Kataib 
Hezbollah make up a majority of the Shiites fighting in support of the 
Bashar al-Assad regime. Some estimate that as many as 5,000 Lebanese 
Hezbollah have been active in Syria, on a rotational basis.\7\ Iraqi 
Shiites fighting in Syria are also estimated to be as high as 5,000.\8\ 
And Iranians are present in smaller support and advising roles. In 
April 2011, the entire Quds Force of Iran's Islamic Revolutionary Guard 
Corps (IRGC) was designated by President Obama's Executive Order 13572 
for human rights violations in Syria.\9\ Iran's Ministry of 
Intelligence and Security (MOIS) forces as well as its Law Enforcement 
Forces (LEF) have also been active in Syria, and have likewise been 
designated by the U.S. Treasury Department for human rights abuses.\10\ 
Shiites from Saudi Arabia, Cote d'Ivoire, and Afghanistan have also 
flown to Syria to fight on behalf of the regime, and Yemeni Houthi 
fighters are reported to be going to Syria through Hezbollah camps in 
Lebanon to fight with the regime and Hezbollah.\11\
    In Syria, these foreign fighters are learning new and more 
dangerous tools of the trade in a very hands-on way, and those who do 
not die on the battlefield will ultimately disperse to all corners of 
the world better trained and still more radicalized than they were 
before. DNI Clapper stressed that it is not only foreign fighters who 
are drawn to Syria today but also ``technologies and techniques that 
pose particular problems to our defenses.'' \12\
    ``We are concerned,'' CIA Director John Brennan testified, ``about 
the use of Syrian territory by the al-Qaeda organization to recruit 
individuals . . . to use Syria as a launching pad'' for attacks on the 
West.\13\ But the threat is not limited to actual al-Qaeda groups or 
operatives, nor is it limited to attacks targeting the West. The 
majority of radicalized fighters are likely to return home and attack 
their own homelands even before they seek to strike ours, in large part 
because the events that have followed the Arab Spring have created 
conditions favorable for militant Islamist revival--social and militant 
both--across the region.
    Consider just a few regional reverberations of the Syrian jihad 
already being felt today:

  <bullet> This week an Israeli court convicted an Israeli Arab citizen 
        of joining Jabhat al-Nusra. The presiding judge expressed 
        concern over the danger posed by Israeli citizens who join the 
        war in Syria and return home, where ``they could use the 
        military training and ideological indoctrination acquired in 
        Syria to commit terror attacks, indoctrinate others or gather 
        intelligence for use in attacks by anti-Israel organizations.'' 
        \14\
  <bullet> For many in the region and beyond, going to fight in Syria 
        is a natural and unremarkable decision. For these people, the 
        fight in Syria is a defensive jihad to protect fellow Sunni 
        Muslims--women and children--from the Assad regime's 
        indiscriminate attacks on civilian population centers. And so 
        it is that Ahmed Abdullah al-Shaya, the poster boy for Saudi 
        Arabia's deradicalization program--which boasts a tiny 1.5 
        percent recidivism rate from among its 2,400 graduates--has now 
        turned up on the battlefield in Syria.\15\
  <bullet> ``Tunisia's revolution and those in Syria, Egypt and Yemen, 
        and Libya gave us a chance to set up an Islamic state and 
        sharia law, and in the Maghreb first,'' explained a young 
        Tunisian Salafist in Tunis, Abu Salah. ``We want nothing less 
        than an Islamic state in Tunisia, and across the region. The 
        first step must be Syria. I am proud of our brothers in Syria, 
        and I will go there myself in a few weeks.'' \16\
  <bullet> Another young Tunisian, Ayman Saadi, who was raised in a 
        middle-class family with a secular tradition, was stopped from 
        going to fight in Syria several times by his parents before he 
        finally snuck out of the country to Benghazi. He trained there 
        for a short time, but instead of going on to Syria, he was 
        instructed to go back to Tunisia to carry out a suicide attack 
        at a Presidential mausoleum; Saadi was tackled by guards before 
        he could trigger his explosives. Just before that, another 
        bomber managed to kill only himself at a nearby beach resort 
        popular with foreign tourists.\17\
  <bullet> In Egypt, the government is already facing high levels of 
        violence largely in 
        reaction to the deposition of former President Muhammad Morsi. 
        Incidents of militants returning from Syria, too, and carrying 
        out violent acts against the government have occurred. The 
        Sinai militant group Ansar Beit al-Maqdis attracts many 
        returnees and has claimed responsibility for a number of 
        attacks in recent months. In September, Walid Badr, a former 
        Egyptian Army officer, after returning from Syria conducted a 
        suicide attack that narrowly missed Egyptian Interior Minister 
        Muhammad Ibrahim, instead injuring 19 others.\18\ In November, 
        Ansar Beit al-Maqdis published a propaganda video featuring a 
        segment of a speech by the late Abu Omar al-Baghdadi, the 
        former head of 
        al-Qaeda's Islamic State in Iraq (ISI), which later evolved 
        into ISIS.'' \19\
  <bullet> In August, a new, fully Moroccan jihadist organization 
        called Harakat Sham 
        al-Islam was created in Syria. The group reportedly aims not 
        only to recruit fighters for the Syrian war but also to 
        establish a jihadist organization within Morocco itself: 
        ``Although the [group's] name refers to Syria and its theater 
        is Syria, the majority of group members are Moroccans. The 
        group's creation was also announced in the Rif Latakia, where 
        most Moroccan jihadists who go to Syria are based.'' \20\
  <bullet> Last month, an Iraqi newspaper ceased publishing after 
        receiving death threats from the Iranian-backed Shiite militia 
        Asaib Ahl al-Haqq. Two bombs were placed in its office in 
        Baghdad, and protestors carrying photographs of Asaib Ahl al-
        Haqq's leader demanded the paper be shut down. Members openly 
        admit to ``ramp[ing] up targeted killings.'' \21\ The militia 
        has been active in Iraq since the American-led war, in which it 
        carried out thousands of attacks on U.S. soldiers, and 
        currently has forces in Syria.\22\
  <bullet> Last week Jordanian border guards foiled an attempt to 
        smuggle a large amount of ammunition and other material not 
        from Jordan into Syria, but from Syria in Jordan.\23\

    None of this should surprise. Twenty-one years ago, INR reported 
that ``the support network that funneled money, supplies, and manpower 
to supplement the Afghan Mujahidin is now contributing experienced 
fighters to militant Islamic groups worldwide.'' When these veteran 
fighters dispersed, the report presciently predicted, ``their knowledge 
of communications equipment and experiences in logistics planning will 
enhance the organizational and offensive capabilities of the militant 
groups to which they are returning.'' A section of the 1993 report, 
entitled ``When the Boys Come Home,'' noted that these veteran 
volunteer fighters ``are welcomed as victorious Muslim fighters of a 
successful jihad against a superpower'' and ``have won the respect of 
many Muslims--Arab and non-Arab--who venerate the jihad.''
    At that time, these mujahedin returned to Yemen, Egypt, Sudan, 
Algeria, Libya, and beyond, where they trained local militants and 
further radicalized local groups. Libya, the 1993 report noted, was 
once one of the largest backers of Afghan warlord Gulbuddin Hekmatyar 
(since then designated a terrorist by the United States and the United 
Nations) \24\ but ``now fears the returning veterans and has lashed out 
publicly against them.'' \25\ Indeed, several of these Libyan veterans 
formed the Libyan Islamic Fighting Group (LIFG) and became senior 
members of core al-Qaeda. In 2006, the U.S. Government would note that 
``The Libyan Islamic Fighting Group threatens global safety and 
stability through the use of violence and its ideological alliance with 
al-Qaeda and other brutal terrorist organizations.'' \26\ Today, 
Libya's Ansar al-Sharia is operating on the ground in Syria. In 
Latakia, the group has set up a bakery and is organizing Ansar al-
Sharia-branded aid for Sunni communities.\27\
    But it is not just al-Qaeda-affiliated groups that are active in 
Syria. As the Treasury Department recently revealed, elements of the 
al-Qaeda core remain active and involved in the Syrian jihad. On 
February 6, the Treasury Department designated Iran-based Islamic Jihad 
Union facilitator Olimzhon Adkhamovich Sadikov (also known as Jafar al-
Uzbeki and Jafar Muidinov) for providing logistical support and funding 
to al-Qaeda's Iran-based network. An associate of Yasin al-Suri, a 
previously designated al-Qaeda leader in Iran, Sadikov serves as a 
Mashhad-based smuggler helping extremists and operatives to transit 
Iran in and out of Pakistan and Afghanistan. The Iran-based al-Qaeda 
network also helps operatives and terrorist leaders travel from 
Pakistan to Syria via Turkey, and facilitates the transfer of funds 
from gulf-based donors--including ``an extensive network of Kuwaiti 
jihadist donors''--to al-Qaeda core and other affiliated elements, 
including Jabhat al-Nusra in Syria. This Iran-based network, the 
Treasury Department noted, ``operates there with the knowledge of 
Iranian authorities,'' indicating that Iran is not only supporting 
Hezbollah and the Assad regime but also fanning the flames of sectarian 
violence by knowingly allowing al-Qaeda to support its elements in 
Syria from Iranian territory.\28\
    And yet there are also signs that al-Qaeda core elements may be 
concerned that the Syrian jihad could leave them on the sidelines and 
undermine their relevance. Events in Syria are quickly changing the 
nature of the jihadist enterprise. Its epicenter is no longer 
Afghanistan, Pakistan, Iraq, or Yemen, but the heart of the Levant--al-
Sham--in Syria. There, both ISIS and Jabhat al-Nusra are fighting the 
Assad regime and its Shiite allies and more moderate Syrian rebels. The 
two groups have not merged, and only one (al-Nusra) has pledged 
allegiance to Ayman 
al-Zawahiri. Indeed, when Zawahiri instructed ISIS to focus on Iraq and 
leave the Syrian theater to al-Nusra, ISIS leader Abu Bakr al-Baghdadi 
flatly refused. This month, Zawahiri responded in kind, blaming ISIS 
for ``the enormity of the disaster that afflicted the Jihad in Syria'' 
and disavowing its ties to al-Qaeda. ``ISIS,'' Zawahiri insisted, ``is 
not a branch of al-Qaeda and we have no organizational relationship 
with it.'' \29\
    Meanwhile, other Islamist groups, such as Ahrar al-Sham, remain 
independent even as they share some ideological underpinnings with al-
Qaeda. Today, the jihadist centers that are drawing new recruits, 
donations, and foreign fighters are not exclusive to al-Qaeda. Knowing 
that, Zawahiri perhaps felt the need to be able to claim something big 
that jihadist fighters of all shapes and sizes could rally around. What 
better than an attack on Israel? And so, on January 22, Israeli 
officials announced that, several weeks before, they had disrupted what 
they described as an ``advanced'' al-Qaeda terrorist plot in Israel. 
Although al-Qaeda-inspired jihadists had targeted Israel before (three 
men who had plotted an attack near Hebron were killed in a shootout 
with police in November), this marked the first time that senior al-
Qaeda leaders were directly involved in such plans.\30\
    The extent to which the Syrian jihad is driven by al-Qaeda core, 
its affiliates, or other violent Islamist groups is a matter of debate, 
but it is clear that there is no more of a single command center today 
than there was 21 years ago. The 1993 report describes several trends 
that remain issues of serious concern, including some of the same 
streams of financial support that continue to finance today's militant 
Islamist groups (though not all--fundraising for the Syrian jihad 
through social media is now a significant issue). To the present-day 
reader, who will digest this 1993 report with an eye toward the 
conflict in Syria, perhaps the most disturbing analytical judgment--
which could have been pulled out of a current National Intelligence 
Estimate--is this:

        The war-era network of state sponsors and private patrons which 
        continues to support the mujahidin has no rigid structure and 
        no clearly defined command center, but receives guidance from 
        several popular Islamic leaders and financial support from 
        charitable Islamic organizations and wealthy individuals. Key 
        figures who have emerged as the mentors of the mujahidin 
        provide one another with the contacts and conduits needed to 
        keep the militant groups they support in business.

    The network circa 1993 was not an exact parallel to today's 
combination of al-Qaeda operatives (a smaller but no less committed 
cadre), affiliated networks, virtually networked like-minded followers, 
and homegrown violent extremists. But the 1993 warning of an 
unstructured network of jihadists moving on from their current area of 
operations to other battlefronts could have been written this morning.
                   sectarian proxy war in the levant
    The Syrian war is also a classic case of a proxy war, in this case 
between Saudi Arabia and other Sunni gulf states, on one hand, and 
Iran, on the other, with the additional, especially dangerous overlay 
of sectarianism. The sectarian vocabulary used to dehumanize the 
``other'' in the Syrian war is deeply disturbing and suggests both 
sides view the war as a long-term battle in an existential, religious 
struggle between Sunnis and Shiites.\31\ This suggests further that the 
war in Syria is now being fought on two parallel planes, one focused on 
the Assad regime and the Syrian opposition, and the other on the 
existential threats the Sunni and Shiite communities each perceive from 
one another. The former might theoretically be negotiable, while the 
latter almost certainly is not. The ramifications for regional 
instability are enormous, and go well beyond the Levant. But they are 
felt more immediately and more powerfully in Lebanon to the west and 
Iraq to the east than anywhere else.
    Allow me to focus briefly on Lebanon in particular. Over the past 
couple of years, Hezbollah's combatant role in Syria has become more 
formal and overt. At the same time, intercommunal violence has 
increased significantly in Lebanon, including gunfights between Sunni 
and Alawite militants in Tripoli, between Sunnis and Shiites in Sidon, 
and of course bombings by Sunni militants--including Jabhat al-Nusra in 
Lebanon--in Shiite neighborhoods in Beirut and Hermel. Hezbollah's 
stronghold in the Dahiya suburb of Beirut has been struck on multiple 
occasions, and even the Iranian Embassy in Beirut was the target of a 
double suicide bombing.
    By siding with the Assad regime, its Alawite supporters, and Iran, 
and taking up arms against Sunni rebels, Hezbollah has placed itself at 
the epicenter of a sectarian conflict that has nothing to do with the 
group's purported raison d'etre: ``resistance'' to Israeli occupation. 
One Shiite Lebanese satirist put it this way: ``Either the fighters 
have lost Palestine on the map and think it is in Syria,'' he said, 
``[o]r they were informed that the road to Jerusalem runs through 
Qusayr and Homs,'' locations in Syria where Hezbollah has fought with 
Assad loyalists against Sunni rebels.\32\
    The implication is clear: for many Lebanese, Hezbollah is no longer 
a pure ``Islamic resistance'' fighting Israel, but a sectarian militia 
and Iranian proxy doing Assad and Ayatollah Khamenei's bidding at the 
expense of fellow Muslims. And it therefore does not surprise that the 
pokes come from extremist circles, too. In June, the Abdullah Azzam 
Brigades, a Lebanon-based al-Qaeda-affiliated group, released a 
statement challenging Hezbollah chief Hassan Nasrallah and his fighters 
``to fire one bullet at occupied Palestine and claim responsibility'' 
for it. They could fire at Israel from either Lebanon or Syria, the 
statement continued, seeing as Hezbollah ``fired thousands of shells 
and bullets upon unarmed Sunnis and their women, elderly, and children, 
and destroyed their homes on top of them.'' \33\
    But while taunts might be expected from radical Sunni extremist 
groups, Hezbollah now faces challenges it never would have anticipated 
just a few years ago. For example, the day before Nasrallah's August 
speech Lebanese President Michel Suleiman called, for the first time 
ever, for the state to curtail Hezbollah's ability to operate as an 
independent militia outside the control of the government.\34\ By 
sending fighters to Syria, many Lebanese believe Hezbollah has put its 
interests as a group ahead of those of Lebanon as a state, something 
that flouts Hezbollah's longtime efforts to portray itself as a group 
that is, first and foremost, Lebanese. Now the group that describes 
itself as the vanguard standing up for the dispossessed in the face of 
injustice, and that has always tried to downplay its sectarian and pro-
Iranian identities, finds those assertions challenged over its refusal 
to abide by the Lebanese Government's official position of 
noninterference in Syria. To the contrary, its proactive support of a 
brutal Alawite regime against the predominantly Sunni Syrian opposition 
undermines its long-cultivated image as a distinctly Lebanese 
``resistance'' movement.
    Hezbollah has doubled down in its support for the Assad regime, 
even after bombs started going off in Dahiya, in southern Beirut. 
Nasrallah was crystal clear: ``If you are punishing Hezbollah for its 
role in Syria, I will tell you, if we want to respond to the Dahiyeh 
explosion, we would double the number of fighters in Syria--if they 
were 1,000 to 2,000, and if they were 5,000, they would become 
10,000.'' Indeed, Hezbollah--and Nasrallah himself--has cast its lot 
with Assad to the end. ``If,'' Nasrallah added, ``one day came, and 
required that Hezbollah and I go to Syria, we will do so.'' \35\
    At one point, Nasrallah tried to paper over the fact that Lebanese 
Shiites and Lebanese Sunnis were now openly battling one another in 
Syria, and threatening to drag that sectarian fighting across the 
border into Lebanon, by proposing that Lebanese Shiites and Sunnis 
agree to disagree over Syria. Addressing Lebanese Sunnis, Nasrallah 
said in a speech last May: ``We disagree over Syria. You fight in 
Syria; we fight in Syria; then let's fight there. Do you want me to be 
more frank? Keep Lebanon aside. Why should we fight in Lebanon?'' \36\ 
But that pitch did not go over so well with Nasrallah's fellow 
Lebanese, who wanted an end to Lebanese interference in the war in 
Syria, not a gentleman's agreement that Lebanese citizens would only 
slaughter one another across the border.
    In that same speech, Nasrallah addressed the ``two grave dangers'' 
facing Lebanon. The first, he argued, is ``Israel and its intentions, 
greed, and schemes.'' The second danger, Nasrallah added, is related to 
``the changes taking place in Syria.'' As for Israel, Nasrallah warned 
that it threatens Lebanon every day. And as for Syria, the regime there 
faces an ``axis led by the United States which is for sure the 
decisionmaker.'' The British, French, Italians, Germans, Arabs, and 
Turks are involved, too, but ``all of them work for the Americans.'' 
But the true force behind the ``changes taking place in Syria''? ``We 
also know that this axis is implicitly supported by Israel because the 
U.S. project in the region is Israeli cum laude.'' Hezbollah is not 
fighting in Syria as part of a sectarian conflict, Nasrallah insisted, 
but combating a radical Sunni, takfiri project with ties to al-Qaeda 
that ``is funded and backed by America'' out of an American interest to 
destroy the region. In other words, the war in Syria is no longer a 
popular revolution against a political regime, but a place where 
America is seeking to impose its own political project on the region. 
Nasrallah concluded: ``Well, we all know that the U.S. project in the 
region is an absolutely Israeli project.'' And so, by fighting in 
Syria, ``today we consider ourselves defending Lebanon, Palestine, and 
Syria.'' \37\
    There are, however, few takers for the contorted logic that the 
Syrian rebellion is an American or Israeli scheme outside Hezbollah's 
staunchest Shiite supporters. And the proportion of Shiites in Lebanon 
has fallen considerably since the war in Syria began. There are now as 
many as an estimated 1 million mostly Sunni Syrian refugees who have 
fled to Lebanon, marking a significant shift in the sectarian balance 
of a state whose confessional political system is based on a sense of 
proportional representation (albeit outdated) among its confessional 
communities. This has, to say the least, exacerbated sectarian 
resentment.
                      trending toward instability
    The humanitarian crisis resulting from the Syrian civil war is a 
catastrophe that grows worse by the day. In a region long known for its 
instability and sparse resources, Syria's neighbors are simply not 
equipped to handle 2.4 million registered refugees. Lebanon has taken 
in Syrians equal to at least one-fifth of the country's population, a 
refugee camp is now Jordan's fourth-largest city, and 13,000 new 
refugees are registered with the Office of the U.N. High Commissioner 
for Refugees (UNHCR) every day. Within Syria itself, more than 6.5 
million have been displaced and more than 9 million need humanitarian 
assistance.
    Such numbers are more than just a depressing snapshot of the 
situation on the ground today, they suggest a long-term outlook that is 
no less dire. Taken together, the Syrian crisis and its secondary and 
tertiary effects create a set of ``looming disequilibria,'' to borrow a 
phrase from the National Intelligence Council's (NIC's) excellent study 
``Global Trends 2030: Alternative Worlds.'' \38\ Consider, for example, 
the combined impact on the region of a years-long conflict, exacerbated 
by sectarianism and fueled by funds and weapons from the backers of 
respective proxies. From education, health, poverty, and migration 
patterns to humanitarian assistance needs and the economic impact on 
fragile economies, the consequences of the Syrian war for the region 
would be massive even if the war itself ended tomorrow.
    Let us focus for a moment on refugee migrations, which have long 
been noted as factors that increase the likelihood of militant 
disputes.\39\ In today's migration displacements, the vast majority of 
refugees are Sunni Muslims, posing a serious threat to the sectarian 
balance of the region, especially in Lebanon. Hundreds of thousands of 
Syrians have moved into Jordan's cities and put a heavy strain on local 
economies. Neither country can sustain for long the added burden to 
public services, from water and electricity to health care and 
education. This stress can open doors for externally financed terrorist 
organizations to take the place of the state, as was the case with 
Hezbollah in Lebanon in the 1980s. Without considerably more 
international aid, the entire region could well be facing increased 
instability and opportunities for extremists for the foreseeable 
future. Indeed, according to one study, ``hosting refugees from 
neighboring states significantly increases the risk of armed 
conflict.'' Refugee camps provide militant groups with recruits and 
supplies, and refugee flows include within them fighters, weapons, and 
radical ideologies. Then there are the financial and social burdens on 
the host country, including disruption to the local economy and 
upsetting of the local society's ethnic balance. In the case of Syria, 
these researchers found, refugee influxes to Lebanon raise its risk of 
civil war by 53.88 percent, and raise Jordan's conflict risk by 53.51 
percent.\40\
                               conclusion
    There is no question that the ongoing, deeply sectarian proxy war 
in Syria will undermine regional stability in ways both predictable and 
not. This testimony did not even touch on Iraq, Turkey, or Israel, for 
example, all of which are neighboring countries deeply affected by the 
war in Syria.
    Even before the war in Syria got as bad as it has, projections for 
the region suggested we were headed in this general direction. I leave 
you with a quotation from the NIC's ``Global Trends 2030'':

        Chronic instability will be a feature of the region because of 
        the growing weakness of the state and the rise of sectarianism, 
        Islam, and tribalism. The challenge will be particularly acute 
        in states such as Iraq, Libya, Yemen, and Syria where sectarian 
        tensions were often simmering below the surface as autocratic 
        regimes co-opted minority groups and imposed harsh measures to 
        keep ethnic rivalries in check. In [the] event of a more 
        fragmented Iraq or Syria, a Kurdistan would not be 
        inconceivable. Having split up before, Yemen is likely to be a 
        security concern with weak central government, poverty, 
        unemployment and with a young population that will go from 28 
        million today to 50 million in 2025. Bahrain could also become 
        a cockpit for growing Sunni-Shia rivalry, which could be 
        destabilizing for the gulf region.

    And yet, I doubt anyone could have anticipated the catastrophe we 
now face in Syria, and the instability that is the result of the 
regional spillover from that conflict.
    I submit that the United States is not doing anywhere near enough 
to address these critical problems. Failure to respond effectively to 
this crisis has led to tangible and horrific consequences today. 
Failure to quickly reassess our policies and roll out a far more 
proactive stance toward both the humanitarian crisis and the conflict 
itself will have equally damaging and painful consequences tomorrow.
    I thank you for your attention and look forward to answering any 
questions you may have.

----------------
Notes

    \1\ The author would like to thank Jonathan Prohov and Kelsey 
Segawa for their research assistance in support of this testimony.
    \2\ ``Worldwide Threat Assessment of the U.S. Intelligence 
Community'': Hearing before the Senate Select Committee on 
Intelligence, United States Senate, 113th Cong., 2nd. Sess. (January 
29, 2014) (statement of James Clapper, Director of National 
Intelligence), http://www.intelligence.senate.gov/140129/clapper.pdf.
    \3\ U.S. Department of State, Bureau of Intelligence and Research 
(INR), ``The Wandering Mujahidin: Armed and Dangerous,'' Weekend 
Edition, August 21-22, 1993, available at http://
www.washingtoninstitute.org/policy-analysis/view/globalized-jihad-then-
1993-and-now.
    \4\ ``Current and Future Worldwide Threats to the National Security 
of the United States'': Hearing before the Senate Armed Services 
Committee, United States Senate, 113th. Cong., 2nd. Sess. (February 11, 
2014) (statement of James Clapper, Director of National Intelligence).
    \5\ David Rohde, ``Analysis: Is Syria Now a Direct Threat to the 
U.S.?'' Reuters, February 7, 2014, http://www.reuters.com/article/2014/
02/07/us-syria-us-analysis-idUSBREA161NG20140207.
    \6\ Aaron Zelin, ``Up to 11,000 Foreign Fighters in Syria; Steep 
Rise among Western Europeans,'' ICSR Insight, December 17, 2013, 
available at http://www.washingtoninstitute.org/policy-analysis/view/
up-to-11000-foreign-fighters-in-syria-steep-rise-among-western-
europeans.
    \7\ David Horovitz, ``5,000 Hezbollah Troops in Syria, with 5,000 
More Set to Join Them,'' Times of Israel, May 26, 2013, http://
www.timesofisrael.com/5000-hezbollah-troops-in-syria-with-5000-more-
set-to-join-them/.
    \8\ Jamie Dettmer, ``Number of Shia Fighters in Syria Could Rise 
Following Fatwa,'' Voice of America, December 16, 2013,http://
www.voanews.com/content/number-of-shia-fighters-in-syria-could-rise-
following-fatwa/1811638.html.
    \9\ U.S. Executive Order 13572, ``Blocking Property of Certain 
Persons With Respect to Human Rights Abuses in Syria,'' April 29, 2011, 
http://www.treasury.gov/resource-center/sanctions/Programs/Documents/
13572.pdf.
    \10\ U.S. Department of Treasury, ``Treasury Designates Iranian 
Ministry of Intelligence and Security for Human Rights Abuses and 
Support for Terrorism,'' press release, February 16, 2012, http://
www.treasury.gov/press-center/press-releases/Pages/tg1424.aspx; U.S. 
Department of Treasury, ``Treasury Sanctions Syrian, Iranian Security 
Forces for Involvement in Syrian Crackdown,'' press release, June 29, 
2011, http://www.treasury.gov/press-center/press-releases/Pages/
tg1224.aspx.
    \11\ ``Terrorist Groups in Syria'': Hearing before the House 
Committee on Foreign Affairs, Subcommittee on Terrorism, 
Nonproliferation, and Trade, United States House of Representatives, 
113th. Cong. (November 20, 2013) (statement of Mr. Phillip Smyth), 
http://docs.house.gov/meetings/FA/FA18/20131120/101513/HHRG-113-FA18-
Wstate-SmythP-20131120.pdf; Ariel Ben Solomon, ``Report: Yemen Houthis 
Fighting for Assad in Syria,'' Jerusalem Post, May 31, 2013, http://
www.jpost.com/Middle-East/Report-Yemen-Houthis-fighting-for-Assad-in-
Syria-315005.
    \12\ ``Clapper Says Syrian al-Qaida Wants to Attack U.S.,'' 
Washington Post, January 29, 2014,http://www.washingtonpost.com/
politics/clapper-says-syrian-al-qaida-wants-to-attack-us/2014/01/29/
46f35732-8905-11e3-a760-a86415d0944d_story.html.
    \13\ Michael R. Gordon and Mark Mazzetti, ``U.S. Spy Chief Says 
Assad Has Strengthened His Hold on Power,'' New York Times, February 4, 
2014, http://www.nytimes.com/2014/02/05/world/middleeast/us-
representative-to-syrian-opposition-is-retiring.html.
    \14\ Jack Khoury, ``Israeli Arab Gets 18 Months for Trying to Join 
Fight against Assad,'' Haaretz, February 11, 2014,http://
www.haaretz.com/news/middle-east/.premium-1.573552.
    \15\ Glen Carey, ``Saudis Fearing Syrian Blowback Expand Rehab for 
Jihadis,'' Bloomberg, December 9, 2013, http://www.bloomberg.com/news/
2013-12-08/jihadis-offered-rehab-as-saudis-seek-to-avert-syria-war-
blowback.html.
    \16\ Patrick Markey and Tarek Amara, ``Insight: Tunisia Islamists 
Seek Jihad in Syria with One Eye on Home,'' Reuters, November 18, 2013, 
http://uk.reuters.com/article/2013/11/18/uk-tunisia-jihad-insight-
idUKBRE9AH0GO20131118.
    \17\ Ibid.
    \18\ David Barnett, ``Blowback in Cairo: The Syrian Civil War Has 
Now Reached the Heart of Egypt,'' Foreign Policy, January 9, 2014, 
http://www.foreignpolicy.com/articles/2014/01/09/blow 
back_in_cairo_syria.
    \19\ Mohannad Sabry, ``Al-Qaeda Emerges amid Egypt's Turmoil,'' Al-
Monitor, December 4, 2013, http://www.al-monitor.com/pulse/originals/
2013/12/al-qaeda-egypt-sinai-insurgency-growing-influence.html.
    \20\ Vish Sakthivel, ``Weathering Morocco's Syria Returnees,'' 
PolicyWatch 2148 (Washington Institute for Near East Policy, September 
25, 2013), http://www.washingtoninstitute.org/policy-analysis/view/
weathering-moroccos-syria-returnees.
    \21\ Ahmed Rasheed, ``Militants Kill 16 Iraqi Soldiers in Overnight 
Ambush,'' Reuters, February 11, 2014, http://www.reuters.com/article/
2014/02/11/us-iraq-violence-idUSBREA1A1BC20140211; Loveday Morris, 
``Shiite Militias in Iraq Begin to Remobilize,'' Washington Post, 
February 9, 2014.
    \22\ Loveday Morris, ``Shiite Militias in Iraq Begin to 
Remobilize,'' Washington Post, February 9, 2014; Aaron Y. Zelin and 
Phillip Smyth, ``The Vocabulary of Sectarianism,'' Foreign Policy, 
January 29, 2014, available at http://www.washingtoninstitute.org/
policy-analysis/view/the-vocabulary-of-sectarianism.
    \23\ ``Jordan Foils Bid to Smuggle Ammunition from Syria,'' 
Naharnet, February 24, 2014, http://naharnet.com/stories/en/1199555.
    \24\ U.S. Department of State, ``U.S. Designates Gulbuddin 
Hekmatyar a Terrorist," February 19, 2003, http://
iipdigital.usembassy.gov/st/english/texttrans/2003/02/
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="efdddfdfdcdfddded6ded9dadeded79f849a9d8e9b8eaf">[email&#160;protected]</a> 
pd.state.gov0.704632.html#axzz2t7LhTkjK. ``The List Established and 
Maintained by the 1267 Committee with respect to Individuals, Groups, 
Undertakings and Other Entities Associated with al-Qaida." United 
Nations, January 6, 2014, http://www.un.org/sc/committees/1267/pdf/
AQList.pdf.
    \25\ U.S. Department of State, Bureau of Intelligence and Research 
(INR), ``The Wandering Mujahidin: Armed and Dangerous," Weekend 
Edition, August 21-22, 1993, available at http://
www.washingtoninstitute.org/policy-analysis/view/globalized-jihad-then-
1993-and-now.69\26\ U.S. Department of Treasury, ``Treasury Designates 
UK-Based Individuals, Entities Financing Al Qaida-Affiliated LIFG," 
February 8, 2006, http://www.treasury.gov/press-center/press-releases/
Pages/js4016.aspx.
    \27\ ``Ansar al-Sharia Aid Campaign: For Our People in Bilad al-
Sham #3," Al-Riyah Media Foundation, February 9, 2014, http://
justpaste.it/ecxu.
    \28\ U.S. Department of Treasury, ``Treasury Targets Networks 
Linked to Iran," February 6, 2014, http://www.treasury.gov/press-
center/press-releases/Pages/jl2287.aspx.
    \29\ Tim Lister, ``Al Qaeda `Disowns' Affiliate, Blaming It for 
Disaster in Syria,'' CNN, February 4, 2014, http://www.cnn.com/2014/02/
03/world/meast/syria-al-qaeda/; Aaron Y. Zelin, ``Al-Qaeda 
Disaffiliates with the Islamic State of Iraq and al-Sham,'' Policy 
Alert (Washington Institute for Near East Policy, February 4, 2014), 
http://www.washingtoninstitute.org/policy-analysis/view/al-qaeda-
disaffiliates-with-the-islamic-state-of-iraq-and-al-sham.
    \30\ Yaakov Lappin, ``3 East Jerusalem al-Qaida Recruits Arrested, 
`Planned Massive Bombings,' '' Jerusalem Post, January 22, 2014, http:/
/www.jpost.com/Defense/3-al-Qaida-recruits-arrested-planned-massive-
bombings-339002.
    \31\ Aaron Y. Zelin and Phillip Smyth, ``The Vocabulary of 
Sectarianism'' Foreign Policy, January 29, 2014, available at http://
www.washingtoninstitute.org/policy-analysis/view/the-vocabulary-of-
sectarianism.
    \32\ Sarah Birke, ``Hezbollah's Choice,'' New York Times, August 6, 
2013,http://latitude.blogs. 
nytimes.com/2013/08/06/hezbollahs-choice/.
    \33\ Thomas Joscelyn, ``Online Jihadists Discuss Fate of al Qaeda 
Operative Held by Saudi Arabia,'' Long War Journal, June 27, 2013, 
http://www.longwarjournal.org/archives/2013/06/
online_jihadists_dis.php.
    \34\ Anne Barnard, ``Pressed on Syria, Hezbollah Leader Urges Focus 
on Israel,'' New York Times, August 2, 2013, http://www.nytimes.com/
2013/08/03/world/middleeast/under-fire-on-syria-hezbollah-leader-urges-
focus-on-israel.html?_r=0.
    \35\ Ali Hashem, ``Nasrallah Threatens to Double Hezbollah Forces 
in Syria,'' Al-Monitor, August 16, 2013, http://www.al-monitor.com/
pulse/originals/2013/08/nasrallah-double-forces-syria. 
html.
    \36\ ``Hezbollah Leader Hassan Nasrallah's Speech on Syria,'' 
Voltaire Network, May 25, 2013, http://www.voltairenet.org/
article178691.html.
    \37\ Ibid.
    \38\ Office of the Director of National Intelligence, ``Global 
Trends 2030: Alternative Worlds'' (National Intelligence Council, 
December 2012), http://www.dni.gov/files/documents/Global 
Trends_2030.pdf.
    \39\ Idean Salehyan, ``The Externalities of Civil Strife: Refugees 
as a Source of International Conflict,'' paper presented at the 
conference on Migration, International Relations, and the Evolution of 
World Politics (Princeton, N.J., Woodrow Wilson School of Public and 
International Affairs, Princeton University, March 16-17, 2007), http:/
/www.cas.unt.edu/idean/RefugeesWar.pdf.
    \40\ Idean Salehyan and Kristian Skrede Gleditsch, ``The Syrian 
Refugee Crisis and Conflict Spillover,'' Political Violence @ a Glance, 
February 11, 2014, http://politicalviolenceataglance.org/2014/02/11/
the-syrian-refugee-crisis-and-conflict-spillover/.

    The Chairman. Well, thank you both for some very insightful 
and alarming testimony.
    Let me ask you both. You got to a little bit of this, Dr. 
Levitt, at the end there of your statement. If you were in a 
position to prescribe policy, what would you say? Both of you, 
what would you say it should be? Why do we not start with you?
    Mr. Gartenstein-Ross. I clearly have the more minimalist 
view of what we can accomplish at this point. To me, I do not 
think we are going to be able to make an enormous difference on 
the battlefield in Syria, so I divide policy in two different 
ways. One is containing the impact of the spillover. That is 
reducing the amount of foreign fighters who go to the 
battlefield, making sure that we can track them, and reducing 
the humanitarian costs of the war.
    But I think that above all else we have to actually commit 
to a policy. We should not be on the fence between regime 
change and something else. I think we need to make a choice. I 
take a more minimalist view. I understand that many colleagues 
have a very different view than I do in that regard.
    The Chairman. Dr. Levitt.
    Dr. Levitt. Thank you. I completely agree with Daveed and 
some of the things we need to do, but I also think that, 
especially on foreign fighters, control of the border with 
Turkey, but I think there are other things we need to think 
really carefully about. How do we deny the Assad regime 
complete control over air? That does not have to be our boots 
on the ground. It does not have to be providing MANPADs to 
sketchy characters. We have other allies in the region. There 
are things we should be thinking about doing creatively in that 
area.
    I think at a certain point we need to consider things that 
were on the table at one point when we were talking about a 
redline some time ago, that we do not necessarily need to 
escalate things too far. For example, it is my understanding 
that there are only 15 to 20 runways in the entire country of 
Syria that are capable of taking the massive airplanes 
delivering resupplies from Iran and Russia both directly to the 
Assad regime and Hezbollah and their allies. We have 
specialized munitions to take out those types of runways. There 
are all kinds of complications with this, but if we were able 
to do that then the consequence for the day after would be that 
they would not be able to get the kind of weapons resupplied 
that they are using on a daily basis to create this 
humanitarian catastrophe.
    The Chairman. I think both of you referenced the challenge 
of those foreign fighters inside of Syria, who then return to 
their countries or elsewhere. Obviously, if you could take one 
of your policy suggestions, which is to control the borders and 
therefore avoid foreign fighters from coming in, you have one 
part of your answer. But how do we deal with the question of 
returning foreign fighters? In essence, are we looking at what 
is happening in Syria with al-Qaeda groups active in Syria, 
Iraq, and Lebanon? Are they in essence a JV team getting ready 
for varsity play?
    Mr. Gartenstein-Ross. It is going to be a variety of 
answers. Some people go over, do not necessarily go to the 
front line, and are drawn there for emotional reasons. Some 
people do not even link up with jihadist factions. Others do. 
So the question for those who do is, Are they ideologically 
radicalized or is this something that they can be 
reincorporated, which is a tremendous problem for some of the 
countries in the region, especially those who have legal 
regimes where going over and fighting is not against the law? 
That means that they do not have the option of simply 
arresting. They generally try to monitor, but there are all 
sorts of people who have gone over who are not necessarily on 
their radar screen, which creates an intelligence problem. So I 
think the United States can be very helpful to partner nations.
    Dr. Levitt. As the chairman is aware, I recently published 
a book on Hezbollah. As I was going about talking about this, I 
had an opportunity to meet with senior intelligence officials 
around the world where this problem is going on. Different 
countries have different ways of dealing with it, from freezing 
people's passports to even denying citizenship, that we would 
not have here in the United States.
    Here in the United States, this is a massive problem for 
FBI and DHS, trying to keep up. We have around 50 people who 
have gone, reportedly. They are not necessarily getting more 
full-time employees or more budget, but they need to keep tabs 
on every one of these people. And by the way, it is not just 
ISIS or Jibhat al-Nusra. People who are going to fight with 
nondesignated, not yet designated groups, like Al-Sham, are 
also a significant problem.
    One of the things officials told me abroad is that they are 
seeing increasingly, because Syria is not seen as an offensive 
jihad--it is a defensive jihad--people are told: Look, the West 
is not going and defending these Sunni women and children, so 
we have to do it for our own. But when they get there, most of 
these people who go, the foreign fighters, end up fighting with 
the more extreme elements and they do, I am told by these 
intelligence officials, come back far more radicalized, not all 
of them, as Daveed said, but the vast majority do. And that 
creates a tremendous problem.
    The Chairman. One final question. How much of the current 
activity in Syria, in Lebanon and Iraq reflects strategy 
guidance or operational directions from the Pakistan-based al-
Qaeda from your perspectives?
    Mr. Gartenstein-Ross. That is an excellent question. It is 
difficult to know, in part because we are trying to interpret 
what kind of guidance might be given by an organization that 
tries to keep its guidance hidden from view. We can see a few 
areas in which we can interpret them I think fairly well. We 
can see public messaging, for example, for which the Syrian 
jihad is really put at the forefront of the rhetoric coming out 
of al-Qaeda's senior leadership.
    AQSL, al-Qaeda senior leadership, tends not to become as 
operationally involved, that is micromanaging things on the 
ground. Instead, the model that they have tended to use has 
been centralization of strategy and decentralization of 
implementation. So it would absolutely be a shock if we found 
that Zawahiri was, for example, directing operations on the 
ground in Syria.
    One final thing I will note, where we can see the guidance 
coming from the broader al-Qaeda network. It was referenced in 
the previous panel by Director Olsen, the kind of tensions that 
currently exist, where the Islamic State of Iraq and Al-Sham 
was kicked out of the al-Qaeda organization. Subsequent to the 
assassination of an al-Qaeda figure, Al-Siri, one of the groups 
on the ground which is al-Qaeda-affiliated, Jibhat al-Nusra, 
put an ultimatum down after which it planned to attack ISIS. 
You had a number of al-Qaeda-affiliated clerics come out and 
condemn the ultimatum, after which Jibhat al-Nusra did back 
off.
    This is something which is an indication of when the 
organization and members who are part of its organs act to try 
to influence an outcome in a certain way, it does make an 
impact. Again, that is not to say that they are micromanaging 
tactics. But you can see the influence of strategic guidance.
    Dr. Levitt. In a nutshell, I agree with everything Daveed 
said. I just would add this. You are now seeing a very 
interesting situation where ISIS is arguably the most capable 
of the most extreme organizations on the ground in Syria and it 
has broken with al-Qaeda. And when al-Qaeda core told it to 
stop it, they said: Forget you. So it will be very interesting 
to see if this leads eventually to the downgrading of ISIS or 
to the downgrading of al-Qaeda's brand, either of which could 
happen.
    Al-Siri, who Daveed mentioned, who was assassinated, was 
affiliated not with Jibhat al-Nusra or with ISIS, but with Al-
Sham, and his assassination was another message that they are 
not really taking the al-Qaeda core leaders' message very, very 
seriously. I think that what we are going to see from here and 
from Syria going forward is the proliferation of affiliates and 
nonaffiliates without necessarily seeing al-Qaeda core 
disappear. As I said in my statement, you have al-Qaeda core 
raising funds for Jibhat al-Nusra and others in Kuwait, in 
Qatar, some of that money being funneled through Iran with 
Iran's knowledge--it does not get much more complicated than 
that.
    The Chairman. Well, thank you both for helping the 
committee in its further understanding of the challenges in 
Syria. With the appreciation of the committee, this record will 
remain open until the close of business tomorrow and the 
hearing is adjourned.
    [Whereupon, at 1:30 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


       Responses of Deputy Secretary William Burns to Questions 
                    Submitted by Senator Bob Corker

    Question. There is undoubtedly overlap between human rights abusers 
in Russia and those engaged in violating Ukraine's territorial 
integrity. Should the Magnitsky list be expanded to include these 
individuals?

    Answer. We will continue to use the Magnitsky Act to sanction 
individuals who meet its criteria, including those who commit gross 
violations of human rights.
    On March 17, President Obama issued a new Executive Order (E.O.) 
under the national emergency with respect to Ukraine that finds that 
the actions and policies of the Russian Government with respect to 
Ukraine--including through the deployment of Russian military forces in 
the Crimea region of Ukraine--undermine democratic processes and 
institutions in Ukraine; threaten its peace, security, stability, 
sovereignty, and territorial integrity; and contribute to the 
misappropriation of its assets.
    This new authority expands upon E.O. 13660, which the President 
signed March 6, by authorizing the Secretary of the Treasury, in 
consultation with the Secretary of State, to impose sanctions on named 
officials of the Russian Government, any individual or entity that 
operates in the Russian arms industry, and any designated individual or 
entity that acts on behalf of, or that provides material or other 
support to, any senior Russian Government official. We have fashioned 
these sanctions to impose costs on named individuals who wield 
influence in the Russian Government and those responsible for the 
deteriorating situation in Ukraine. We stand ready to use these 
authorities in a direct and targeted fashion as events warrant.
    Given that we already have the authority to target persons, 
including Russians, who are engaged in violating Ukraine's sovereignty 
and territorial integrity, we do not believe it is necessary to expand 
the Magnitsky Act criteria. Doing so could distract from the intended 
purpose of the act, which was to highlight human rights abusers within 
the state of Russia.

    Question. DIA Director Lieutenant General Flynn testified that 
while chemical weapons stockpiles currently remain under regime 
control, the ``instability in Syria presents a perfect opportunity for 
al-Qaeda and associated groups to acquire these weapons or their 
components.'' How concerned are you about this possibility?

    Answer. We are aware of the risks associated with the security 
situation in Syria, and we continue to monitor Syria's proliferation-
sensitive materials, as we have throughout the ongoing conflict. We 
assess that the Asad regime remains capable of maintaining the safety 
and security of its chemical weapons agent and precursors while they 
remain in Syria. We have been clear that the best way to reduce any 
risk of proliferation is for Syria to comply promptly with its 
obligations under U.N. Security Council Resolution 2118, the relevant 
OPCW Executive Council decisions, and the Chemical Weapons Convention. 
Syria needs to ensure a successful handoff of these materials to the 
international community at the Port of Latakia, so that they can be 
destroyed outside of Syria.
    The United States and the international community have provided 
extensive material assistance through the OPCW-U.N. Joint Mission to 
ensure that Syria is able to safely and securely transport these 
materials, and the regime has demonstrated its capacity to do so over 
the recent weeks. While we cannot fully discount the possibility of an 
extremist group in Syria seeking to acquire chemical weapons agent or 
precursor, both the Syrian Opposition Coalition and the Supreme 
Military Council have publicly indicated that they support the 
elimination mission and have pledged to cooperate with the OPCW-U.N. 
Joint Mission. We continue to work with the OPCW-U.N. Joint Mission to 
ensure that CW materials are removed from Syria as safely and 
expeditiously as possible.

    Question. In the absence of greater American or international 
involvement, what do you believe Syria will look like in 3 years? In 5 
years? Is that a situation that we can reasonably contain? How can we 
prepare for a decade of instability caused by the Syrian conflict?

    Answer. In my testimony, I highlighted four serious risks to our 
national interest posed by the current conflict--the risk to the 
homeland from global jihadist groups who seek to gain long-term safe 
havens; the risk to the stability of our regional partners, including 
Jordan, Lebanon and Iraq; the risk to Israel and other partners from 
the rise of Iranian-backed extremist groups, especially Lebanese 
Hezbollah fighting in Syria; and the risk to the Syrian people, whose 
suffering constitutes the greatest humanitarian crisis of this new 
century. On the current trajectory, all of these risks will be 
exacerbated over the next 3 to 5 years and it will be increasingly 
difficult to contain spillover from the conflict.
    While we pursue a diplomatic solution, we are putting in place the 
elements of a long-term response to this protracted crisis--reducing 
the threat posed by terrorist networks in Syria, pushing hard against 
Iranian financing and material support to its proxy groups in Syria and 
elsewhere, intensifying our efforts to strengthen Syria's endangered 
neighbors, and supporting global efforts to ease the humanitarian 
crisis in Syria and the region.
    To help mitigate the security and humanitarian challenges, the 
Department of State and USAID are providing more than $260 million in 
nonlethal assistance to support Syria's moderate opposition. The U.S. 
Government is also the single-largest donor of humanitarian assistance 
for those affected by the crisis, providing more than $1.7 billion in 
aid--nearly $878 million to support those inside Syria, and nearly $862 
million to support refugees fleeing Syria and assist host communities 
in neighboring countries.
    In FY 2015, we have requested $155 million to advance a political 
transition, counter violent extremism, support communities in liberated 
areas to maintain basic services and compete with extremist groups, and 
preserve U.S. national security interests in the region. The FY 2015 
request also includes $1.1 billion for the ongoing humanitarian 
response in Syria and the region--more than 11.7 million people have 
been affected by the crisis to date, a number which is likely to 
continue to rise over the next several years.
    We are clear-eyed about the fact that this conflict poses 
significant challenges for U.S. security and those of our partners. 
There is no doubt that sustained U.S. engagement and attention, in 
concert with our international and regional allies, will be required.
                                 ______
                                 

       Response of Assistant Secretary Derek Chollet to Question 
                    Submitted by Senator Bob Corker

                             steadfast jazz
    Question. In November 2013, NATO held its largest live-fire 
military exercise since 2006. The exercise, called Steadfast Jazz, 
involved over 6,000 NATO troops but the U.S. contribution was only 160 
personnel. Why was the U.S. contribution so meager?

    Answer. The purpose of STEADFAST JAZZ 2013 was to certify the Joint 
Force Headquarters and component headquarters for NATO Response Force 
(NRF) 2014. Because the United States does not provide the Joint Force 
Headquarters any of the component headquarters, or a major ground 
element to NRF 2014's Immediate Response Force, a larger contribution 
would have been inconsistent with the exercise's primary purpose. 
STEADFAST JAZZ 2013 was combined with a command post exercise in the 
Baltic States, and although approximately 6,000 NATO troops 
participated in both exercises, the STEADFAST JAZZ ground live-fire 
portion was relatively small, and only a few hundred allied military 
personnel were involved. STEADFAST JAZZ 2013 marked the first time that 
a U.S. ground unit participated in a NRF certification exercise, and 
also marked the first time that a unit based in the United States 
deployed to train in Europe since the REFORGER exercises of the early 
1990s.

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
